                        OIG REPORT #09-01
                        The Office of Inspector General's report on the
                        RRB's financial statements begins on page 93
                        of the Railroad Retirement Board's FY 2008
                        Performance and Accountability Report.




    RAILROAD RETIREMENT BOARD



PERFORMANCE AND ACCOUNTABILITY

          REPORT





         FISCAL YEAR 2008

BLANK PAGE FOR PRINTING PURPOSES

                                            Railroad Retirement Board 

                                      Performance and Accountability Report 

                                                 Fiscal Year 2008 




                                                     TABLE OF CONTENTS
                                                                                                                                         PAGE

Message from the Board Members .........................................................................                                      3


Management’s Discussion and Analysis................................................................                                          7

     Overview of the Railroad Retirement Board.......................................................................                         7

         Mission .........................................................................................................................    7

         Major Program Areas ...................................................................................................              7

             Railroad Retirement Act .........................................................................................                8

             Railroad Unemployment Insurance Act..................................................................                            9

         Reporting Components ................................................................................................               10

         RRB Organizational Structure ......................................................................................                 10

         Financial Highlights ......................................................................................................         13

             Comparison of Net Cost of Operations and Financing Sources.............................                                         14

             Railroad Retirement Investments at Treasury........................................................                             18

             National Railroad Retirement Investment Trust .....................................................                             19

     Program, Operations, and Financial Performance and Results.........................................                                     20

     Strategic Goals and Objectives ..........................................................................................               21

         Future Plans/Objectives ...............................................................................................             30

             Program Improvements..........................................................................................                  30

             Systems and Controls ............................................................................................               31

                 Management Assurances.................................................................................                      33

             Summary of Actuarial Forecast ..............................................................................                    34

     Limitations of the Financial Statements .............................................................................                   34


Performance Section – Government Performance and Results Act (GPRA) 

 Report.............................................................................................................................         37


Financial Section ......................................................................................................                     57

     Message from the Chief Financial Officer ..........................................................................                     57

     Financial Statements..........................................................................................................          58

        Consolidated Balance Sheet ........................................................................................                  58

        Consolidated Statement of Net Cost ............................................................................                      59

        Consolidated Statement of Changes in Net Position ...................................................                                60


                                                                     I

                                                     TABLE OF CONTENTS

                                                                                                                                       PAGE

         Combined Statement of Budgetary Resources ............................................................                             62

         Statement of Social Insurance .....................................................................................                63

      Notes to the Financial Statements .....................................................................................               64

      Required Supplementary Information ................................................................................                   83

         Social Insurance...........................................................................................................        83

             Program Financing .................................................................................................            83

             Benefits ..................................................................................................................    84

             Program Finances and Sustainability.....................................................................                       84

         Disaggregate of Budgetary Resources ........................................................................                       92

      Auditor’s Reports................................................................................................................     93


 Other Accompanying Information........................................................................... 105

      Inspector General’s Statement on Management and Performance Challenges ................                                              105

      Management’s Comments .................................................................................................              110

      Improper Payments Information Act (IPIA) Reporting Details............................................                               113

      Summaries of Financial Statement Audit and Management Assurances ..........................                                          118


 Appendices ............................................................................................................... 121

      Glossary of Acronyms and Abbreviations .......................................................................... 121

      RRB Board Members, Inspector General, and Executive Committee ............................... 124




RRB’s fiscal year 2008 Performance and Accountability Report is available on the Internet at: www.rrb.gov




                                                                    II

MESSAGE FROM THE BOARD MEMBERS
PAGE INTENTIONALLY LEFT BLANK 

                          Message from the Board Members


This fiscal year 2008 Performance and Accountability Report highlights the goals and
accomplishments of the Railroad Retirement Board (RRB) in achieving its mission of
administering the retirement, disability, and survivor benefit program provided under the
Railroad Retirement Act (RRA) and the unemployment and sickness insurance benefit program
provided under the Railroad Unemployment Insurance Act (RUIA). This report describes our
continuing efforts to provide timely and useful information to RRB managers, the Office of
Management and Budget (OMB), the Congress, and our constituents. We are proud of the
agency’s dedicated employees whose achievements are reflected in this report.

The RRB has a long and distinguished tradition of excellence in serving our customers and
safeguarding the agency’s trust funds. In recent years, we have achieved high levels of
accuracy and timeliness in the benefit programs we administer. In fiscal year 2007, the RRB’s
two benefit programs (the RRA and RUIA) were evaluated for the first time under the Program
Assessment and Rating Tool (PART) process. Each program earned an overall performance
rating of “Effective”, which is the highest rating a program can achieve. According to OMB,
“Programs rated Effective set ambitious goals, achieve results, are well-managed and improve
efficiency.” In fiscal year 2008, the agency continued to perform well; we posted online updates
to our short and long-term program performance targets, and are continuing to improve agency
operations and customer service.

We believe the performance and financial data presented in this report are complete and
reliable in accordance with OMB guidance. The adequacy and effectiveness of our
management controls and the compliance of our financial management systems with
governmentwide requirements is delineated in the Systems and Controls part of the
Management’s Discussion and Analysis section. That part also provides the status of the
actions we are taking and progress we are making to correct Office of Inspector General
identified material weaknesses in information technology security and financial reporting.

We will continue to apply information technology and innovation to provide excellent customer
service to the railroad employers, railroad employees, and the beneficiaries whom we serve.
We are also committed to prudent stewardship over the agency trust funds and the
administrative resources entrusted to us.

                                                                             Original signed by:

                                                              Michael S. Schwartz, Chairman
                                                          V. M. Speakman, Jr., Labor Member
                                                      Jerome F. Kever, Management Member

                                                                             November 6, 2008




                                              -3-
PAGE INTENTIONALLY LEFT BLANK 

MANAGEMENT’S DISCUSSION AND ANALYSIS
PAGE INTENTIONALLY LEFT BLANK 

                        Management’s Discussion and Analysis

Overview of the Railroad Retirement Board (RRB)

Mission

The RRB is an independent agency in the executive branch of the Federal Government. The
agency’s mission statement is as follows:

       The RRB’s mission is to administer retirement/survivor and unemployment/sickness insurance
       benefit programs for railroad workers and their families under the Railroad Retirement Act and the
       Railroad Unemployment Insurance Act. These programs provide income protection during old
       age and in the event of disability, death or temporary unemployment and sickness. The RRB
       also administers aspects of the Medicare program and has administrative responsibilities under
       the Social Security Act and the Internal Revenue Code. In carrying out its mission, the RRB will
       pay benefits to the right people, in the right amounts, in a timely manner, and will take appropriate
       action to safeguard our customers’ trust funds. The RRB will treat every person who comes into
       contact with the agency with courtesy and concern, and respond to all inquiries promptly,
       accurately and clearly.


Major Program Areas

The RRB was created in the 1930’s by legislation establishing a retirement benefit program for
the nation’s railroad workers. Private industrial pension plans had been pioneered in the
railroad industry; the first industrial pension plan in North America was established on a railroad
in 1874. By the 1930’s, pension plans were far more developed in the rail industry than in most
other businesses or industries, but these plans had serious defects which were magnified by the
Great Depression.

The economic conditions of the 1930’s demonstrated the need for retirement plans on a national
basis because few of the nation’s elderly were covered under any type of retirement program.
While the social security system was in the planning stage, railroad workers sought a separate
railroad retirement system which would continue and broaden the existing railroad programs
under a uniform national plan. The proposed social security system was not scheduled to begin
monthly benefit payments for several years and would not give credit for service performed prior
to 1937, while conditions in the railroad industry called for immediate benefit payments based
on prior service.

Legislation was enacted in 1934, 1935, and 1937 to establish a railroad retirement system
separate from the social security program legislated in 1935. Such legislation, taking into
account particular circumstances of the rail industry, was not without precedent. Numerous
laws pertaining to rail operations and safety had already been enacted since the Interstate
Commerce Act of 1887. Since passage of the Railroad Retirement Acts of the 1930’s,
numerous other railroad laws have subsequently been enacted.

While the railroad retirement system has remained separate from the social security system, the
two systems are closely coordinated with regard to earnings credits, benefit payments, and


                                                   - 7 -

taxes. The financing of the two systems is linked through a financial interchange under which,
in effect, the portion of railroad retirement annuities that is equivalent to social security benefits
is coordinated with the social security system. The purpose of this financial coordination is to
place the social security trust funds in the same position they would be in if railroad service were
covered by the social security program instead of the railroad retirement program.

Legislation enacted in 1974 restructured railroad retirement benefits into two tiers, so as to
coordinate them more fully with social security benefits. The first tier is based on combined
railroad retirement and social security credits, using social security benefit formulas. The
second tier is based on railroad service only and is comparable to the private pensions paid
over and above social security benefits in other industries.

The railroad unemployment insurance system was also established in the 1930’s. The Great
Depression demonstrated the need for unemployment compensation programs, and State
unemployment programs had been established under the Social Security Act in 1935. While the
State unemployment programs generally covered railroad workers, railroad operations which
crossed State lines caused special problems. Unemployed railroad workers were denied
compensation by one State because their employers had paid unemployment taxes in another
State. Although there were cases where employees appeared to be covered in more than one
State, they often did not qualify in any.

A Federal study commission, which reported on the nationwide State plans for unemployment
insurance, recommended that railroad workers be covered by a separate plan because of the
complications their coverage had caused the State plans. The Congress subsequently enacted
the Railroad Unemployment Insurance Act (RUIA) in June 1938. The RUIA established a
system of benefits for unemployed railroad workers, financed entirely by railroad employers and
administered by the RRB. Sickness insurance benefits were added in 1946.

   Railroad Retirement Act

Under the Railroad Retirement Act (RRA), retirement and disability annuities are paid to railroad
workers with at least 10 years of service. Such annuities are also payable to workers with
5 years of service if performed after 1995.

Full age annuities are payable at age 60 to workers with 30 years of service. For those with
less than 30 years of service, reduced annuities are payable at age 62 and unreduced annuities
are payable at full retirement age, which is gradually rising from 65 to 67, depending on the year
of birth. Disability annuities can be paid on the basis of total or occupational disability.
Annuities are also payable to spouses and divorced spouses of retired workers and to
widow(er)s, surviving divorced spouses, remarried widow(er)s, children, and parents of
deceased railroad workers. Qualified railroad retirement beneficiaries are covered by Medicare
at age 65, or earlier if disabled, in the same way as social security beneficiaries.

Jurisdiction over the payment of retirement and survivor benefits is shared by the RRB and the
Social Security Administration (SSA). The RRB has jurisdiction over the payment of retirement
benefits if the employee had at least 10 years of railroad service, or 5 years if performed after
1995; for survivor benefits, there is an additional requirement that the employee’s last regular
employment before retirement or death was in the railroad industry. If a railroad employee or
his or her survivors do not qualify for railroad retirement benefits, the RRB transfers the
employee’s railroad retirement credits to SSA, where they are treated as social security credits.



                                                - 8 -

Payroll taxes paid by railroad employers and their employees are the primary source of funding
for the railroad retirement and survivor benefit programs. By law, railroad retirement taxes are
coordinated with social security taxes. Employees and employers pay tier 1 taxes at the same
rate as social security taxes. In addition, both employees and employers pay tier 2 taxes which
are used to finance railroad retirement benefit payments over and above social security levels.
Tier 2 taxes are based on the ratio of certain asset balances to the sum of benefit payments and
administrative expenses. Historically, railroad retirement taxes have been considerably higher
than social security taxes.

Revenues in excess of benefit payments are invested to provide additional trust fund income,
and the legislation enacted in 2001 allows for Railroad Retirement Account funds transferred to
the National Railroad Retirement Investment Trust (NRRIT) to be invested in non-governmental
assets, as well as in governmental securities. Funds transferred from the Social Security
Equivalent Benefit Account to the NRRIT are allowed to be invested only in governmental
securities. The legislation also established the NRRIT, whose Board of seven trustees
oversees these investments. The Board of Trustees is comprised of three members selected by
rail labor to represent the interests of labor; three members likewise selected by rail
management to represent management interests; and one independent member selected by a
majority of the other six members.

Another major source of income to the railroad retirement and survivor benefit program consists
of transfers from the social security trust funds under a financial interchange between the two
systems. The financial interchange is intended to place the social security trust funds in the
same position in which they would have been had railroad employment been covered by the
Social Security Act and Federal Insurance Contributions Act (FICA). In fiscal year 2008, the
RRB trust funds realized a net of $3.6 billion, representing 39 percent of RRB financing sources
(excluding transfers to/from the NRRIT and the decrease in NRRIT net assets), through the
financial interchange.

Other sources of income currently include revenue resulting from Federal income taxes on
railroad retirement benefits (tier I, tier II and vested dual benefits), and appropriations from
general Treasury revenues provided after 1974 as part of a phase-out of certain vested dual
benefits.

   Railroad Unemployment Insurance Act

Under the RUIA, unemployment insurance benefits are paid to qualified railroad workers who
are unemployed but ready, willing, and able to work and sickness insurance benefits to railroad
workers who are unable to work because of illness, injury, or pregnancy. The RRB also
operates a placement service to assist unemployed railroad workers in securing employment.

A new unemployment and sickness insurance benefit year begins every July 1, with eligibility
generally based on railroad service and earnings in the preceding calendar year. Up to
26 weeks of normal unemployment and 26 weeks of sickness insurance benefits are payable to
an individual in a benefit year. Additional extended benefits are payable for up to 13 weeks to
persons with 10 or more years of service.

The railroad unemployment and sickness insurance benefit program is financed by taxes on
railroad employers under an experience rating system initiated in 1991. Each employer’s
payroll tax rate is determined annually by the RRB on the basis of benefit payments to the
railroad’s employees.


                                                -9-
Reporting Components

The RRB, as an independent agency in the executive branch of the U.S. Government, is
responsible for administering the RRA and the RUIA. The financial statements include the
accounts of all funds under the control of the RRB and the Office of Inspector General (OIG).
These funds consist of two administrative funds, three trust funds, two general funds and
one deposit fund.

RRB Organizational Structure

The RRB is headed by three Board Members appointed by the President of the United States,
with the advice and consent of the Senate. One member is appointed upon recommendation of
railroad employers; one is appointed upon recommendation of railroad labor organizations; and
the third, who is the Chairman, is appointed to represent the public interest. The Board
Members’ terms of office are 5 years and are scheduled to expire in different years. The
Chairman of the Board is Michael S. Schwartz, the Labor Member is V. M. Speakman, Jr., and
the Management Member is Jerome F. Kever. The President also appoints an Inspector
General for the RRB; the Inspector General is Martin J. Dickman.

The primary function of the RRB is the determination and payment of benefits under the railroad
retirement and survivor and the unemployment and sickness insurance programs. To this end,
the RRB employs field representatives to assist railroad personnel and their families in filing
claims for benefits, examiners to adjudicate the claims, and information technology staff,
equipment, and programs to maintain earnings records, calculate benefits, and process
payments. The RRB also employs actuaries to predict the future income and outlays of the
agency’s trust funds and accounts, statisticians and economists to provide vital data, and
attorneys to interpret legislation and represent the RRB in litigation. Internal administration
requires a procurement staff, a budget and accounting staff, quality assurance staff, and
personnel specialists. The Inspector General employs auditors and investigators to detect
waste, fraud, or abuse in the benefit programs.

The RRB’s headquarters is located at 844 North Rush Street in Chicago, Illinois. The RRB field
structure is comprised of 53 offices located throughout the United States as shown on page 12.




                                             - 10 -

                                                            U.S. RAILROAD RETIREMENT BOARD


                                                                            THE BOARD                               CHIEF ACTUARY *
                                      OFFICE OF

       OFFICE OF
                    INSPECTOR

                                                                     Chairman , Michael S. Schwartz

         EQUAL
                       GENERAL
                                                                        BUREAU OF
                                                                   Labor Member, V.M. Speakman , Jr.
                THE ACTUARY

     OPPORTUNITY
                  Martin J. Dickman
                                                                  Management Member, Jerome F. Kever
                 Frank J. Buzzi

     Lynn E. Cousins



                                                                       EXECUTIVE COMMITTEE

         MEMBER                           MEMBER                       SENIOR EXECUTIVE                     MEMBER                           MEMBER
     Kenneth P. Boehne                Steven A. Bartholow                  OFFICER                      Dorothy A. Isherwood             T erri S. Morgan
                                                                        Henry M. Valiulis

             I                                   I                                I                             I                                    I
     CHIEF FINANCIAL
                      OFFICE OF
                       OFFICE OF
                  OFFICE OF                       CHIEF INFORMATION

         OFFICER
                     GENERAL COUNSEL
                   ADMINISTRATION
                PROGRAMS                             OFFICER

     --- ----- ----- -_ .              Steven A. Bartholow                Henry M. Valiulis         Dorothy A. Isherwood                ------ - ----------- -
       BUREAU OF
                                                                                                                          BUREAU OF

-
        FISCAL

       OPERATIONS

                                        OFFICE OF
                                       LEGISLATIVE
                                                                                  I
                                                                         ACQUISITION
                                                                         MANAGEMENT
                                                                                                         OPERATIONS
                                                                                                         Robert J. Duda
                                                                                                                               '­
                                                                                                                                          INFORMATION

                                                                                                                                            SERVICES

     Kenneth P. Boehne                                       f­                                                                           Terri S. Morgan
                                         AFFAIRS                          Paul T. Ahern
                                     Margaret S. Lindsley
                                                                        REAL PROPERTY
                                                                         MANAGEMENT                      POLICY AND
                                        BUREAU OF                          Scott Rush                     SYSTEMS              I­
                                       HEARINGS AND
                                         APPEALS
                                                             -                                           Ronald Russo

                                        Arthur A. Arfa
                                                                        PUBLIC AFFAIRS        -           RESOURCE

                                                                          Anita Rogers                   MANAGEMENT

                                      SECRETARY TO                                                                             ~


                                                                                                            CENTER
                                        THE BOARD
                                                             I­                                         Janet M. Hallman
                                      Beatrice E. Ezerski
                                                                           BUREAU OF

                                                                             HUMAN
           f-     ASSESSMENT
                                                                          RESOURCES
                 AND TRAINING              -
                                                                          Keith B. Earley           Catherine A. Leyser


                                                                                                     FIELD SERVICE
                                                                                                                               -
                                                                                                    Martha M. Barringer


       * Non-voting member of the Executive Committee.                                                                                             October 2008
                                                                                                          U.S. RAILROAD RET IREMENT BOARD

            ~
                  ~_..~                                                                                                                                           District Office Map

             '.         .. ""''';;;;;;'~ . -..,....7"01"-"-.._ "_" __'_•._ ••_. __ ••_ ••_,._.._••_.                                                                            '-"-"-"

            )
                             8<lllev",
                                                 "   I
                                                        ..
                                                 Spokane I
                                                              .
                                                              ;
                                                                               i
                                                                               I
                                                                               \
                                                                                      0"T4"4
                                                                                                                                                                  j

                                                                                                                                                                 .;
                                                                                                                                                                      NORTH DAKOTA

                                                                                                                                                                                              M;~~.'
                    -'-?")
                                                                               (
                                                          f                    \                                                                                 !
                                                          I                        <,                                                                            r
            PO<1l and                        OREGON                                  r                                         B,'" ng,                     1-_. • ._ .__•
                                                                                                                                                            !    _        ­
                                                                                     ''''.\
                                                                                           \.
                                                                                               ' ---_.'J!
                                                                                               lOAHO
                                                                                                           ,. ._-------_._._---..,i.i
                                                                                                               WYOM'NG
                                                                                                                                 •
                                                                                                                                                           I
                                                                                                                                                                     SOUTH DAKOT4




                                                   i i i
                         "'7::--_.
                             EVAD
                             •"          4
                                                 ._
                                                  ;
                                                  I
                                                     i  L ,__._. ._.__
                                                       - - - -• .,.. - -. -. -.
                                                                                                      I.                                               .
                                                                                                                                                       I; NEBRASM
                             I                                   I UTAH                                                                                •

                         i                                                     J                      i                                                !
                        i•
                                                                           !
                                                                           I               •      .
                                                                                                      t'- --',_._.__._--_.•
                                                                                                             I COLORAOO
                                                                                                                                                      .L _'_'__

                                                                                                                                                                         r~~-;--
                        f                                              i             Salt Lake City                        •                                             !l                      _
                   i
                    \.\
                                 \                                i
                                                                       i
                                                                      I!                                           jI; •                       ~..•                     i•
                                                                                                                                                                        !
........

N                                    .                            !                                                j                                                    !             .              ,
                                             -
                                     '-'-'' .-(- '! -"4 -
                                                              r..~
                                                         _--1---_._--,.---'--
                                                            " !.NEW MEXICO
      !' --------- ---
                                                                            ,1---'---'-'       '"  \ '..
                                                                                                  ---- ---- ----1s;
                                                                                                                                                                                     ~"_                     ~~
                                                                                       I

                                             \
                                               \            i               !
                                                                            - TEXAS
                                                                                       I

            ~
                                                   '                                                           ' .
                                                                                                               '               Albuque rqu e
                                                                                                                                                              f
                                                                                                                                                               .~
                                                                                                                                                                _ _

                                                                                                                                                                                '         .
                                                                                                                                                            I.I   I
                                                                                                           1I                                                                                        ,
                                                                                                            o
                                                                                                           o
                                                                                                                                                            .
                                                                                    •
                                                                                   M esa

                                                                                                           •                                                I                                            I        _.•.
                                                       .. . . . . . . .I!                                                                                  I•i                            •              Irc;;;;,.

                                                                            ;                                                                              !
                                                           <,, ··....··_ ..L! ..                                   r"-''''----­                                                       Ft Worth           ,




                                 LEGEND

                   •             District Office



                                                                                                                                                                                                                         ."
                                                                                                                                                                                                                              10-08
Financial Highlights

Amounts in the Railroad Retirement (RR) Account not needed to pay current benefits and
administrative expenses are transferred to the NRRIT whose Board of seven trustees is
empowered to invest NRRIT assets in non-governmental assets, such as equities and debt, as
well as in governmental securities. Amounts in the Social Security Equivalent Benefit (SSEB)
Account not needed to pay current benefits and administrative expenses are transferred to
either the RR Account or the NRRIT. Amounts transferred from the SSEB Account to the
NRRIT may be used only to pay benefits or to purchase obligations that are backed by the full
faith and credit of the United States.

Shown below are snapshots of the net position, financing sources, and benefit payments
(before elimination of inter-fund transactions) for the RRB accounts. All dollar amounts are in
millions.

                            Net Position, Financing Sources, and Benefit Payments
                                                  (In millions)

                                                                                                     2008                 2007
 NET POSITION AT SEPTEMBER 30
   Social Security Equivalent Benefit Account                                                        $      456.8         $      450.4
   Railroad Retirement Account 1/                                                                        25,610.8             32,954.2
   Railroad Retirement Administration Fund                                                                    3.5                  6.2
   Railroad Unemployment Insurance Trust Fund --
     Benefit Payments                                                                                     99.9                100.7
     Administrative Expenses                                                                              10.0                  9.1
   Limitation on the Office of Inspector General                                                            .5                   .2
   Dual Benefits Payments Account                                                                          5.7                  6.1
   Federal Payments to the Railroad Retirement Accounts                                                     .5                   .5
      Total                                                                                          $26,187.7            $33,527.4

 FINANCING SOURCES FOR FISCAL YEAR
    Social Security Equivalent Benefit Account                                                       $ 6,130.5            $ 6,010.8
    Railroad Retirement Account 2/                                                                    (3,305.7)             7,544.7
    Railroad Retirement Administration Fund                                                              109.2                111.4
    Railroad Unemployment Insurance Trust Fund --
      Benefit Payments                                                                                    79.2                 78.0
      Administrative Expenses                                                                               .9                  (.3)
    Limitation on the Office of Inspector General                                                          7.4                  7.5
    Dual Benefits Payments Account                                                                        77.7                 86.5
    Federal Payments to the Railroad Retirement Accounts 3/                                              359.1                460.1
       Total                                                                                         $ 3,458.3            $14,298.7

 BENEFIT PAYMENTS FOR FISCAL YEAR 4/
   Social Security Equivalent Benefit Account                                                        $ 5,945.2             $5,701.6
   Railroad Retirement Account                                                                         4,036.2              4,034.4
   Railroad Unemployment Insurance Trust Fund --
    Unemployment Insurance                                                                                35.3                    28.5
    Sickness Insurance                                                                                    44.7                    46.1
   Dual Benefits Payments Account                                                                         77.7                    86.5
     Total                                                                                           $10,139.1                $9,897.1


1/   NRRIT-held net assets are a financing source and are included in the Railroad Retirement Account above. 

2/   Change in NRRIT-held net assets is included in the Railroad Retirement Account above. 

3/   Includes funds subsequently transferred to other accounts. Such inter-fund transfers are eliminated in the preparation of the 

     consolidated statements.
4/   Net of recoveries and excludes SSA benefit payments.




                                                               - 13 -
The RRB’s financial statements are comprised of: Balance Sheet and Statements of Net Cost,
Changes in Net Position, Budgetary Resources, and Social Insurance and notes which are an
integral part of the statements. We also present as required supplementary information a
discussion of the actuarial outlook for the railroad retirement program and the Disaggregate of
Budgetary Resources.

   Comparison of Net Cost of Operations and Financing Sources

The net cost of operations for fiscal years 2008 and 2007 were $10,438.6 million and
$10,195.1 million, respectively. The details of the net cost of operations by type, amount,
increase or decrease, and percentage change from fiscal year 2007 to fiscal year 2008 are
shown below. Additional information regarding the net cost of operations and financing sources
for fiscal years 2008 and 2007 is shown on the following pages.


                                  NET COST OF OPERATIONS
                                        (In millions)

                                                                        Amount of      Percent of
                                                                         Increase       Increase
                                         FY 2008       FY 2007         (Decrease)     (Decrease)

 Interest expense – Treasury borrowing    $   177.1      $    179.8          ($2.7)         (1.5%)

 Salaries and expenses                        120.0           117.5            2.5           2.1%

 Benefit payments – RRB                   10,163.6           9,922.4         241.2           2.4%

 Other expenses                                11.9              9.0           2.9          32.2%

  Subtotal                                10,472.6       10,228.7            243.9           2.4%

 Less: Earned revenues                         34.0            33.6            0.4           1.2%

  Net cost of operations                 $10,438.6      $10,195.1           $243.5           2.4%




                                              - 14 -
                               FY2008
                       NET COST OF OPERATIONS
                                     (In millions)                   Benefit
                                                                    Payments
                                                                    $10,163.6
                                                                     97.05%




                                                              Other
         Salaries                                           Expenses
           and               Interest                         $11.9
        Expenses            Expense                           0.1%
          $120.0             $177.1
          1.15%               1.7%


Totals $10,472.6 million, excluding reimbursements and earned revenues of $34 million.



                               FY2007

                       NET COST OF OPERATIONS

                                     (In millions)
                   Benefit
                                                                    Payments
                                                                     $9,922.4
                                                                     97.00%




                                                              Other
         Salaries                                           Expenses
           and               Interest                         $9.0
        Expenses            Expense                          0.09%
          $117.5             $179.8
          1.15%               1.76%


Totals $10,228.7 million, excluding reimbursements and earned revenues of $33.6 million.




                                        - 15 -
The following table shows financing sources (excluding changes in unexpended appropriations)
by type, amount, increase or decrease, and percentage change from fiscal year 2007 to fiscal
year 2008.


                                             FINANCING SOURCES
                                                 (In millions)

                                                                                       AMOUNT          PERCENT
                                                                                         OF               OF
                                                                                      INCREASE        INCREASE
                                                    FY 2008            FY 2007       (DECREASE)      (DECREASE)

Appropriations used                                  $ 436.7           $     546.6       ($109.9)          (20.1)

Taxes and other non-exchange revenues:
 Payroll taxes                                        4,938.9            4,717.9            221.0            4.7
 Interest revenue and other income                       45.3               58.3            (13.0)         (22.3)
 Carriers refunds – principal*                          (15.5)             164.3           (179.8)        (109.4)
 RUI revenue                                             93.9               90.3              3.6            4.0
   Subtotal                                          $5,062.6          $ 5,030.8            $31.8            0.6

Imputed financing (amount to be provided
 by the Office of Personnel Management to
 pay future retirement benefits to RRB
 employees)                                                8.6                 8.9           (0.3)          (3.4)

Transfers in:
  Financial Interchange, net                          3,633.2            3,573.5             59.7            1.7
  NRRIT                                               1,298.0            1,391.0            (93.0)          (6.7)
    Subtotal                                         $4,931.2          $ 4,964.5            (33.3)          (0.7)

Other:
 Change in NRRIT net assets                           (7,339.9)            3,287.8      (10,627.7)        (323.2)

 Subtotal                                            $3,099.2          $13,838.6       ($10,739.4)         (77.6)

Less: Transfers out to NRRIT                               0.0                 0.0            0.0            0.0

 Total                                               $3,099.2          $13,838.6       ($10,739.4)         (77.6)

* Carriers refunds include the reversal of a contingent liability in 2007.



The significant difference between the RRB’s financial statements for fiscal year 2007 and fiscal
year 2008 was the change in NRRIT net assets. The decrease in NRRIT net assets of
$7,339.9 million is due to market fluctuations during the past year. There is a section on
page 19 that describes the NRRIT, and the NRRIT net assets balances for 2007 and 2008 are
shown in the RRB’s Financial Section on page 58 of this publication.




                                                         - 16 -
                                  FINANCING SOURCES (In Millions)
                                             FY 2008
$ 6,000
                $4,931.2                            $5,062.6


 4,000


 2,000

                                   $436.7
                                                                    $8.6
      0

              Transfers        Appropriations     Taxes and       Imputed
     Change in
                  In               Used             Other        Financing
      NRRIT
(2,000)                                         Non-Exchange
                  Net Assets
                                                  Revenues


(4,000)


(6,000)


                                                                                 ($7,339.9)
(8,000)



                            Total Financing Sources $3,099.2 million




                                FINANCING SOURCES (In Millions)
                                           FY 2007
 $ 6,000

                 $4,964.5                           $5,030.8
   5,000


   4,000
                                                                                 $3,287.8

   3,000



   2,000



   1,000

                                    $546.6
                                                                    $8.9
          0
              Transfers       Appropriations      Taxes and      Imputed      Change in
                  In              Used              Other       Financing       NRRIT
                                                Non-Exchange                  Net Assets
                                                  Revenues



                            Total Financing Sources $13,838.6 million




                                                  - 17 -
   Railroad Retirement Investments at Treasury

The book value of all railroad retirement investments, including accrued interest, increased to
$1,407.3 million as of September 30, 2008, from $1,323.6 million on September 30, 2007
(excludes NRRIT net assets). The graph below reflects the book value of the railroad retirement
investments from September 30, 2004, through September 30, 2008.


        INVESTMENT BALANCES HELD AT TREASURY (AT BOOK VALUE)
                     AT SEPTEMBER 30, 2004 - 2008

                               (In millions, excluding NRRIT net assets)




        $1,500.0
                                                                                   $1,407.3
        $1,400.0                                                  $1,323.6
                    $1,304.4
        $1,300.0                    $1,265.2
                                                    $1,203.7
        $1,200.0
        $1,100.0
                      2004             2005           2006          2007             2008




The following chart shows the portfolio of the railroad retirement investments as of
September 30, 2008.

                   RAILROAD RETIREMENT INVESTMENTS HELD AT TREASURY
                                 AS OF SEPTEMBER 30, 2008
                                       (In millions, excluding NRRIT net assets)



                                                                                         RR Account
                                                                                           $624.9
                                                                                            44%
                               SSEB
                             Account
                              $782.4
                               56%




                          AT BOOK VALUE

                               Total $1,407.3





                                                    - 18 -
     Railroad Retirement Account

On September 30, 2008 and 2007, the book values of the RR Account investments, excluding
NRRIT assets, including accrued interest, totaled $624,855,271 and $597,361,803, respectively.
The balance on September 30, 2008, consisted of $623,809,000 in 3.125 percent par value
specials (with market value equal to face value) maturing on October 1, 2008, and $1,046,271
in accrued interest. The balance on September 30, 2007, consisted of $596,181,000 in
4.375 percent par value specials (with market value equal to face value) maturing on October 1,
2007, and $1,180,803 in accrued interest. Par value specials mature on the first working day of
the month following the month of issue and have a yield based on the average yield of
marketable Treasury notes with maturity dates at least 3 years away.

     Social Security Equivalent Benefit Account

On September 30, 2008 and 2007, the book values of the SSEB Account investments, including
accrued interest, totaled $782,456,367 and $726,234,578, respectively. The balance on
September 30, 2008, consisted of $781,162,000 in 3.125 percent par value specials maturing
on October 1, 2008, and $1,294,367 in accrued interest. The balance on September 30, 2007,
consisted of $724,734,000 in 4.375 percent par value specials maturing on October 1, 2007,
and $1,500,578 in accrued interest.

   National Railroad Retirement Investment Trust

The NRRIT was established by the Railroad Retirement and Survivors’ Improvement Act of
2001 (RRSIA). The sole purpose of the NRRIT is to manage and invest railroad retirement
assets. The NRRIT is a tax-exempt entity, independent from the Federal government and not
subject to Title 31, United States Code. The NRRIT is domiciled in and subject to the laws of
the District of Columbia.

The NRRIT is comprised of a Board of seven Trustees, three selected by railroad labor unions
and three by railroad companies. The seventh Trustee is an independent Trustee selected by
the other six. Members of the Board of Trustees are not considered officers or employees of
the Government of the United States.

The RRSIA authorizes the NRRIT to invest railroad retirement assets in a diversified investment
portfolio in the same manner as those of private sector retirement plans. Prior to the RRSIA,
investment of railroad retirement assets was limited to U.S. Government securities.

The NRRIT and the RRB are separate entities. The RRB remains a Federal agency and
continues to have full responsibility for administering the railroad retirement program, including
eligibility determinations and the calculation of benefit payments. The NRRIT has no powers or
authority over the administration of benefits under the railroad retirement program. Under the
RRSIA, the NRRIT is required to act solely in the interest of the RRB, and through it, the
participants and beneficiaries of the programs funded under the Railroad Retirement Act. The
RRSIA does not delegate any authority to the RRB with respect to day-to-day activities of the
NRRIT, but the RRSIA provides that the RRB may bring a civil action to enjoin any act or
practice of the NRRIT that violates the provisions of the RRSIA or to enforce any provision of
the RRSIA.




                                                  - 19 -
Under the RRSIA, the financial statements of the NRRIT are required to be audited annually by
an independent public accountant. In addition, the NRRIT must submit an annual management
report to the Congress on its operations, including a Statement of Financial Position, a
Statement of Cash Flows, a Statement on Internal Accounting and Administrative Control
Systems, the independent auditor’s report, and any other information necessary to inform the
Congress about the operations and financial condition of the NRRIT. A copy of the annual
report must also be submitted to the President, the RRB, and the Director of the Office of
Management and Budget.

Program, Operations, and Financial Performance and Results


During fiscal year 2008 (ended September 30, 2008), railroad retirement and survivor benefit
payments totaled $10.1 billion, net of recoveries. Unemployment and sickness insurance
benefit payments totaled $80.0 million in fiscal year 2008, net of recoveries. During fiscal year
2008, the RRB also paid benefits on behalf of SSA (for which the RRB is reimbursed)
amounting to almost $1.2 billion to about 118,000 beneficiaries.

In fiscal year 2008, the RRB continued to focus its efforts on providing excellent customer
service to current and former railroad workers and their family members. Our regular workloads
in fiscal year 2008 included:

   •	 Providing payments to 598,000 retirement and survivor beneficiaries.
   •	 Providing payments to 11,000 unemployment insurance beneficiaries.
   •	 Providing payments to 19,000 sickness insurance beneficiaries.
   •	 Processing 30,288 (through May 2008) retirement, survivor, and disability applications
      for benefits and then determining eligibility.
   •	 Processing 175,218 (through May 2008) applications and claims for unemployment and
      sickness insurance benefits.
   •	 Issuing 271,953 (as of June 13, 2008) certificates of employee railroad service and
      compensation.

During fiscal year 2008, the RRB used 46 specific program performance objectives, including
several with multiple indicators, to manage and track progress in meeting its long-term strategic
plan goals. These objectives were accomplished with direct appropriations of $101.882 million
for administration of the RRB. (A breakdown of administrative expenses by strategic goal is not
available at the time of this report.) Agency performance with respect to the key performance
indicators is covered in the following section. For most performance measures, actual full-year
performance results for fiscal year 2008 were not available at the time this report was published.
For those objectives, we reported part-year performance information for fiscal year 2008, if
available. We also reported actual results from prior years, as applicable.

Summary of Achievement by Strategic Goal

Strategic Goal I: Provide Excellent Customer Service. We aim to satisfy our customers’
expectations for quality service both in terms of service delivery options and levels and manner
of performance. For fiscal year 2008, we expect that benefit payment accuracy rates will
exceed 98 percent, and we are striving to meet or exceed the timeliness goals by year-end.




                                              - 20 -
Strategic Goal II: Serve as Responsible Stewards for Our Customers’ Trust Funds and
Agency Resources. The RRB is committed to fulfilling its fiduciary responsibilities to the rail
community. For fiscal year 2008, we expect to meet or exceed our performance goals.

Strategic Goals and Objectives

The RRB has a long and distinguished tradition of excellence in serving our customers, and we
will strive to continue that tradition in the coming years. We have achieved high levels of
accuracy and timeliness in the processing of retirement and survivor benefits, while embracing
new technology, especially in areas where it can improve customer service and efficiency. We
have also achieved very high scores for customer service in independent assessments of our
operations related to initial railroad retirement applications, unemployment and sickness
insurance benefits, survivor applications and disability applications.

The two overriding strategic issues for the upcoming planning period relate to customer service
and trust fund stewardship. The service issue involves our ability to continue to meet our
customers’ expectations for personal, high quality service, and our ability to position the agency
to meet rising customer expectations for new and improved services in the future. The
stewardship issue has multiple aspects, some of which arise from legislative changes and
others which relate to our ongoing ability to meet our program integrity responsibilities and to
maintain effective, efficient and secure agency operations. To effectively address these issues,
we have established two strategic goals on which we will focus our efforts. These goals form
the basis of our Strategic Plan for 2006-2011.

 Provide excellent customer service

We aim to satisfy our customers’ expectations for quality service both in terms of service
delivery options and levels and manner of performance. We have established four strategic
objectives that focus on the specifics of achieving this goal.

   •	   Pay benefits accurately and timely.
   •	   Provide relevant, timely, and accurate information which is easy to understand.
   •	   Provide a range of choices in service delivery methods.
   •	   Ensure efficient and effective business interactions with covered railroad employers.

 Serve as responsible stewards for our customers’ trust funds and agency resources

The RRB is committed to fulfilling its fiduciary responsibilities to the rail community. We have
established four objectives that direct our focus on this goal.

   •	 Ensure that trust fund assets are projected, collected, recorded and reported 

      appropriately. 

   •	 Ensure the integrity of benefit programs.
   •	 Ensure effectiveness, efficiency, and security of operations.
   •	 Effectively carry out the responsibilities of the RRB under the RRSIA with respect to the
      activities of the NRRIT.




                                              - 21 -
The RRB has committed to a number of management strategies that will guide our efforts to
accomplish our stated strategic goals and objectives. These strategies, which will encompass
many areas, also reflect the President’s Management Agenda, which is designed to promote
management improvements throughout the Federal government in six key areas:

   •   Expanded E-Government
   •   Budget and performance integration
   •   Financial management improvements
   •   Strategic management of human capital
   •   Competitive sourcing and partnerships
   •   Freedom of Information Act planning, processing and reporting

Additional information on the President’s Management Agenda is available on the Internet at
www.results.gov.

The RRB of the future will continue to be customer-focused, quality-driven, and fiscally
responsible. Our overall mission and responsibilities as a Federal agency will remain
unchanged, even though our organization may be smaller in terms of staff and budget
resources. We will use creativity, automation and innovation to continue to deliver best-in-class
service while ensuring cost-effective and efficient operations.

Our customers will have a broad range of choices for conducting their business with the agency,
including more Internet options that will allow for private, secure transactions from their homes
at any time of the day. Railroad employers will be able to conduct most, if not all, of their routine
transactions with the RRB through secure and efficient electronic systems. Direct customer
feedback will shape our planning efforts and enhance our responsiveness. Our customer
service levels will serve as a standard of excellence for the rest of the Federal community.

The agency’s internal culture will reflect a strong commitment to its employees, and a drive to
ensure continual learning at all levels. Given the large percentage of employees who will be
eligible for retirement in the near future, senior employees will engage in knowledge transfer
and sharing as a top priority.

Our ultimate measures of success will be the sustained satisfaction level of our customers and
our ability to respond to their needs and concerns.

Validation of Performance Information. RRB has implemented comprehensive administrative
procedures to ensure that reported performance information is accurate and valid.
Administrative Circular RRB-2 establishes standards and assigns responsibility for collecting,
documenting, validating, certifying, reporting and retaining information related to the actual
performance data reported for objectives in RRB’s Annual Performance Budget and
Government Performance and Results Act Report.

The procedures require that reporting managers develop and maintain written procedures for:

   •   Collecting data related to each objective,
   •   Testing and validating performance data to ensure accuracy,
   •   Retaining source documents for future reference, and
   •   Attesting to the accuracy of performance information reported.




                                               - 22 -
Members of RRB’s Planning Council review the certified performance data and attestations for
completeness and to identify any problems. The Planning Council also compiles the
performance data for agency reports, and monitors compliance with the requirements of
Administrative Circular RRB-2.

Members of RRB’s Executive Committee review performance issues related to their areas of
responsibility and assign follow-up action, as necessary. The Executive Committee also
reviews and approves performance reports before releasing the drafts for approval by the Board
Members.
                            __________ __________ __________

The following begins a discussion of our key performance indicators.


Discussion of Key Performance Indicators

The RRB has identified the following 10 key performance indicators, which represent our most
important responsibilities.

Key performance indicator 1: Initial recurring retirement payment accuracy
(Objective I-A-1a)

Our overall strategic goal is to achieve a railroad retirement benefit payment recurring accuracy
rate of at least 99 percent on our initial processing of applications for retirement (employee,
spouse and widow) benefits.

FY 2008 goal:            99.50% 

Our FY 2008 performance: Not available 
                    Initial Retirement Payment Accuracy

Full-year data will be available in fiscal year            100%
2009.

FY 2007 goal:            99.00%
Our FY 2007 performance: 99.82%                            98%
                                                                  FY05     FY06     FY07    FY08

We met our goal. Automation plays a key        Goal      99.00% 99.00% 99.00% 99.50%
role in assuring initial benefit payment       Actual 99.62% 99.91% 99.82%        N/A
accuracy by reducing the number of
erroneous payments. Automation will become more critical in this area as experienced
personnel retire in the coming years.

Data definition: This is the percentage of the dollar value of initial recurring retirement benefit
payments paid correctly as a result of adjudication actions performed, based on a review of a
sample of cases.




                                                  - 23 -
Key performance indicator 2: Unemployment insurance payment accuracy
(Objective I-A-2a)

Our overall strategic goal is to achieve a railroad unemployment insurance benefit payment
accuracy rate of at least 99 percent.

FY 2008 goal:              99.00%
Our FY 2008 performance: 99.76%                          Unemployment Insurance Payment
              through the 2 nd quarter                             Accuracy
                                                               (FY 08 actual is through 3/31/08.)
We are meeting our goal. Automation plays a
key role in assuring benefit payment accuracy          100%
by reducing the number of erroneous
payments. The performance data shown is                 98%                     8
through the second quarter of fiscal year 2008.
 Full-year data will be available in fiscal year        96%
                                                                  FY05       FY06       FY07        FY08
2009.
                                                       Goal      98.00%     98.00%     98.00%       99.00%
FY 2007 goal:            98.00%                        Actual    98.73%     99.08%     99.64%       99.76%
Our FY 2007 performance: 99.64%

Data definition: This is the percentage of the dollar value of unemployment insurance benefit
payments paid correctly as a result of adjudication actions performed, based on a review of a
sample of cases.



Key performance indicator 3: Sickness insurance payment accuracy (Objective I-A-2b)

Our overall strategic goal is to achieve a railroad sickness insurance benefit payment accuracy
rate of at least 99 percent.

FY 2008 goal:               99.70%
Our FY 2008 performance: 99.88%                                Sickness Insurance Payment
              through the 2 nd quarter                                  Accuracy
                                                               (FY 08 actual is through 3/31/08.)

We are meeting our goal. Automation plays a 

key role in assuring benefit payment accuracy          100%

by reducing the number of erroneous 

                                                        98%

payments. The performance data shown is 

through the second quarter of fiscal year 2008. 
       96%

Full-year data will be available in fiscal year 
                  FY05
     FY06
      FY07
       FY08

2009. 
                                                Goal
      98.00%
   98.00%
    98.00%
      99.70%

                                                       Actual
 99.94%
      99.78%
 100.00%
 99.88%

FY 2007 goal:           98.00%
Our FY 2007 performance: 100%

Data definition: This is the percentage of the dollar value of sickness insurance benefit
payments paid correctly as a result of adjudication actions performed, based on a review of a
sample of cases.




                                              - 24 -
Key performance indicator 4: Timeliness of initial railroad retirement annuity payments,
when advanced filed (Objective I-A-5)

FY 2008 goal:               92.00%
Our FY 2008 performance: 91.40%                         RRB makes a decision to pay or deny a
              through the 2 nd quarter                 railroad retirement employee or spouse
                                                      initial annuity application within 35 days of
                                                       annuity beginning date, if advanced filed.
We are near our goal. Automation plays a
                                                            (FY 08 actual is through 3/31/08.)
key role in assuring benefit payment
timeliness for this performance indicator.
The performance data shown is through the         100%
second quarter of fiscal year 2008. We
                                                      95%
expect to meet or exceed the target by
year-end.                                             90%

FY 2007 goal:            92.00%                       85%
                                                              FY05       FY06       FY07        FY08
Our FY 2007 performance: 92.80%
                                                  Goal       92.00%     92.00%     92.00%      92.00%
Data definition: This goal is included in              Actual 93.10% 92.90% 92.80% 91.40%
the RRB Customer Service Plan. Prior to
fiscal year 2008, the goal was stated from
the customer’s perspective and attempted to measure timeliness to the point of delivery by
reporting performance as the percent of retirement age and service applications for which all
RRB processing was completed within 30 days, allowing 5 days to account for handling by the
Department of the Treasury (Treasury) or U.S. Postal Service (USPS). An audit by the RRB’s
OIG (05-05, dated May 17, 2005), however, found technical problems with the data. Beginning
in fiscal year 2005, we qualified the performance report to indicate that, due to system
limitations, our tracking did not include all internal processing time, but only measured the
retirement adjudicative processing time. In fiscal year 2008, we reworded the goal to more
precisely measure only RRB adjudicative processing time. The new goal is stated in the chart
above.

We plan to replace our retirement adjudicative system, which will allow us to track our
performance for the entire internal processing time. Until the new system is implemented, we
will continue to annotate our performance data to reflect that our tracking includes only
adjudicative processing time. We believe that the data reported remains a fair representation of
the basic service our customers receive.

In its audit, the RRB’s OIG also found a reporting flaw in our measurement process for 3rd party
payment cases, which affected 2 out of 150 cases in the sample. We are working on the
correction of this system problem. Until the system problem is corrected, the performance level
reported is inaccurate for the few cases of this type processed during the reporting period.




                                             - 25 -
Key performance indicator 5: Timeliness of initial railroad retirement annuity payments,
if not advanced filed (Objective I-A-6)

FY 2008 goal:               96.00%
Our FY 2008 performance: 95.50%                           RRB makes a decision to pay or deny a
              through the 2 nd quarter                   railroad retirement employee or spouse
                                                        initial annuity application within 60 days of
We are near our goal. Automation plays                   the date the application was filed. (FY 08
a key role in assuring benefit payment                            actual is through 3/31/08.)
timeliness for this performance indicator.
The performance data shown is through               100%
the second quarter of fiscal year 2008.
We expect to meet or exceed our goal by
                                                        95%
year-end.

FY 2007 goal:            95.00%                         90%
Our FY 2007 performance: 96.80%                                FY 05      FY 06       FY 07       FY 08
                                                   Goal       94.00%      94.00%      95.00%     96.00%
Data definition: This goal is included in
                                                  Actual 97.30% 96.20% 96.80% 95.50%
the RRB Customer Service Plan. Prior to
fiscal year 2008, the goal was stated from
the customer’s perspective and attempted to measure timeliness to the point of delivery by
reporting performance based on the percent of retirement age and service applications for
which all RRB processing was completed within 60 days, allowing 5 days to account for
handling by the Treasury or USPS. An audit by the RRB’s OIG (05-05, dated May 17, 2005),
however, found technical problems with the data. Beginning in fiscal year 2005, we qualified
our performance report to indicate that, due to system limitations, our tracking did not include all
internal processing time, but only measured the retirement adjudicative processing time. In
fiscal year 2008, we reworded the goal to more precisely measure only RRB adjudicative
processing time. The new goal is stated in the chart above.

We plan to replace our retirement adjudicative system, which will allow us to track our
performance for the entire internal processing time. Until the new system is implemented, we
will continue to track only adjudicative processing time. We believe that the data reported
remains a fair representation of the basic service our customers receive.




                                               - 26 -
Key performance indicator 6: Timeliness of new survivor benefit payments
(Objective I-A-7)

FY 2008 goal:               94.00%
                                                       RRB makes a decision to pay, deny or transfer to SSA an
Our FY 2008 performance: 90.50%                            initial annuity application for a railroad retirement
              through the 2 nd quarter                 survivor not already receiving a benefit within 60 days of
                                                         the annuity beginning date. (FY05 is for 4/05 through
                                                                      9/05. FY08 is through 3/31/08.)
We are not yet achieving our goal.
Automation plays a key role in assuring
benefit payment timeliness for this              100%
performance indicator. We are monitoring
this workload and expect to meet or exceed        90%
our target by year-end.                           80%

FY 2007 goal:            90.00%                   70%
Our FY 2007 performance: 93.30%
                                                  60%
                                                                       FY 05       FY 06       FY 07        FY 08
Data definition: This goal is included in
the RRB Customer Service Plan. Prior to                    Goal 80.00% 80.00% 90.00% 94.00%
fiscal year 2008, the goal was stated from                Actual 92.80% 93.20% 93.30% 90.50%
the customers’ perspective and attempted
to measure timeliness to the point of delivery by reporting performance based on the percent of
applications where all RRB processing is completed within 60 days, allowing 5 days to account
for Treasury or USPS handling. In fiscal year 2008, we reworded the goal to more precisely
measure only RRB internal processing time. The new goal is stated in the chart above.

In fiscal year 2005, measurement and reporting inconsistencies, which resulted in a net
understatement of actual performance, were identified by the RRB’s OIG. These
inconsistencies were corrected effective with April 2005 data. Results reported for fiscal year
2005 represent the last 6 months of the year only, after the inconsistencies were eliminated.




                                              - 27 -
Key performance indicator 7: Timeliness of spouse to survivor benefit payment
conversions (Objective I-A-8)

FY 2008 goal:               94.00%
Our FY 2008 performance: 93.60%                           RRB m akes a decision to pay, deny or transfer
              through the 2 nd quarter                        to SSA an initial annuity application for a
                                                          railroad retirem ent survivor already receiving
We are near our goal. Automation plays a                  the benefits as a spouse w ithin 30 days of the
key role in assuring benefit payment                       date the application w as filed. (FY 08 actual is
                                                                          through 3/31/08.)
timeliness for this performance indicator. We
expect to meet or exceed our goal by year-
end.                                                     100%


FY 2007 goal:            93.00%                          90%
Our FY 2007 performance: 94.80%
                                                         80%
Data definition: This goal is included in the                FY 05    FY 06   FY 07     FY 08
RRB Customer Service Plan. Prior to fiscal         Goal     90.00%   90.00%  93.00%    94.00%
year 2008, the goal was stated from the
                                                   Actual 94.60%     95.70%  94.80%    93.60%
customer’s perspective and attempted to
measure timeliness to the point of delivery by
reporting performance based on the percent of applications where all RRB processing is
completed within 30 days, allowing 5 days to account for Treasury or USPS handling. In fiscal
year 2008, we reworded the goal to more precisely measure only RRB internal processing time.
 The new goal is stated in the chart above.


Key performance indicator 8: Timeliness of unemployment or sickness insurance
payments (Objective I-A-12)

FY 2008 goal:               99.70%
Our FY 2008 performance: 99.80%                                  RRB certifies a payment or releases a
              through the 2 nd quarter                             letter of denial of UI or SI benefits
                                                                  within 10 days of the date the RRB
We are meeting our goal. Automation plays a key                            receives the claim.
role in assuring benefit payment timeliness for this                (FY 08 actual is through 3/31/08.)
performance indicator.
                                                                100%
FY 2007 goal:            99.00%
Our FY 2007 performance: 99.70%                                  99%

                                                           98%
Data definition: This goal is included in the RRB
Customer Service Plan. Prior to fiscal year 2008,          97%
the goal was stated from the customer’s                          FY 05   FY 06 FY 07   FY 08
perspective and attempted to measure timeliness to       Goal    98.00% 98.00% 99.00% 99.70%
the point of delivery by reporting performance
                                                         Actual 99.80% 99.80% 99.70% 99.80%
based on the percent of claims where all RRB
processing was completed within 10 days, allowing
5 days to account for Treasury or USPS handling. In fiscal year 2008, we reworded the goal to
more precisely measure only RRB internal processing time. The new goal is stated in the chart
above.



                                                - 28 -
Key performance indicator 9: Timeliness of disability decisions (Objective I-A-13)

FY 2008 goal:               68.00%
Our FY 2008 performance: 69.80%                             The RRB makes a decision to pay or
              through the 2 nd quarter                     deny a benefit for a disabled applicant
                                                            or family member within 100 days of
                                                               the date the application is filed.
We are exceeding our goal. We have been
                                                              (FY 08 actual is through 3/31/08.)
able to exceed our goal due to an increase in the
number of staff resources dedicated to the
disability workload and the timely performance by         100%

the contractor for consultative medical
                                                           80%
examinations needed to make disability
decisions.                                                 60%

FY 2007 goal:            63.00%                            40%
                                                                  FY 05    FY 06     FY 07    FY 08
Our FY 2007 performance: 69.60%
                                                         Goal     55.00%   55.00%   63.00%    68.00%
Data Definition: This goal is included in the          Actual 67.90% 65.90% 69.60% 69.80%
RRB Customer Service Plan. Prior to fiscal year
2008, the goal was stated from the customer’s
perspective and attempted to measure timeliness to the point of delivery by reporting
performance based on the percent of applications where all RRB processing is completed within
100 days, allowing 5 days to account for USPS handling. In fiscal year 2008, we reworded the
goal to more precisely measure only RRB internal processing time. The new goal is stated in
the chart above.

Key performance indicator 10: Return on investment in program integrity activities
(Objective II-B-1)

FY 2008 goal:            $5.00 : $1                        Achieve a return of at least $3.60 for
Our FY 2008 performance: Not available                    each dollar spent on program integrity
                                                                        activities.
FY 2008 data will be available in FY 2009.
                                                          $6.00
FY 2007 goal:            $3.80 : $1                       $4.00
Our FY 2007 performance: $5.48 : $1
                                                          $2.00
We exceeded our goal. Our fiscal year 2007                $0.00
goal was to achieve a return of $3.80 for each                    FY 05     FY 06    FY 07    FY 08
dollar spent on program integrity activities. We         Goal     $3.80     $3.80    $3.80    $5.00
achieved a rate of return of $5.48 for each dollar
                                                         Actual   $5.11     $5.36    $5.48      N/A
spent.

As part of our fiduciary responsibilities to the rail community, we must ensure that the correct
amount of benefits is being paid to the right people. We match our benefit payments against
SSA’s earnings and benefits database, the Centers for Medicare & Medicaid Services’
utilization and death records, the Office of Personnel Management’s benefit records, and State
wage reports, usually via computer tapes, and administer other benefit monitoring programs to
identify and prevent erroneous payments. We also refer some cases to the RRB’s OIG for
investigation. After investigation, the OIG may pursue more aggressive collection methods,
which include civil and criminal prosecution.

Data definition: This is the ratio of the sum of the dollar recoveries and savings to the labor
dollars spent.

                                               - 29 -
Future Plans/Objectives

     Program Improvements

•	     Medicare Modernization Act (MMA) The Medicare Prescription Drug, Improvement and
       Modernization Act of 2003, otherwise known as the Medicare Modernization Act (MMA),
       added a prescription drug benefit (Part D) to the Medicare program effective January
       2006. The MMA provides beneficiaries the option to pay Parts C (Medicare Advantage
       Plan) and D premiums directly to their plans or to have premiums withheld from benefits
       paid by the Social Security Administration (SSA), the Office of Personnel Management, or
       the Railroad Retirement Board.

       The RRB has been working with the Centers for Medicare & Medicaid Services (CMS) to
       implement Medicare Parts C and D premium withholding and other provisions of the MMA.
       We have not completed work on processes and automated systems changes that will
       allow beneficiaries to have Parts C and D premiums withheld from the monthly benefits
       paid by the RRB. (Railroad retirement beneficiaries who currently have monthly Parts C
       and D premiums pay their premiums by direct bill arrangements with their plans.) Work on
       Parts C and D premium withholding was temporarily suspended while we focused
       available resources on implementing provisions of the MMA that require certain
       beneficiaries to pay higher Part B premiums beginning January 2007, and to allow time for
       CMS to review and resolve problems with the withholding of Parts C and D premiums from
       benefits paid by SSA.

       We are resuming work with CMS in 2008 on the data exchange needed to support Parts C
       and D premium withholding from RRB benefits. Along with CMS, we have established a
       target implementation date of January 2010.

•	     Nationwide Toll-Free Service and RRB HelpLine Improvements In fiscal year 2007,
       the agency awarded a contract through GSA-Networx Universal to Qwest Government
       Services, Inc. for a managed nationwide toll-free telephone service. The features of the
       service will include a single nationwide toll-free number, automatic distribution of customer
       calls, interactive voice response (IVR) functionality, an upgrade of the existing data
       network, and implementation of Voice over Internet Protocol (VoIP) telephone service at
       all RRB field offices. The toll-free number will provide a single access point to claims
       representatives in the agency’s field service offices and to IVR services. The first 12 Pilot
       Offices are scheduled to be implemented in fiscal year 2008, with the roll-out for the
       balance of the RRB field offices to be completed by December 31, 2008.

       The design of the nationwide toll-free service will support all of the existing self-service
       options and features of the current RRB HelpLine, facilitate a number of enhancements
       and allow for expansion of services into other areas in the future.

•	     Internet Unemployment and Sickness Insurance Benefit Services In 2004, the RRB
       made applications and claims for unemployment insurance benefits available on-line at
       www.rrb.gov. In calendar year 2005, the RRB completed a project to automate the
       processing of unemployment insurance benefit claims that pass mechanical screening for
       eligibility. In 2005, the RRB also implemented a service enabling unemployment and
       sickness insurance beneficiaries to view their account statement online. The account
       statement lists recent forms filed and unemployment and sickness insurance benefit



                                                 - 30 -
     payments. In 2009, the RRB plans to implement a process to allow beneficiaries to submit
     online biweekly claims for sickness insurance benefits.

Employer Reporting System (ERS) – Internet Site We continue to use contractor assistance
to work on the Employer Reporting System (ERS). In 2008, we are automating the pre-payment
and post-payment verification notices (Forms ID-4k and ID-4e) sent to employers for benefits
we pay under the Railroad Unemployment Insurance Act (RUIA). The agency is also converting
the current system and forms to a software language which is compatible with existing
standards, and which should enable in-house staff to add new functionality to the system
without the need to obtain contractor support.

In 2009, the ERS Internet-based version of Form BA-3, Annual Report of Service and
Compensation, will be introduced, yielding 7 additional services and replacing several
post-reporting requests for information from employers. We will also include the functionality for
two notification processes: RL-5a, Notice of Annuity Award; and the Notice of Tier l Tax Liability
on Sickness Payments (Forms ID-6 and ID-6y). Employers need information about former and
retired employees to make the necessary adjustments in their insurance and other health and
welfare benefits afforded retired employees. Distributing these notifications to employers via the
ERS provides for a secure, efficient method of transmitting this information.

The focus for 2010 will be on providing additional automated notifications to employers,
including the G-73a.1, Notice of Death of Annuitant, and the RL-10, Notice of Medicare
Entitlement. In fiscal year 2010, we also plan to develop an automated referral process in ERS
to notify employers of errors or the need for additional information and provide a means for
correcting the data.

   Systems and Controls

The RRB continually evaluates the effectiveness and efficiency of its operations using ongoing
assessments and reviews of management controls, internal and external audits, quality control
and assurance reviews, program integrity activities, and customer satisfaction surveys.

Under the direction of a Management Control Review Committee (MCRC) composed of senior
managers from its program, information services, administrative, and financial operations, the
RRB has divided these operations functionally into 42 assessable units. The number of
assessable units can vary from year to year as operations are restructured to accommodate
changes precipitated by such factors as new and revised missions, reduced resources, and
increased automation.

The mission, key performance indicators, workflow, control objectives and techniques,
guidance, automated systems support, impact, and vulnerability of each assessable unit are
documented. The RRB maintains and annually updates a 5-year plan for review of the
assessable units. The official responsible for each assessable unit prepares an annual
assessment of key indicators and open or new issues requiring management’s attention. High
impact and vulnerable assessable units are scheduled for more frequent, in-depth reviews as
deemed necessary by the MCRC in consultation with senior management. During fiscal year
2008, responsible officials performed in-depth reviews of 12 assessable units, assessed all 42,
and certified 41.




                                              - 31 -
The RRB reported a material weakness relating to deficiencies in Information Technology
Security in fiscal year 2002; the remaining action needed to close out these deficiencies is
implementation of access control recommendations.

In fiscal year 2005, the OIG identified Information Technology Security as a significant
deficiency, which it reported as a material weakness in the fiscal year 2005 Performance and
Accountability Report. This included two new deficiencies in meeting FISMA requirements for
risk assessments, and testing and evaluation. The Responsible Official certification for fiscal
year 2008 includes information about actions underway to address these deficiencies.

In fiscal year 2008, the OIG-identified material weakness, Actuarial Projection Process–Fund
Balance, was addressed and closed out. On September 30, 2008, the OIG identified Financial
Reporting as a material weakness. The agency has implemented actions to improve the
financial reporting process, such as issuing additional reporting guidance and implementing an
enhanced year-end financial statement review. Additional actions are being evaluated and
planned.

The agency is committed to resolving these deficiencies. We will continue to monitor progress
during fiscal year 2009.




                                              - 32 -
                                   Management Assurances

The Railroad Retirement Board states and assures that to the best of our knowledge:

1. 	 In accordance with Office of Management and Budget Circular No. A-123, Section VI (B),
     we are issuing a qualified statement of assurance considering the OIG-identified material
     weaknesses indicated under paragraph (4). Except as indicated under (4), the system of
     internal control of this agency is functioning and provides reasonable assurance as to the:
     efficiency and effectiveness of programs and operations; reliability of financial and
     performance information; and compliance with laws and regulations. These controls satisfy
     the requirements of the Federal Managers’ Financial Integrity Act §2.

2. 	 The financial management systems of this agency maintain accountability for assets and
     provide reasonable assurance that obligations and costs are in compliance with applicable
     law, and that performance data and proprietary and budgetary accounting transactions
     applicable to the agency are properly recorded and accounted for to permit the timely
     preparation of accounts and reliable performance information. The financial management
     systems at this agency satisfy the requirements of the Federal Managers’ Financial Integrity
     Act §4.

3. 	 The financial management systems of this agency provide the agency with reliable, timely,
     complete, and consistent performance and other financial information to make decisions and
     efficiently operate and evaluate programs and substantially satisfy the requirements of the
     Government Performance and Results Act and OMB Circular No. A-11.

4. 	 The RRB’s Inspector General, in his auditor’s report, identifies Information Technology
     Security and Financial Reporting as material weaknesses. A previously reported material
     weakness, Actuarial Projection Process–Fund Balance, was addressed and closed out in
     fiscal year 2008.


                     Description of OIG-Identified Material Weaknesses

1. 	 Information technology security at the RRB is weakened by deficiencies in risk assessment,
     testing and evaluation, and access controls in both the general support and major
     application systems.

   In fiscal year 2009, the plan is to resolve the remaining audit recommendations. We will
   then evaluate the Information Technology Security material weakness to determine whether
   it has been eliminated.

2. 	 The OIG also identified financial reporting as a material weakness. The Bureau of Fiscal
     Operations will work with the OIG to implement necessary enhancements to the financial
     reporting process.


                                                                             Original signed by:

                                                               Michael S. Schwartz, Chairman
                                                           V. M. Speakman, Jr., Labor Member
                                                       Jerome F. Kever, Management Member



                                              - 33 -
   Summary of Actuarial Forecast

The Statement of Social Insurance presents an actuarial analysis of the financial position of the
railroad retirement system as of January 1, 2008. Our intermediate employment assumption is
used for the Statement of Social Insurance. The Required Supplementary Information presents
sensitivity analyses showing the impact of changes in employment and investment return
assumptions. Although under our intermediate assumption no cash flow problems arise over
the period 2008-2082, the sensitivity analyses show that, under the current financing structure,
actual levels of railroad employment and investment return over the coming years will determine
whether additional corrective action is necessary.

Subsequent to January 1, 2008, the effective date of the Statement of Social Insurance, market
fluctuations resulted in a reduction in the value of the fund balance, which directly affects
projected future cash flows. See Note 15.

Section 7105 of the Technical and Miscellaneous Revenue Act of 1988 requires the RRB to
submit an annual report to the Congress on the financial status of the railroad unemployment
insurance system. Projections were made for the various components of income and outgo
under each of 3 employment assumptions for the 11 fiscal years 2008-2018. The results
indicate that the Railroad Unemployment Insurance (RUI) Account will be solvent during the
11-year projection period.

Limitations of the Financial Statements

The limitations of the principal financial statements are as follows:

   1. The principal financial statements have been prepared to report the financial position and
      results of operations of the entity, pursuant to the requirements of 31 U.S.C. 3515(b).

   2. While the statements have been prepared from the books and records of the entity in
      accordance with U.S. generally accepted accounting principles for Federal entities and
      the formats prescribed by OMB, the statements are in addition to the financial reports
      used to monitor and control budgetary resources which are prepared from the same
      books and records.

   3. The statements should be read with the realization that they are for a component of the
      U.S. Government, a sovereign entity.




                                               - 34 -
            PERFORMANCE SECTION –

GOVERNMENT PERFORMANCE AND RESULTS ACT (GPRA)
                  REPORT
PAGE INTENTIONALLY LEFT BLANK 

Performance Section - Government Performance and Results Act (GPRA) Report


The following performance report is based on the major goals and objectives from the RRB's
Strategic Plan for 2006 – 2011. The indicators we developed support our mission and
communicate our intentions to meet challenges and seek opportunities for greater efficiency,
effectiveness, and economy.

To achieve our performance goals, the RRB holds managers accountable for achieving program
results and improving program effectiveness by focusing on results, service quality, and
customer satisfaction. In addition, the annual performance budget is used to help managers
improve service delivery by requiring that they plan for meeting program objectives and by
providing them with information about program results and service quality. To provide
reasonable assurance that the reported performance information is relevant and reliable,
performance goals are incorporated into performance standards for managers and supervisors,
and monitored on an agency-wide basis. We have also implemented an initiative to conduct
validation studies on selected indicators, and developed an administrative circular regarding
documentation, validation and retention of performance data.

During fiscal year 2007, the RRB’s two benefit programs (the RRA and the RUIA) were
evaluated for the first time under the Program Assessment and Rating Tool (PART) process.
Each program earned an overall performance rating of “Effective,” which is the highest rating a
program can achieve. As a result of the PART process, the agency set more ambitious annual
performance targets, defined several long-term goals and laid out three program improvement
initiatives which are discussed below. The agency’s Performance Improvement Officer,
appointed in fiscal year 2008 in response to Executive Order 13450: “Improving Government
Program Performance,” monitors the progress of those initiatives as well as reviews and
evaluates ongoing program performance.

PART program improvement plans

   Data optimization – During 2006 and 2007, RRB completed a major infrastructure
   improvement project to change its database environment to allow for more effective and
   efficient systems. In 2008, the RRB is optimizing the data in the new relational environment
   to better enable various system modernization initiatives in subsequent years.

   Expansion of field imaging – In 2007, the RRB conducted a pilot project to image documents
   in four field offices. The purpose of the project was to determine the feasibility of using the
   technology to make field office documents available on-line to all RRB staff for processing
   benefit payments and responding to inquiries from our beneficiaries. The pilot was
   successful and the technology is being expanded to all RRB field offices during fiscal years
   2008 and 2009.

   Nationwide toll-free service – As discussed on page 30, in 2007, the RRB entered into a
   contract with Qwest Government Services, Inc. to provide state-of-the-art toll-free telephone
   service. This contract was one of the first in the Federal Government under the
   GSA-Networx Universal program. RRB’s new system combines voice and data
   transmission and will automatically distribute incoming calls efficiently to available claims
   representatives, providing enhanced service to our customers. The new nationwide toll-free
   service will also replace the RRB’s current Help Line, which provides interactive voice
   response service for the public. System development and implementation began in 2008,
   and will be completed in fiscal year 2009.


                                             - 37 -
Automation and e-Government initiatives

In addition to the initiatives being tracked under the PART, over the last several years, the RRB
has also implemented significant automation initiatives and other improvements. Because of
these accomplishments, the RRB is able to operate with reduced resources and continue to
streamline its operations with the assistance of information technology. We believe that
significant new investments in information technology and further management improvements
will help us to meet or exceed our customer service goals efficiently.

In January 2008, the RRB implemented use of a new application that allows its Medicare Part B
carrier, Palmetto GBA, to electronically report beneficiary address changes, beneficiary dates of
death, and requests for replacement Medicare cards to the agency. The secure application is
accessed through the Internet by authorized Palmetto GBA customer service representatives
(CSR). The new application and related procedures eliminate the need for Palmetto’s CSRs to
refer callers to the RRB, and helps ensure that the agency receives up-to-date information on a
timely basis.

During fiscal years 2007 and 2008, the RRB worked closely with the approximately 600 rail
employers to expand the format for annual reports of service and compensation. Several
enhancements were also incorporated into this massive project which will eventually eliminate
some duplicate reporting. One consequence of this change was that some of the rail employers
were not able to submit accurate reports within the designated time frame. While this resulted
in the RRB missing its performance goal for timely processing, this was a one-time situation,
and there was no lasting negative impact.

The RRB expanded its web-based training facility during fiscal year 2008 in order to provide
brief presentations to the public and to rail employers on www.rrb.gov. Through May 2008,
there were 10 presentations available for viewing on topics of interest to those applying for
benefits, filing reports, or anticipating retirement. We will increase this number extensively
during the coming months.

Succession planning

The agency has continued to make good progress on workforce and succession planning. The
Executive Committee completed workforce planning documents that identify the current staffing
levels, projected attrition and planned hiring in fiscal years 2008, 2009 and 2010. Each
executive has also completed a gap analysis for his/her organization that identifies skills that
need to be developed in order to prepare employees to fill critical positions in the future.

While the planning progresses, budget restrictions have hampered our ability to fill some
vacancies and postponed certain training. In fiscal year 2008, the RRB’s budget was reduced
by about $1.8 million due to a rescission. This adversely impacted the execution of our
workforce plan, with separations significantly exceeding accessions during the year. When
additional funding becomes available, training and hiring will resume in accordance with the
succession plan.

Systems security

Information security is a critical consideration for government agencies where maintaining the
public’s trust is essential. The RRB relies extensively on computerized systems to support its
mission operations and store the sensitive information that it collects. The RRB’s information


                                              - 38 -
security program is established and maintained to reasonably protect systems data and
resources against internal failures, human errors, attacks and natural catastrophes that might
cause improper disclosure, modification, destruction, or denial of services. To ensure mission
continuity and connect with the agency’s overall business processes, we have a comprehensive
training program that utilizes the OPM-sponsored GoLearn.gov’s Karta computer security
curriculum. For the fourth consecutive year, all employees with computer security
responsibilities are enrolled in this role-based training program. Additional specialized technical
education is also provided as necessary for the computer analysts, software developers and
network/system engineers to maintain their skills and enhance proficiency.

Federal agencies are required to provide annual computer security awareness training for
employees and contractors. Security awareness efforts are designed to change behavior or
reinforce good security practices by focusing attention on security. We continue to develop new
approaches for refreshing the awareness initiative by providing updated and innovative
presentations for the agency staff. This year the new “Physical Information Security
Awareness” pamphlet, prepared to be read by all employees or contractors without RRB
network access, was used as part of the awareness program. Additionally, the “Information
Systems Security Awareness Training for the Railroad Retirement Board” pamphlet was
updated and expanded with additional information to make it a comprehensive security
awareness training document. The agency supplements the formal awareness training program
with the weekly Security News feature story that is prominently headlined on the Intranet’s home
page. Every year, the RRB’s awareness program has been able to report exemplary levels of
participation measures by all employees and contractors.

Faced with an increasingly dangerous threat environment, the RRB relies on a sophisticated
hardware and software defense that utilizes carefully monitored and maintained firewall
technology, anti-virus software and intrusion detection systems to prevent viruses, worms, spam
and malicious content from infiltrating the network, as well as to ensure that critical data and
sensitive information are not compromised. To buttress these proactive threat management
resources in the event of a successful malware attack, the agency has implemented a robust
incident response capability. With the fully operational forensic analysis workstation that is now
in place, the RRB Computer Emergency Response Team has the ability to conduct forensic
collection and analysis of electronic evidence from almost any type of digital media in use today.

Certification and accreditation are important activities integral to the information security
programs of Federal agencies. Performing certification and accreditation helps provide an
understanding of the risks and other factors that could adversely affect agency missions. Last
year, the RRB’s LAN/PC general support system underwent security certification, an
assessment of the information system’s management, operational and technical security
controls, to determine whether controls are implemented properly, operating as intended and
satisfy system security requirements. After evaluating the certification results, the Chief
Information Officer, as the designated accrediting authority, authorized operation of the LAN/PC
system through a formal accreditation decision that affirmed the operation of that system was an
acceptable risk to agency operations, agency assets, or individuals based upon the
implementation of the defined set of security controls. This year, the RRB’s mainframe general
support system and five of the major applications of the agency are being assessed in a similar
certification and accreditation process. The completion of this major project will place the
agency in full compliance with a major provision of the Federal Information Security
Management Act, a fiscal responsibility law holding agencies to a high degree of responsibility
and accountability for the information resources they manage.




                                              - 39 -
Program Evaluations

   Program Evaluation                              Results in Fiscal Year 2008
Federal Managers’
                             See “Systems and Controls” in the “Management’s Discussion and
Financial Integrity Act
                             Analysis” section.
Reports

                             The report, which was completed in June 2008, addresses the 25-year
Annual actuarial report
                             period 2008-2032, and contains generally favorable information
required by the Railroad
                             concerning railroad retirement financing. It indicates that no cash flow
Retirement Act of 1974 and
                             problems arise over the 25-year projection period. The report
the Railroad Retirement
                             recommends no change in the rate of tax imposed on employers and
Solvency Act of 1983
                             employees.

Railroad Unemployment
                             The report, which was released in June 2008, contains generally
Insurance System, annual
                             favorable information. Experience-based contribution rates are
report required by section
                             expected to maintain solvency, and no new loans are expected even
7105 of the Technical and
                             under our most pessimistic assumption. The report did not include any
Miscellaneous Revenue Act
                             recommendations for financing changes.
of 1988

                             In fiscal year 2007, OMB conducted a comprehensive assessment of
                             RRB programs and operations through the PART review. The PART
Program Assessment and
                             review resulted in a rating of “effective” for both the railroad
Rating Tool (PART) Review
                             retirement/survivor program and the unemployment/ sickness insurance
                             program. Annual updates are provided according to OMB guidance.

                             The RRB continuously monitors the timeliness and accuracy of our
Customer service             performance in managing program workloads. These results are
performance reports          reflected in the performance objectives shown in the chart on the
                             following pages.

                             The RRB’s program integrity report for fiscal year 2007, released in
                             October 2007, showed that program integrity activities resulted in the
Program integrity report     establishment of about $12.4 million in recoverables, recovery of
                             $9.9 million, benefit savings of $942,000, and referral of 90 cases to the
                             Office of Inspector General.

                             RRA adjudicative and payment accuracy is measured in regular
                             diagnostic reviews conducted by quality assurance staff within the
Quality assurance reviews
                             RRB’s Assessment and Training (A&T) component. A&T also evaluates
and special studies
                             policies and processes through special studies, as needed. A&T reports
                             to the Director of Programs.

                             Advisory doctors, representing the rail industry (labor and management),
                             are authorized by law to review agency medical decisions. An audit was
Occupational disability      done in 2000; another audit was completed in 2008. In addition,
reviews                      consulting physicians from Consultative Examinations, Ltd. perform a
                             quarterly quality review of disability documentation to ensure it is
                             adequate to support medical decisions.

                             See “Inspector General’s Statement on Management and Performance
RRB Office of Inspector
                             Challenges” and “Management’s Comments” in the “Other
General audits
                             Accompanying Information” section.




                                               - 40 -
    Program Evaluation                             Results in Fiscal Year 2008
                            Results of performance budget monitoring are shown in the chart of
                            performance objectives on the following pages. Actual performance
 Performance budget
                            data are reviewed, validated and certified prior to inclusion in this report.
 monitoring
                            Validation and certification processes are documented as part of the
                            RRB’s management control review process.
 Enterprise architecture    The RRB completed an enterprise architecture assessment in February
 assessment                 2008, reporting a total assessment value of 2.93 out of a possible 5.00.
                            See performance goals II-C-2, II-C-3, II-C-4 and II-C-13 in the chart of
                            performance objectives on the following pages. During fiscal year 2008,
 Computer security and
                            we are using contractual assistance to perform certification and
 privacy assessment
                            accreditation of major application systems, as required under the
                            Federal Information Security Management Act.
 Electronic government      See “Program Improvements” in the “Management’s Discussion and
 (E-Gov) activities         Analysis” section.

 Improper payment           See “Improper Payments Information Act (IPIA)” in the “Management’s
 evaluation                 Discussion and Analysis” section.



The next page begins a consolidated presentation of our actual performance in fiscal year 2005
through March 31, 2008 (except as noted), followed by a discussion of our unmet performance
goals and objectives for fiscal year 2007. At the time this report was prepared, we had
incomplete information on our fiscal year 2008 performance. The discussion of any unmet fiscal
year 2008 performance goals and indicators will be presented in next year’s report. This
performance report was prepared by RRB employees.




                                               - 41 -
         RAILROAD RETIREMENT BOARD
                                                                  2005 Actual       2006 Actual       2007 Actual      2008 Projected     2008 Actual
         FY 2008 ANNUAL
                                                                 (At $102.5m) 1/   (At $101.5m) 1/   (At $103.7m) 1/   (At $101.9m) 1/   (At $101.9m) 1/
         PERFORMANCE REPORT

         Strategic Goal I: Provide Excellent Customer Service

         Performance Goal I-A: Pay benefits accurately and timely.

         I-A-1. Achieve a railroad       a) Initial recurring
         retirement benefit                        payments:         99.62%            99.91%            99.82%            99.50%        Data not available
                                 2/
         payment accuracy rate
         of at least 99%.
         (Measure: % accuracy
         rate)                         recurring payments:           99.89%            99.94%             100%             99.50%        Data not available


         I-A-2. Achieve a railroad
                                 b) Sample post                      98.73%            99.08%            99.64%            99.00%             99.76%
         unemployment/sickness          a) Unemployment:
         insurance benefit payment
                      2/
         accuracy rate of at
         least 99%.
         (Measure: % accuracy rate)           b) Sickness:           99.94%            99.78%             100%             99.70%             99.88%
- 42 -




         I-A-3. Achieve a railroad                  a) Initial       95.5%             94.5%             94.9%              94.0%        Data not available
         retirement case accuracy
              2/
         rate of at least 94%.
         (Measure: % of case accuracy)
                                                                     95.8%             96.3%             98.7%              96.0%        Data not available


         I-A-4. Achieve a railroad     a) Unemployment:              98.01%            97.5%             98.01%             97.5%             99.0%
         unemployment/sickness cases:
         insurance case accuracy
              2/
         rate of at least 98%.               b) Sickness:
                                                                     99.51%            99.03%             100%              99.0%             98.97%
         (Measure: % of case accuracy)

         I-A-5. Railroad retirement employee or spouse
         receives initial annuity payment, or a decision,
         within 35 days of annuity beginning date, if                93.1%             92.9%             92.8%
         advanced filed. (Measure: % ≤ 30 adjudicative
                            3/ 4/
         processing days )



         b) Post
         cases:
         RAILROAD RETIREMENT BOARD
                                                                   2005 Actual       2006 Actual       2007 Actual      2008 Projected     2008 Actual
         FY 2008 ANNUAL
                                                                  (At $102.5m) 1/   (At $101.5m) 1/   (At $103.7m) 1/   (At $101.9m) 1/   (At $101.9m) 1/
         PERFORMANCE REPORT

         Revised goal for 2008 and later

         I-A-5. RRB makes a decision to pay or deny a
         railroad retirement employee or spouse initial                                                                      92.0%            91.4%
         annuity application within 35 days of the annuity
         beginning date, if advanced filed.
                                                           3/
         (Measure: % ≤ 30 adjudicative processing days )

         I-A-6. Railroad retirement employee or spouse
         receives initial annuity payment, or notice of denial,
         within 65 days of the date the application was filed,        97.3%             96.2%             96.8%
         if not advanced filed. (Measure: % ≤ 60
                                       3/ 4/
         adjudicative processing days )

         Revised goal for 2008 and later
         I-A-6. RRB makes a decision to pay or deny a
         railroad retirement employee or spouse initial                                                                                       95.5%
                                                                                                                             96.0%
         annuity application within 60 days of the date the
         application was filed. (Measure: % ≤ 60
- 43 -




                                        3/
         adjudicative processing days )


         I-A-7. Survivor annuitant not already receiving a
         benefit receives initial payment, a decision, or
                                                                              5/
         notice of transfer to SSA within 65 days of the              92.8%             93.2%             93.3%
         annuity beginning date, or date filed (whichever is
         later). (Measure: % ≤ 60 processing days )
                                                      4/



         Revised goal for 2008 and later

         I-A-7. RRB makes a decision to pay, deny or
         transfer to SSA an initial annuity application for a                                                                94.0%            90.5%
         railroad retirement survivor not already receiving a
         benefit within 60 days of the annuity beginning
         date. (Measure: % ≤ 60 days)

         I-A-8. Survivor annuitant receiving benefits as
         spouse receives payment as survivor, notice of
         denial, or notice of application transfer to SSA,            94.6%             95.7%             94.8%
         within 35 days of RRB receipt of the notice of
         employee's death.
         (Measure: % ≤ 30 processing days )
                                                4/
         RAILROAD RETIREMENT BOARD
                                                                   2005 Actual       2006 Actual       2007 Actual      2008 Projected     2008 Actual
         FY 2008 ANNUAL
                                                                  (At $102.5m) 1/   (At $101.5m) 1/   (At $103.7m) 1/   (At $101.9m) 1/   (At $101.9m) 1/
         PERFORMANCE REPORT

         Revised goal for 2008 and later
         I-A-8. RRB makes a decision to pay, deny or
         transfer to SSA an initial annuity application for a                                                                94.0%            93.6%
         railroad retirement survivor already receiving the
         benefits as a spouse within 30 days of the date the
         application was filed. (Measure: % ≤ 30 days)

         I-A-9. Applicant for any railroad retirement death
         benefit receives payment, or notice of denial, within
                                                                      96.9%             97.5%             97.5%
         65 days of date filed. (Measure: % ≤ 60
                           4/
         processing days )

         Revised goal for 2008 and later
         I-A-9. RRB makes a decision to pay or deny a
         railroad retirement death benefit application within                                                                97.0%            95.5%
         60 days of RRB’s receipt of the first notice of death.
         (Measure: % ≤ 60 days)
- 44 -




         I-A-10. Unemployed railroad worker receives UI
         claim form, or notice of denial, within 15 days of the       99.8%             99.5%             99.5%
         date application filed. (Measure: % ≤ 10
                           4/
         processing days )

         Revised goal for 2008 and later
         I-A-10. RRB releases a UI claim form or letter of
         denial within 10 days of receiving an application for                                                               99.5%            99.5%
         unemployment benefits. (Measure: % ≤ 10
         processing days)


         I-A-11. Railroad employee unable to work due to
         temporary illness or injury receives SI claim form,
         or notice of denial, within 15 days of the date              99.6%             99.5%             99.2%
         application filed. (Measure: % ≤ 10 processing
               4/
         days )
         RAILROAD RETIREMENT BOARD
                                                                  2005 Actual       2006 Actual       2007 Actual      2008 Projected     2008 Actual
         FY 2008 ANNUAL
                                                                 (At $102.5m) 1/   (At $101.5m) 1/   (At $103.7m) 1/   (At $101.9m) 1/   (At $101.9m) 1/
         PERFORMANCE REPORT

         Revised goal for 2008 and later
         I-A-11. RRB releases an SI claim form or letter of
         denial within 10 days of receiving an application for                                                              99.0%            99.2%
         sickness insurance benefits. (Measure: % ≤ 10
         processing days)


         I-A-12. Railroad employee, unemployed or unable
         to work due to temporary illness or injury, receives
         a payment for unemployment or sickness insurance
                                                                     99.8%             99.8%             99.7%
         benefits, or a decision, within 15 days of claim
         receipt.
         (Measure: % ≤ 10 processing days )
                                               4/




         Revised goal for 2008 and later
         I-A-12. RRB certifies a payment or releases a letter
         of denial of UI or SI benefits within 10 days of the                                                              99. 7%            99.8%
         date RRB receives the claim. (Measure: % ≤ 10
- 45 -




         processing days)

         I-A-13. Disabled applicant or family member
         receives notice of decision to pay or deny within
         105 days of the date application for disability is          67.9%             65.9%             69.6%
         filed.
         (Measure: % ≤ 100 processing days )
                                                4/




         Revised goal for 2008 and later
         I-A-13. RRB makes a decision to pay or deny a
         benefit for a disabled applicant or family member                                                                  68.0%            69.8%
         within 100 days of the date the application is filed.
         (Measure: % ≤ 100 days)


         I-A-14. Disabled applicant receives payment within
         25 days of decision or earliest payment date
                                                                     94.4%             95.2%             95.3%              94.5%            93.5%
         (whichever is later). (Measure: % ≤ 20 processing
              4/ 6/
         days      )
         RAILROAD RETIREMENT BOARD
                                                                2005 Actual              2006 Actual                   2007 Actual            2008 Projected              2008 Actual
         FY 2008 ANNUAL
                                                               (At $102.5m) 1/          (At $101.5m) 1/               (At $103.7m) 1/         (At $101.9m) 1/            (At $101.9m) 1/
         PERFORMANCE REPORT

         I-A-15. Reduce the number of days elapsed
         between the date the appeal is filed and a decision          207                        206                         159                      190                       180
         is rendered. (Measure: average elapsed days)


         Performance Goal I-B: Provide relevant, timely, and accurate information which is easy to understand.

                                                               The final report on
         I-B-1. Achieve quality and accuracy of                 the widow(er)s
         correspondence, publications, and voice                  survey was
         communications. (Measure: surveys and reviews;                                Completed a survey of
                                                                 completed in
         number of valid challenges to published data)                               initial disability decisions.   ACSI survey deferred     ACSI survey deferred      ACSI survey deferred
                                                                 August 2005.
                                                                                        RRB’s score was 85.
                                                               RRB’s score of 90
                                                                was highest of
                                                               Federal agencies.
                                                                                                                                             No more than two valid
                                                               No challenges to          No challenges to              No challenges to                                   No challenges to
                                                                                                                                             challenges to published
                                                                published data            published data                published data                                    published data
                                                                                                                                                data in FY 2008
- 46 -




         Performance Goal I-C: Provide a range of choices in service delivery methods.

         I-C-1. Offer electronic options to our customers,
         allowing them alternative ways to perform primary        14 services
         services via the Internet or interactive voice                                16 services available         16 services available    18 services available     17 services available
                                                                   available
         response systems. (Measure: # of services
         available through electronic media)

         Performance Goal I-D: Ensure efficient and effective business interactions with covered railroad employers.

         I-D-1. Improve timeliness and efficiency in posting
         service and compensation data to agency records.                                                                                            99.0%
                                                                     99.7%                     99.6%                       99.81%                                      70.4% (through 4/15/08)
         (Measure: % of service and compensation records
         posted by April 15)

         I-D-2. Improve accuracy in posting service and
         compensation data to agency records. (Measure:                                                                                              99.0%                     93.3%
                                                                     99.0%                     99.9%                        99.5%
         % of service and compensation records posted
         accurately)
         RAILROAD RETIREMENT BOARD
                                                                     2005 Actual           2006 Actual           2007 Actual          2008 Projected             2008 Actual
         FY 2008 ANNUAL
                                                                    (At $102.5m) 1/       (At $101.5m) 1/       (At $103.7m) 1/       (At $101.9m) 1/           (At $101.9m) 1/
         PERFORMANCE REPORT

         I-D-3. Covered employer annual reports of
         employees filed electronically, or on magnetic                   98.0%                 97.8%                 98.2%                 95.0%                     98.8%
         media. (Measure: % of employee records filed
         electronically, or on magnetic media)

         I-D-4. Enable employers to use the Internet to
         conduct business with the RRB, in support of the                 55.0%                 58.0%                 62.0%                 65.0%                     67.0%
         Government Paperwork Elimination Act. (Measure:
          % of employers who use the new online reporting           4 Internet services   6 Internet services   7 Internet services   9 Internet services       7 Internet services
         process; # of services available through electronic             available             available             available             available                 available
         media)

         Strategic Goal II: Serve as Responsible Stewards for Our Customers’ Trust Funds and Agency Resources

         Performance Goal II-A: Ensure that trust fund assets are projected, collected, recorded and reported appropriately.

         II-A-1. Debts will be collected through billing, offset,
         reclamation, referral to outside collection programs              66%                   62%                   59%                   55%
- 47 -




                                                                                                                                                                       41%
         and a variety of other collection efforts. (Measure:
         funds collected vs. total debts outstanding)

         II-A-2. Release quarterly and annual notices
         accurately and timely to employers regarding their                                                                                  Yes                       Yes
                                                                           Yes                   Yes                   Yes
         experience rating-based contributions. (Measure:
         Yes/No)

         II-A-3. Complete compensation reconciliations at
         least 1 year before the statute of limitations expires.
         (Compensation reconciliations involve a                    100% of the 2002      100% of the 2003      100% of the 2004      100% of the 2005          100% of the 2005
         comparison of compensation reported by railroad            reconciliations by    reconciliations by    reconciliations by    reconciliations by       reconciliations were
         employers to the RRB for benefit calculation                   12/17/04               2/15/05              12/11/06               2/28/08            completed by 2/26/08
         purposes with compensation reported to the IRS for
         tax purposes.) (Measure: % completed)

         II-A-4. Perform monthly reasonableness tests
         comparing railroad retirement taxes deposited
         electronically, which represent over 99 percent of
         all railroad retirement taxes, against tax receipts
         transferred to the RRB trust funds by the                         Yes                   Yes                   Yes                   Yes            Yes, through February 2008
         Department of the Treasury (Treasury) to provide
         reasonable assurance the RRB trust funds are
         receiving appropriate tax funds. (Measure:
         reasonableness test performed and anomalies
         reconciled with Treasury (Yes/No))
         RAILROAD RETIREMENT BOARD
                                                                2005 Actual            2006 Actual             2007 Actual           2008 Projected         2008 Actual
         FY 2008 ANNUAL
                                                               (At $102.5m) 1/        (At $101.5m) 1/         (At $103.7m) 1/        (At $101.9m) 1/       (At $101.9m) 1/
         PERFORMANCE REPORT

         II-A-5. Prepare annual Performance and                 Yes. The FY 2004      Yes. The FY 2005        Yes. The FY 2006
                                                                                                                                                           Yes. The FY 2007
         Accountability Report (including audited financial     Performance and       Performance and         Performance and
                                                                                                                                                            Performance and
         statements and other financial and performance           Accountability     Accountability Report   Accountability Report         Yes
                                                                                                                                                        Accountability Report was
         reports) by the required due dates. (Measure:         Report was released     was released on         was released on
                                                                                                                                                         released on 11/15/07.
         Yes/No)                                                  on 11/10/04.            11/10/05.               11/15/06.

         II-A-6. Take prompt corrective action on audit                     7/
         recommendations. (Measure: % of audit                      90.3%                   97.2%                   93.2%                 95.0%                   91.1%
         recommendations implemented by target date)

         Performance Goal II-B: Ensure the integrity of benefit programs.

         II-B-1. Achieve a return of at least $3.60 for each                                                                                           Data will be not be available
                                                                  $5.11 : $1.00          $5.36 : $1.00           $5.48 : $1.00         $5.00 : $1.00
         dollar spent on program integrity activities.                                                                                                    until November 2008.
         (Measure: $ recoveries & savings per $ spent)
         Performance Goal II-C: Ensure effectiveness, efficiency, and security of operations.
- 48 -




         II-C-1. Continue succession planning by ensuring
         there is a cadre of highly skilled employees
         available for key positions.
         (Measure: Number of position types (descriptions)
         for which core competencies have been defined.            6 positions
         Number of employees whose skills have been
         assessed.                                                73 employees
         Number of employees involved with skills-
         enhancement programs.)                                   31 employees

         (Measure for FY 2006 and later:                                                     Yes                                                                   Yes
                                                                                                                     Yes                   Yes
         Structured succession planning activities are
         continuing. (Yes/No))
         RAILROAD RETIREMENT BOARD
                                                             2005 Actual               2006 Actual                  2007 Actual                 2008 Projected                  2008 Actual
         FY 2008 ANNUAL
                                                            (At $102.5m) 1/           (At $101.5m) 1/              (At $103.7m) 1/              (At $101.9m) 1/                (At $101.9m) 1/
         PERFORMANCE REPORT

         II-C-2. Annually assess/update all computer        Yes. The agency        No. The BCP was              RRB met its performance      RRB has acquired              Yes. As of 7/02/08, the
         security, disaster recovery, and business          completed a            updated with alternate       goal for fiscal year 2007.   contractor assistance to      certification and
         resumption plans for the agency. (Measure:         Business Impact        non-IT site information in   RRB certified and            certify and accredit other    accreditation project team
         Yes/No)                                            Analysis and a         January 2006, and            accredited one general       systems. Self-                has completed work on the
                                                            Business Continuity    Appendix H of the BCP,       support system. The          assessments will be           test and evaluation of
                                                            Plan (BCP).            the Emergency                agency also hired an         performed on selected         security controls for the
                                                                                   Management                   information availability     control components of the     Mainframe General Support
                                                                                   Organization, was            analyst and completed a      systems. Contingency          System and five major
                                                                                   updated in February          training test and exercise   planning and related          applications. An exercise of
                                                                                   2006. An IT Disaster         of the Continuity of         training material will also   the Disaster Recovery Plan
                                                                                   Recovery Plan was in         Operations Plan.             be updated.                   was successfully performed
                                                                                   draft status at the end of                                                              in March 2008.
                                                                                   the fiscal year.

         II-C-3. Develop and implement new procedures for   Yes. The IDS was       Yes. The Department of       Yes. The Intrusion           A Network Access Control      Yes. Components of the
         responding to and reporting computer security      installed on           Energy’s Computer            Detection System was         appliance will be fine-       Core Intrusion
         incidents. (Measure: Yes/No)                       11/19/04, and was      Incident Advisory Center     upgraded to Intrusion        tuned. The Computer           Detection/Prevention
                                                            placed in operation    began vulnerability          Prevention. A network        Security Incident             System were updated to
                                                            on 02/12/05. The       assessment testing in        access control device        Response Plan will be         improve the stability and
- 49 -




                                                            IDS tuning phase       January 2006, and            was installed on the         reviewed and updated as       uptime of back-end
                                                            was completed by       completed testing of the     agency LAN/WAN               necessary.                    processes. As of 7/02/08,
                                                            06/30/05. Computer     RRB’s LAN general            general support system                                     tuning of Network Access
                                                            security incident      support system.              to provide increased                                       Control has been
                                                            procedures are in                                   security management                                        completed. A Vulnerability
                                                            place and reports of                                capabilities.                                              Remediation Task Force
                                                            incidents are                                                                                                  has been formed to improve
                                                            documented.                                                                                                    the RRB’s security incident
                                                                                                                                                                           response capability.
         RAILROAD RETIREMENT BOARD
                                                                  2005 Actual                 2006 Actual                 2007 Actual                  2008 Projected                     2008 Actual
         FY 2008 ANNUAL
                                                                 (At $102.5m) 1/             (At $101.5m) 1/             (At $103.7m) 1/               (At $101.9m) 1/                   (At $101.9m) 1/
         PERFORMANCE REPORT

         II-C-4. Assess computer security training              Yes. The agency           Yes. A total of 181 RRB     Yes. All staff with          The two-track training           Yes. The annual RRB
         requirements and implement an ongoing training         established two           employees with              computer security            concept will be maintained.      computer security
         program for agency staff. (Measure: Yes/No)            training tracks.          computer security           responsibilities received    All agency staff and             awareness program was
                                                                Track one provides        responsibilities received   role-based security          contractors with computer        launched in March 2008.
                                                                technical expertise       Web-based training at       training at OPM’s            security responsibilities will   As of 7/02/08, the OPM
                                                                and functional skills     the OPM USALearning         GoLearn.gov. Technical       receive role-based security      GoLearn.gov role-based
                                                                for IT technical staff,   site, with a second         IT specialists participate   training with a second           security training program
                                                                and track two             training track for          in a track that requires     training track for               has been completed.
                                                                focuses on                specialized technical       security-specific            specialized technical            Specialized technical
                                                                knowledge of              education. All RRB staff    technical education          education. Also, all RRB         education has been
                                                                security                  annually complete a         associated with their job.   staff will complete a            approved for all training
                                                                assessments,              computer security           The annual computer          computer security                designated as critical or vital
                                                                planning, policy          awareness program.          awareness program for        awareness program.               for achieving performance
                                                                development and                                       all employees and                                             goals.
                                                                safeguard controls.                                   contractors with network
                                                                All employees                                         access was completed.
                                                                requiring IT security
                                                                education participate
- 50 -




                                                                in track two;
                                                                however, technical
                                                                employees use both
                                                                tracks.
                                                                The pilot portion of      A post-implementation       This objective has been
         II-C-5. Implement a methodology to successfully        this multi-phase          review was completed in     completed with full
         estimate, track and monitor total costs and time       project was               FY 2006 to tune the         implementation of the
         schedules for information technology investments       completed at the          system to ensure that       project management
         through the project life cycle, incorporating both     end of FY 2005. All       project measures were       system in the Bureau of               Completed                        Completed
         web and mainframe investments. (Measure:               projects are now          working in the IT           Information Services.
         Yes/No)                                                being entered and         environment. Some best
                                                                tracked in MS             practices were
                                                                Project.                  developed.

         II-C-6. Assemble and publicize an annual inventory
         of RRB commercial activities on the RRB Website.                Yes                         Yes                         Yes                            Yes                              Yes
         (Measure: Yes/No)


         II-C-7. Complete public-private competitions on the                              OMB did not establish a     OMB did not establish a                                       OMB did not establish a
         required activities listed on the Federal Activities                             target for FY 2006. RRB     target for FY 2007. RRB                                       target for FY 2008. RRB
                                                                        5%                                                                             Meet target level
         Inventory Reform (FAIR) Act inventory. (Measure:           (cumulative)          has competed about 5%       has competed about 5%                                         has competed about 3.5%
                                                                                                                                                      established by OMB
         % of the FTEs listed on the FAIR Act inventory for                               of the FTEs on the FAIR     of the FTEs on the FAIR                                       of the FTEs on the FAIR Act
         which competitions completed)                                                    Act inventory.              Act inventory.                                                inventory.
         RAILROAD RETIREMENT BOARD
                                                                2005 Actual         2006 Actual           2007 Actual               2008 Projected                2008 Actual
         FY 2008 ANNUAL
                                                               (At $102.5m) 1/     (At $101.5m) 1/       (At $103.7m) 1/            (At $101.9m) 1/              (At $101.9m) 1/
         PERFORMANCE REPORT

         II-C-8. Meet government percentage goal for use of
                                                                     Yes                 Yes                    Yes                         Yes                         Yes
         performance-based contracting techniques for
         eligible service contract funds. (Measure: Yes/No)

         II-C-9. Support government-wide procurement of
         E-Government initiatives using the point of entry           Yes                 Yes                    Yes                         Yes                         Yes
         vehicle of www.FedBizOpps.gov for all eligible
         actions. (Measure: Yes/No)

         II-C-10. Complete migration from the agency’s
                                                                                                         Yes. The IDMS/DB2
         current mainframe database management system
                                                               New indicator for   New indicator for   database conversion was
         (IDMS) to DB2, and initiate efforts to optimize the                                                                             Completed                   Completed
                                                                  FY 2007             FY 2007           successfully completed
         performance of those databases and further reduce
                                                                                                            as of 8/13/07.
         data redundancy. (Measure: Meet target dates for
         the migration. Yes/No)
         II-C-11. Complete data optimization to optimize the
         performance of DB2 databases for future                                                       Yes. RRB contracted for
                                                               New indicator for   New indicator for                                        Yes
         developmental efforts, and to further reduce and                                                    this effort.                                               Yes
                                                                  FY 2007             FY 2007
         document the data. (Measure: Meet target dates
- 51 -




         for the project. Yes/No)


         II-C-12. Complete modernization of RRB
         processing systems in accordance with long-range      New indicator for   New indicator for      New indicator for           New indicator for           New indicator for
         planning goals. (Measure: Meet target dates for          FY 2009             FY 2009                FY 2009                     FY 2009                     FY 2009
         each phase of the project. Yes/No)

         II-C-13. Complete 16 corrective actions to correct                                                                      Most projects that do not   Three corrective actions
         the RRB’s material weakness related to information                                                                      require funding will be     have been completed and
         security. (Measure: Meet target dates for the                                                                           completed. Others will be   implemented. We plan to
         project. Yes/No)                                                                                 New indicator for      completed if funding is     have nine additional
                                                               New indicator for   New indicator for
                                                                                                             FY 2008             available.                  corrective actions
                                                                  FY 2008             FY 2008
                                                                                                                                                             completed in FY 2008 and
                                                                                                                                                             all the corrective actions
                                                                                                                                                             completed and implemented
                                                                                                                                                             in FY 2009.
         Performance Goal II-D: Effectively carry out the responsibilities of the Railroad Retirement Board under the Railroad Retirement and Survivors’ Improvement Act
         of 2001 with respect to the activities of the National Railroad Retirement Investment Trust.

         II-D-1. Review monthly reports submitted by the                                                                                                                Yes
                                                                     Yes                 Yes                    Yes                         Yes
         Trust. (Measure: Yes/No)

         II-D-2. Review annual management reports
                                                                     Yes                 Yes                    Yes                         Yes                         Yes
         submitted by the Trust. (Measure: Yes/No)
          RAILROAD RETIREMENT BOARD
                                                                  2005 Actual             2006 Actual                2007 Actual               2008 Projected                2008 Actual
          FY 2008 ANNUAL
                                                                 (At $102.5m) 1/         (At $101.5m) 1/            (At $103.7m) 1/            (At $101.9m) 1/              (At $101.9m) 1/
          PERFORMANCE REPORT

          II-D-3. Review annual audit reports of the Trust’s
                                                                        Yes                     Yes                        Yes                        Yes                          Yes
          financial statements. (Measure: Yes/No)


         1/
               Dollar amounts shown are funds obligated or appropriated for the fiscal year. Actual results for fiscal year 2008 represent status as of 3/31/08 unless otherwise noted.
         2/
               Payment Accuracy Rate – the percentage of dollars paid correctly as a result of adjudication actions performed. Case Accuracy Rate – the percentage of cases that
               	




               do not contain a material payment error. Case accuracy rates reflect only those errors that are detected as a result of reviewing award actions performed during the
               fiscal year being studied. (A material error is (1) an incorrect payment of $5.00 or more at the point the error is identified, (2) an incorrect payment of less than $5.00
               totaling 1 percent or more of the monthly rate, or (3) any situation in which a non-entitled benefit is paid.)
         3/	
               In audit report 05-05, dated May 17, 2005, the OIG found problems with the performance data for these indicators. One significant problem has been resolved, allowing
               us to report performance for fiscal year 2005, and later. However, there are still some system limitations that prevent inclusion of all internal processing time in the
               performance data. We are addressing them. Until the system changes are in place, performance will be calculated as the percent of cases adjudicated within the time
               specified in the measure. Another program error causes a small number (less than 1 percent) of spouse applications to be calculated incorrectly. The performance
               data includes these cases.
- 52 -




         4/
               Measure does not include the time for customer receipt (from U.S. Treasury or Postal Service).
         5/	
               Measurement and reporting inconsistencies, which resulted in a net understatement of actual performance, were identified during the reporting period.
               These inconsistencies have been corrected effective with April 2005 data. Therefore, the fiscal year 2005 performance is for the last 6 months only.
         6/
               This indicator includes both retirement and survivor disability payments. The retirement payments are impacted by the system limitations identified in footnote 3 above.
               When the system limitations for retirement cases are corrected, this inconsistency will be eliminated.
         7/
               The percentage has been adjusted from 88.4 percent to reflect two audit recommendations implemented at the end of the fiscal year.
   Discussion of Unmet Performance Goals and Indicators for Fiscal Year 2007



                 INDICATOR                                  DISCUSSION OF VARIANCE

Performance indicator I-C-1. Offer electronic       A new application to enable Palmetto GBA staff
options to our customers, allowing them             to perform transactions via the Internet was
alternative ways to perform primary services via    deployed on January 18, 2008, and the system
the Internet or interactive voice response          has been successfully implemented. The
systems.                                            previous target completion date was September
(Measure: number of services available              21, 2007, but the project was delayed due to
through electronic media.)                          competition for limited information technology
                                                    resources.
Our goal for fiscal year 2007 was to provide 17
services. We provided 16 services.


Performance indicator II-A-6. Take prompt           The agency implemented 41 recommendations
corrective action on audit recommendations.         out of 44 with target dates in fiscal year 2007.
(Measure: percent of audit recommendations          Had one additional recommendation been
implemented by target date.)                        completed before the end of the fiscal year, the
                                                    agency would have exceeded the target. Of
Our goal for fiscal year 2007 was to complete       the three not completed, two were extended
95 percent of audit recommendations by the          into fiscal year 2008, while implementation of
target date. We completed 93.2 percent.             the remaining one proved cost prohibitive.




                                                - 53 -
PAGE INTENTIONALLY LEFT BLANK 

FINANCIAL SECTION
PAGE INTENTIONALLY LEFT BLANK 

                                        Financial Section

Message from the Chief Financial Officer

I am pleased to present the RRB’s Performance and Accountability Report for fiscal year 2008. This
report incorporates the annual performance report under the Government Performance and Results
Act of 1993, the internal control report under the Federal Managers’ Financial Integrity Act, and
audited consolidated financial statements under OMB guidance.

The RRB is committed to integrated and automated financial management systems that focus on the
agency’s mission and accountability. RRB strives to maintain an environment in which program and
financial managers work in partnership to ensure the integrity of financial information and use that
information to make decisions, measure performance, and monitor outcomes. In this environment,
we envision integrated financial management systems with appropriate internal review and controls
that provide agency managers with timely, accurate, and easily accessible information. We expect
managers throughout the agency to use that information to achieve program objectives in a
cost-effective manner and to ensure accountability.

The RRB continued to provide high quality financial management and financial reporting during fiscal
year 2008. The RRB:

    •	   Achieved an unqualified, or clean, audit opinion on its consolidated financial statements for
         fiscal year 2008. We also continued to prepare unaudited quarterly financial statements and
         met the accelerated schedule of releasing these statements to OMB.

    •	   Continued its planning for the transition to a new financial management system. Initial efforts
         have focused on evaluating the potential costs and monitoring the progress of other Federal
         agencies that are migrating to a Financial Management Line of Business Shared Service
         Provider. During fiscal years 2009 and 2010, we intend to further evaluate various migration
         options.

    •	   Implemented audit recommendations as follows:

         At the beginning of fiscal year 2008, the agency’s audit follow-up tracking system reported
         189 audit recommendations as being open. During the fiscal year, audit reports containing
         another 51 recommendations were issued. As a result, the total number of open
         recommendations during the year was 240. At the same time, final action was completed on
         72 audit recommendations and 4 audit recommendations were rejected, resulting in a
         balance at the end of the fiscal year of 164 open recommendations. Many of the open
         recommendations deal with information technology, including several security-related
         recommendations, and require ongoing, long-term corrective actions to bring them to
         closure. Additionally, the status of the OIG-identified material weaknesses and planned
         corrective actions are presented in the Management’s Discussion and Analysis’
         Management Assurance section.

The RRB will continue to provide financial information that is timely, accurate and useful in the
coming years. We are committed to continuing our tradition of providing high quality financial
services to agency management, the Congress, OMB, and the constituents we serve.



                                                                Original signed by:

                                                                Kenneth P. Boehne
                                                                Chief Financial Officer

                                                 - 57 -

RAILROAD RETIREMENT BOARD
CONSOLIDATED BALANCE SHEET
AS OF SEPTEMBER 30, 2008 AND 2007
(in dollars)

                                                                    FY 2008                 FY 2007

ASSETS

Intragovernmental:

 Fund Balance with Tre asury (Note 3)
                              $40 ,683,215         $61,178,489
 Investments (Note 4)
                                            1,407 ,311,638       1,323,596,381
 Accounts Receivable (Note 6)
                                    4,047 ,203,316       3,911,000,908

Total Intragovernm ental                                          5,495,198,169        5,295,775,778

  NRRIT Net Assets (Note 5)
                                     25,320,737,474       32 ,660,594,000
 Accounts Receivable, Net (Note 6)
                                  32,248 ,714           32,521 ,516
 Inve ntory and Related Property, Net (Note 7)
                          97,452               101,517
 General Property, Plant and Equipment, Net (Note 8)
                 1,432,927             1,371,309
 Other
                                                                  32 ,936               29,660

TOTAL ASSETS                                                    $30,849,747,672      $37,990,393,780

LIA BI LITIES (Note 9)

Intragovernmental:

 Accounts Payable
                                                 $509,991,700         $484,330,000
 Debt
                                                            3,164,768,904        3,017,472,732
 Other
                                                               1,094,480              992,347

Totallntragovernmental                                            3,675,855,084        3,502,795,079

 Accounts Payable
                                                      619,370                 883,223
 Benefits Due and Payable
                                          874,547,337             849,154,891
 Other
                                                             111,055,144             110,158,446

TOTAL LIABILITIES
                                                4,662,076,935        4,462,991,639

COMMITMENTS AND CONTINGENCIES (Note 10)


NET POSITION


Unexpended Appropriations - Earmarked Funds (Note 17)
                  504,921              495,477
Unexpended Appropriations - Other Funds
                              5,699 ,982           6,132,482
Cumulative Results of Operations - Earmarked Funds (Note 17)
    26,181,465,834       33,520,774.182


TOTAL NET POSITION
                                              26,187,670,737       33,527,402,141

TOTAL LIABILITIES AND NET POSITION
                             $30,849,747,672      $37,990 ,393,780



               The accompanying notes are an integral part of these financial statements.


                                                    - 58 ­
RAILROAD RETIREMENT BOARD
CONSOLI DATED STATEMENT OF NET COST
FOR THE YEARS ENDED SEPTEMBER 30, 2008 AND 2007
(in dollars)
                                                                    FY 2008              FY 2007

Program Costs
 Railroad Retirement Prog ram
     Gross Costs (Note 11)                                      $10,350,267,409      $10,111,342,675
     Less: Earned Revenue                                             9,663,267            8,536,491
     Net Program Costs                                           10,340,604,142       10,102,806,184


 Railroad Unem ploy ment and Sickness Insurance Program
     Gross Costs (Note 11)                                          122,293,690          117,351,269
     Less: Earned Revenue                                            24,054,840           24,854,898
     Net Program Costs                                               98,238,850           92,496,371


Costs Not Assigned to Programs                                                 o                     o
Less : Earned Revenues Not Attributed to Programs                       290,031                 241,770

NET COST OF OPERATIONS                                          $10,438,552,961      $10,195,060,785

                   The accompanying notes are an integral part of these financial statements.




                                                    - 59 ­
RAI LROAD RETIREMENT BOARD
CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION
FOR THE YEAR ENDED SEPTEMBER 30, 2008
(in do ll ars)

                                                                                FY 2008




                                                  Earmarked           All Other                         Consolidated
                                                    Funds              Funds         Eliminations          Total

Cumulative Results of Operations :

      Beginning Bala nces                      $33 ,520,774 ,182                                       $33 ,520,774,1 82

Budgetary Fina nc ing Sources:
     App ropriations Used                          359 ,073 ,113     77,657,61 6                            436 ,730 ,729
     Non-Exchange Reven ue                       5,421 ,697 ,351          1,915      (359,073,113)       5 ,062 ,626,153
     Transfer s in from NRRIT (Note 12)          1,298,000,000                                           1,298,000 ,000
     Tr ansfers in/out Without Reimbursement     3,633 ,185 ,000                                         3,633,185,000

Other Financing Sources (Non -Exchange) :
       Imputed Finan cing                            8,559 ,257                                              8,559,257
       Change in NRRIT Assets                   (7,339,856 ,526)                                        (7,339 ,856,526)


      Tot al Financing Sources                   3,380,658, 195      77,659 ,531     (359 ,073 ,113)     3,099,244 ,613
      Net Cost of Operati ons                   10,719 ,966,543      77,659,531      (359,073 ,113)     10,43 8,552,961
      Net Change                                (7,339 ,308 ,348)                                       (7,33 9,308,348)

      Cumulative Results of Operations          26,181,465,834                                          26,181,465,834

Une xpended Appropriations:

      Beginning Balances                               495,477        6,132,482                              6,627 ,959

BUdgetary Financing Sources:
     App ropriations Received                     $359 ,150 ,000    $80,404,670                           $439,554,670
     Other Adjustments                                  (67,443)      (3,179 ,554)                          (3,246,997)
     Appropriations Used                          (359,073,11 3)    (77 ,657 ,616)                        (436,730 ,729)

      Tot al Budgetary Financing Sour ces                 9,444        (432 ,500)                              (423 ,056)

      Total Unexpended Appropriations                  504,921        5,699,982                              6,204 ,903

      Net Position                             $26,181,970,755       $5,699,982                        $26,187,670,737



                     The accompanying notes are an integral part of these financial statements.




                                                        - 60 ­
RAILROAD RETIREMENT BOARD
CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION
FOR THE YEAR ENDED SEPTEMBER 30,2007
(in do ll ars )

                                                                                FY 2007




                                                   Earmarked          All Other                          Consolidated
                                                     Funds             Funds          Eliminations          Total

Cumulative Res u lts of Ope rat ions :

       Beginn ing Balances                      $29 ,877 ,180,462                                      $29 ,877 ,180,462

Bud getary Fina nc ing Sources:
      Appropriations Used                            460,089 ,400     86,486,517                           546,575,917
       Non-Exchange Revenue                        5,490 ,878,777          2,460      (460 ,089,400)     5,030,791 ,837
      Transfers in from NRRIT (Note 12)            1,391,000 ,000                                        1,391,000,000
      Transfers in/out Without Reimbursement       3,573,541 ,000                                        3,573 ,541,000

Other Financing Sources (Non-Exchange):
       Imputed Financing                               8,904,879                                             8,904,879
       Change in NRRIT Ass ets                     3,287 ,842,000                                        3,287,842,000
       Other                                               (1,128)                                              (1,128)

       Total Financing Sources                    14,212 ,254,928     86,488,977      (460 ,089,400)    13,838,654,505
       Net Cost of Operations                     10,568,661,208      86 ,488,977     (460 ,089,400)    10,195 ,060 ,785
       Net Change                                  3,643,593,720                                         3,643 ,593,720

       Cumulative Results of Operations           33,520,774,182                                        33,520,774,182

Une xpended Appropriations :

       Beginning Balances                                434,877       8,469 ,010                            8,903 ,887

Budgetary Financing Sources:
     Appropriations Received                        460 ,150 ,000     88,000,000                           548 ,150 ,000
      Other Adjustments                                               (3,850 ,011 )                          (3,850,011 )
     Appropriations Used                            (460 ,089,400)   (86,486,517)                         (546,575 ,917)

       Total Budgetary Financing Sources                  60,600      (2,336,528)                            (2,275,928)

       Total Unexpended Appropriations                   495,477       6,132,482                             6,627,959

       Net Position                             $33,521,269,659       $6,132,482                       $33,527,402,141



                       The accompanying notes are an integral part of these financial statements.




                                                          - 61 ­
RAILROAD RETIREMENT BOARD
COMBINED STATEMENT OF BUDGETARY RESOURCES
FOR THE YEARS ENDED SEPTEMBER 30, 2008 AND 2007
(i n dollars)

                                                                                              RESTATED
                                                                          FY 2008              FY 2007
BU DGETARY RESO URCES

Unoblig ated balance, brought forward , October 1                            $10,693,589           $12,048,208

Recoveries of prior year unpaid obligations                                       315,745            1,497,036
Budget authority
 Appropriation                                                             11,082,467,857       11,234,210,880
 Borrowing authority (Note 19)                                              3,385,800,000        3,232,600,000
 Spending authority from offsetting collections
  Earned

     Collected
                                                                34,065,154           32,122,746
     Change in receivables from Federal sources
                                     (776)                  19
  Expenditu re transfers from trust funds (Note 19)                           108,930,154          110,866,564
Subtotal                                                                   14,611,262,389       14,609,800,209

Nonexpenditure transfe rs, net, anticipated and actual (Note 19)                   (13,514)            (13,266)
Temporarily not available pursuant to Public Law                             (445,444,583)        (574,373,107)
Permanently not available                                                  (3,232 ,812,162)     (3,244,129,804)

TOTAL BUDGETARY RESOURCES                                                $10,944,001,464       $10,804,829,276

STATUS OF BUDGETARY RESOURCES
Obligations incurred (Notes 18 and 19)
 Direct                                                                  $10,925,290,386       $10,785,440,556
 Reimbursab le                                                                 9,073,058             8,695,131
 Subtotal                                                                 10,934,363,444        10,794,135,687
Unobligated balance
 Apport ioned                                                                   1,489,724            1,959,099
Unobligated balance not available                                               8,148,296            8,734,490

TOTAL STATUS OF BUDGETARY RESOURCES                                      $10,944,001,464       $10,804 ,829,276

CHANGE IN OBLIGATED BALANCE
Obligated balance, net
 Unpaid obligations , brought forward , October 1                           $910,619,388          $875,906,704
  Uncollected customer payments from Federal sources , brought
  forward , October 1                                                          (5,794,654)          (2,219,668)
Total unpaid obligated balance, net                                         $904 ,824,734         $873,687 ,036

Obl igations incurred, net                                               $10,934,363,444       $10,794 ,135,687
Gross outlays                                                            (10,912,440,273)      (10,755,707,056)
Recoveries of prior year unpaid obligations , actual                            (315,745)            (1,497,036)
Change in uncollected customer payments from Federal sources                    (999,224)            (5,793,897)

Obligated balance, net, end of period
 Unpaid Obligations (Note 13)                                               $926,432 ,936         $910,619,388
 Uncollected customer payments from Federal sou rces                           (1,000,000)          (5,794,654)
Total, unpaid obligated balance, net, end of period                         $925 ,432,936         $904,824,734

NET OUTLAYS (Note 14)
 Gross outlays                                                           $10,912,440,273       $10,755 ,707,056
 Offsetting collections                                                     (141,995,308)         (137,195,432)
 Distributed offsetting receipts                                          (3,992,185,000)       (4,033,541,000)

  Net Outlays                                                              $6,778,259,965       $6,584,970,624



                The accompanying notes are an integral part of these financial statements.

                                                       - 62 ­
                                 Statement of Social Insurance (Note 15, Note 16)

                                          Actuarial Surplus or (Deficiency)

                                      75-year Projection as of January 1, 2008

                                       (Present values in billions of dollars)*

                                                                                                                   Unaudited Unaudited
                                                                                  1/1/2008   1/1/2007   1/1/2006    1/1/2005 1/1/2004

Estimated future income (excluding interest) received from or on behalf of:

   Current participants not yet having attained retirement age                      $69.6      $66.7      $65.0        $56.8    $55.8
   Current participants who have attained retirement age                             66.2       63.4       62.5         56.9     54.9
   Those expected to become participants                                             43.3       43.1       44.3         31.3     30.3
   Subtotal - future income for the 75-year period                                  179.1      173.1      171.8        145.0    141.0


Estimated future expenditures:

   Current participants not yet having attained retirement age                       88.4       86.0       84.1         72.9     71.8
   Current participants who have attained retirement age                             97.0       92.8       91.7         84.1     81.1
   Those expected to become participants                                             26.0       25.5       25.0         15.8     13.9
   Subtotal - future expenditures for the 75-year period                            211.5      204.2      200.8        172.8    166.8


Estimated future excess of income over expenditures:                                (32.3)     (31.1)     (29.0)      (27.8)    (25.9)


Fund balance:                                                                        33.2       32.0       30.0        28.6      26.6


Fund balance plus estimated future excess of income over expenditures:                0.9        0.9        1.0         0.8       0.8



*Present values changed from millions of dollars to billions. See explanation in Note 15.




                                                                 - 63 -
Notes to the Financial Statements: Fiscal Years Ended September 30, 2008 and 2007


1. 	Summary of Significant Accounting Policies

A. 	Basis of Presentation

Public Law 107-289, the Accountability of Tax Dollars Act of 2002, added the Railroad
Retirement Board (RRB) as an agency required to prepare audited financial statements for
fiscal year 2003 and subsequent years. Office of Management and Budget (OMB) guidance
requires that Performance and Accountability Reports (P&AR) for fiscal year 2008 are to be
submitted to the President, the Congress, and the Director of OMB by November 17, 2008. As
required by law, OMB has also prescribed the form and content of financial statements under
OMB Circular A-136. The RRB’s financial statements were prepared in accordance with the
form and content prescribed by OMB and with generally accepted accounting principles and
standards prescribed by the Federal Accounting Standards Advisory Board (FASAB).

The principal statements (prepared on a consolidated basis, except for the Statement of
Budgetary Resources which was prepared on a combined basis, and eliminating all significant
interfund balances and transactions) are comprised of the Balance Sheet and Statements of Net
Cost, Changes in Net Position, Budgetary Resources, and Social Insurance. These statements
are different from the financial reports, also prepared by the RRB pursuant to OMB directives,
used to monitor and control the RRB's use of budgetary resources.

B. 	Reporting Entity

The railroad retirement and the railroad unemployment and sickness insurance programs are
financed through the following accounts:

●	 Railroad Retirement (RR) Account (8011) funds retirement, survivor, and disability benefits
   in excess of social security equivalent benefits from payroll taxes on employers and
   employees and other income sources. Account 8011 is considered an earmarked fund.
   Our authority to use these collections is 45 United States Code (USC) §231(F)(c)(1).

●	 Social Security Equivalent Benefit (SSEB) Account (8010) funds the portion of railroad
   retirement benefits equivalent to a social security benefit from various income sources
   related to these benefits. Account 8010 is considered an earmarked fund. Our authority to
   use these collections is 45 USC §231N-1(c)(1).

●	 Dual Benefits Payments (DBP) Account (0111) funds the phase-out costs of certain vested
   dual benefits from general appropriations. Account 0111 is considered a general fund. Our
   authority to use these collections is 45 USC §231(N)(d).

●	 Federal Payments to the Railroad Retirement Accounts (0113) was established by OMB, not
   by legislation, and is used as a conduit for transferring certain income taxes on benefits and
   receiving credit for the interest portion of uncashed check transfers. Account 0113 is
   considered an earmarked fund. This account has no basis in law.

●	 Limitation on Administration Account (8237) pays salaries and expenses to administer the
   railroad retirement program and the railroad unemployment and sickness insurance
   program. This account is financed by the RR Account, the SSEB Account, and the Railroad


                                             - 64 -
   Unemployment Insurance Trust Fund, Administrative Expenses. Account 8237 is
   considered an earmarked fund. Our authority to use these collections is
   45 USC §231N-1(c) and 45 USC §231N-(H).

●	 Railroad Unemployment Insurance Trust Fund, Benefit Payments (8051.001) funds railroad
   unemployment and sickness insurance benefits from contributions by railroad employers.
   Account 8051.001 is considered an earmarked fund. Our authority to use these collections
   is 45 USC §360.

●	 Railroad Unemployment Insurance Trust Fund, Administrative Expenses (8051.002) was
   established to pay salaries and expenses to administer the program. Account 8051.002 is
   considered an earmarked fund. This fund is financed by contributions from railroad
   employers. Monies are transferred from this fund, based on cost accounting estimates and
   records, to the Limitation on Administration Account (8237) from which salaries and
   expenses are paid for both the railroad retirement program and the railroad unemployment
   and sickness insurance program. Our authority to use these collections is 45 USC §361.

●	 Limitation on the Office of Inspector General (8018) was established to fund the
   administration of the Inspector General's Office. Account 8018 is considered an earmarked
   fund. Our authority to use these collections is Public Law 110-161.

●	 City and State Taxes (6275) was established as a holding account for amounts withheld
   from employees' salaries but not yet paid to the appropriate institutions.

C. 	Budgets and Budgetary Accounting

Budget requests are prepared and submitted by the RRB in accordance with OMB Circular A-11
and other specific guidance issued by OMB. The RRB prepares and submits to OMB
Apportionment and Reapportionment Requests (SF-132) in accordance with OMB Circular A-11
for all funds appropriated by the Congress or permanently appropriated. Although OMB may
apportion funds by category, time period, or object class of expense, the RRB controls and
allocates all apportioned funds by three-digit object class codes of expense. For budgetary
accounting, all receipts are recorded on a cash basis of accounting and obligations are recorded
against the object class codes when they are incurred, regardless of when the resources
acquired are to be consumed. Obligations are amounts of orders placed, contracts awarded,
services received, and similar transactions during a given period that will require payments
during the same or a future period. Quarterly, the RRB prepares and submits Reports on
Budget Execution (SF-133) to OMB, reporting all obligations incurred against the amounts
apportioned.

D. 	Basis of Accounting

As required by law, the DBP Account is on a cash basis of accounting. Payroll taxes and
unemployment contributions are recorded on a modified cash basis in accordance with
Statement of Federal Financial Accounting Standards (SFFAS) No. 7. All other transactions are
recorded on an accrual basis of accounting and a budgetary basis. Under the accrual method,
revenues (except payroll taxes and unemployment contributions which are on a modified cash
basis) are recognized when earned and expenses are recognized when a liability is incurred.
For budgetary accounting, financial transactions are recorded when obligations are incurred,
regardless of when the resources acquired are to be consumed.



                                             - 65 -
The accompanying consolidated financial statements of the RRB include all funds maintained
by the RRB, after elimination of all significant interfund balances and transactions.

E. 	Concepts

The Fund Balance with Treasury (FBWT) is the aggregate amount of funds on deposit with the
Treasury, excluding seized cash deposited. The FBWT is increased by (1) receiving
appropriations, reappropriations, continuing resolutions, appropriation restorations, and
allocations; and (2) receiving transfers and reimbursements from other agencies. It also is
increased by amounts borrowed from the Bureau of the Public Debt (BPD), the Federal
Financing Bank, or other entities, and amounts collected and credited to appropriation or fund
accounts. The FBWT is reduced by (1) disbursements made to pay liabilities or to purchase
assets, goods, and services; (2) investments in U.S. securities (securities issued by BPD or
other Federal Government agencies); (3) cancellation of expired appropriations; (4) transfers
and reimbursements to other entities or to the General Fund of the Treasury; and,
(5) sequestration or rescission of appropriations.


2. 	Related Parties

The RRB has significant transactions with the following governmental and nongovernmental
entities:

●	 The Department of the Treasury (Treasury) collects payroll taxes from the railroads on
   behalf of the RRB. The taxes collected are credited by Treasury to the RRB’s trust fund
   account via an appropriation warrant. In fiscal years 2008 and 2007, net payroll taxes
   transferred to the RRB by Treasury were $4.9 billion and $4.7 billion, respectively.

   Treasury provides payment services to Federal agencies and operates collections and
   deposit systems. The RRB invests in government account securities through BPD. In fiscal
   years 2008 and 2007, investments, including accrued interest, totaled $1.4 billion and
   $1.3 billion, respectively. In addition, Treasury advances funds to the RRB for the financial
   interchange which are repaid annually. The amount paid by the RRB to Treasury in fiscal
   year 2008 due to the financial interchange advances during fiscal year 2007 included
   principal of $3.2 billion and interest of $181.4 million. The amount paid by the RRB to
   Treasury in fiscal year 2007 due to the financial interchange advances during fiscal year
   2006 included principal of $3.2 billion and interest of $178.7 million.

●	 The Social Security Administration (SSA) and RRB participate in an annual financial
   interchange. The financial interchange is intended to place the social security trust funds in
   the same position in which they would have been had railroad employment been covered by
   the Social Security Act and Federal Insurance Contributions Act (FICA). In fiscal year 2008,
   the RRB trust funds realized $4.0 billion through the financial interchange.

   Under Section 7(b)(2) of the Railroad Retirement Act of 1974, the RRB is required to pay
   certain individuals, described in this section, monthly social security benefits on behalf of
   SSA. SSA reimburses the RRB for benefits paid on behalf of SSA. The amounts
   reimbursed in fiscal years 2008 and 2007 were almost $1.2 billion, each year.

●	 The Centers for Medicare & Medicaid Services (CMS) participates in the annual financial
   interchange in the same manner as described for SSA. The RRB transferred $526 million


                                              - 66 -
   and $483 million to CMS in fiscal years 2008 and 2007, respectively. In addition to the
   financial interchange transactions, CMS reimburses the RRB for certain expenses it incurs
   associated with administering the Medicare program. The amounts reimbursed in fiscal
   years 2008 and 2007 were $9.2 million and $8.0 million, respectively.

●	 The General Services Administration (GSA) provides payroll processing and human
   resources services to the RRB. In addition, the RRB paid rent to GSA in the amount of
   $3.4 million for fiscal years 2008 and 2007.

●	 The Department of Labor (DOL) invests Railroad Unemployment Insurance Act (RUIA)
   contributions. Accounts receivable with the DOL amounted to $110 million and $109 million
   for fiscal years 2008 and 2007, respectively.

●	 The National Railroad Retirement Investment Trust (NRRIT) transfers funds to the RRB for
   payment of railroad retirement benefits. During fiscal years 2008 and 2007, the NRRIT
   transferred $1,298 million and $1,391 million, respectively, to the RR Account. The NRRIT
   holds and invests funds not immediately needed to pay benefits under the RRA. The net
   assets of the NRRIT are reported on the RRB’s balance sheet as a non-governmental
   investment. The RRB reports this information based on information provided by the NRRIT
   for that purpose.


3. 	Fund Balances with Treasury

Fund balances with Treasury at September 30 consisted of:

                                                                     2008               2007
  A. Fund Balances:
         (1) Trust Funds 	                                        $34,467,960        $54,540,225
         (2) General Funds 	                                        6,204,903          6,627,959
         (3) Other Fund Types 	                                        10,352             10,305

                   Total      	                                   $40,683,215        $61,178,489

  B. Status of Fund Balance with Treasury (FBWT)
          (1) Unobligated Balance
              (a) Available 	                                     $ 1,489,724        $ 1,959,099
              (b) Unavailable 	                                     8,148,296          8,734,490
          (2) Obligated Balance not yet Disbursed	                 31,034,843         50,474,595
          (3) Non-Budgetary FBWT             	                         10,352             10,305

                   Total      	                                   $40,683,215        $61,178,489

  C. Other Information: 	The above represents cash held in Treasury. Unobligated and obligated

     funds not held in cash are invested in Treasury securities. 



4. 	 Investments

The investments in Treasury securities represent the investments of two of the RRB’s
earmarked funds, the RR and the SSEB Accounts.




                                               - 67 -
                                                               Amounts for Balance Sheet Reporting
                                                      Cost             Interest Receivable      Investments Net
Intragovernmental Securities:
    Non Marketable Par Value 2008                $1,404,971,000                $2,340,638        $1,407,311,638

  Non Marketable Par Value 2007                  $1,320,915,000                $2,681,381        $1,323,596,381

The balance on September 30, 2008, consisted of investments in 3.125 percent par value
specials (with market value equal to face value) maturing on October 1, 2008. The balance on
September 30, 2007, consisted of investments in 4.375 percent par value specials (with market
value equal to face value) maturing on October 1, 2007. Par value specials mature on the first
working day of the month following the month of issue and have a yield based on the average
yield of marketable Treasury notes with maturity dates at least 3 years away.

The Federal Government does not set aside assets to pay future benefits or other expenditures
associated with the RR and SSEB Accounts. The cash receipts from the railroads for the RR
and SSEB Accounts are deposited in the Treasury, which uses the cash for general government
purposes. Treasury securities are issued to the RRB as evidence of its receipts. Treasury
securities are an asset to the RRB and a liability to the Treasury. Because the RRB and the
Treasury are both parts of the government, these assets and liabilities offset each other from
the standpoint of the government as a whole. For this reason, they do not represent an asset or
a liability in the U.S. government-wide financial statements.

Treasury securities provide the RRB with authority to draw upon the Treasury to make future
benefit payments or other expenditures. When the RRB requires redemption of these securities
to make expenditures, the government finances those expenditures out of accumulated cash
balances, by raising taxes or other receipts, by borrowing from the public or repaying less debt,
or by curtailing other expenditures. This is the same way that the government finances all other
expenditures.

5. NRRIT Net Assets

The balance sheet amounts represent the net asset value of NRRIT assets, at market value, as
of September 30, 2008 and 2007. These figures were provided to the RRB by the NRRIT for
the fiscal years ended September 30, 2008 and 2007.

Readers of these financial statements should be aware that the RRSIA authorizes the NRRIT to
invest railroad retirement assets in a diversified investment portfolio in the same manner as
those of private sector retirement plans.

6. Accounts Receivable

• Intragovernmental

Accounts receivable - Intragovernmental at September 30 consisted of:

                                                                                  2008                  2007

   Financial Interchange – Principal                                          $3,826,800,000       $3,688,700,000
   Financial Interchange – Interest                                              109,700,000          113,100,000
   Department of Labor                                                           110,455,311          108,973,750
   Social Security Administration - OASI/DI Benefits
                   (Old Age and Survivors Insurance/Disability Insurance)            248,005              227,158

    Total                                                                     $4,047,203,316       $3,911,000,908


                                                          - 68 -
• Accounts Receivable, Net

Accounts receivable, net at September 30 consisted of:

                                                                              2008               2007

   Accounts receivable - Benefit overpayments                              $40,161,656        $39,509,459
   Accounts receivable – Past due RUI contributions and taxes                   54,511             68,352
   Accounts receivable – Interest, penalty & administrative costs              241,736            252,460
    Total                                                                  $40,457,903        $39,830,271
   Less: Allowances for doubtful accounts                                    8,209,189          7,308,755

     Net Total                                                             $32,248,714        $32,521,516

The RRB’s September 30, 2008, accounts receivable balance (after writing-off currently not
collectible (CNC) receivables but prior to the application of the allowance for doubtful accounts)
of $40,457,903 includes $36,490,471 (90%) in railroad retirement program receivables and
$3,967,432 (10%) in railroad unemployment insurance program receivables. The total
allowance for doubtful accounts is $8,209,189. This includes $7,250,657 (88%) for the railroad
retirement program and $958,532 (12%) for the unemployment insurance program receivables.

The allowance for doubtful accounts for the railroad retirement program was calculated,
excluding debts classified as CNC, as follows: (1) categorizing the accounts receivable by
cause and age, (2) analyzing each category using historical data, (3) determining the
percentage of amounts due the RRB that would probably not be collected, and (4) applying the
determined percentages against accounts receivable.


7. Inventory and Related Property

Operating materials and supplies are valued on the cost basis. The recorded values are
adjusted for the results of physical inventories taken periodically. Expenditures are recorded
when inventories are consumed.


8. General Property, Plant and Equipment

These assets are stated at cost less accumulated depreciation/amortization. Acquisitions are
capitalized if the cost is $5,000 or more and the service life is 2 years or greater.
Depreciation/amortization is computed on the straight-line method. These assets consisted of:

                                                                           At September 30, 2008
                                          Service                               Accumulated         Net
        Classes of Fixed Assets            Lives                Cost            Depreciation     Book Value
Structures, facilities and leasehold
  improvements                              15 years         $ 2,723,731        $ 2,612,979       $ 110,752
ADP software                                 5 years          19,578,768         19,521,668           57,100
Equipment                                 5-10 years           5,412,577          5,250,276          162,301
Internal-Use Software in Development                           1,102,774                  0        1,102,774

                                                             $28,817,850        $27,384,923       $1,432,927




                                                    - 69 -
                                                                                At September 30, 2007
                                             Service                                 Accumulated         Net
        Classes of Fixed Assets               Lives                Cost              Depreciation     Book Value
Structures, facilities and leasehold
  improvements                                15 years          $ 2,651,787          $ 2,580,470          $    71,317
ADP software                                   5 years           19,578,768           19,484,356               94,412
Equipment                                   5-10 years            5,538,068            5,292,068              246,000
Internal-Use Software in Development                                959,580                    0              959,580

                                                                $28,728,203          $27,356,894          $1,371,309



9. Liabilities

Liabilities at September 30 consisted of:

                                                                                 2008                     2007
  Intragovernmental:
    Other – Unfunded Federal Employees’ Compensation Act
           Liability                                                      $        343,470         $          385,281

  Public:
    Other – Accrued Unfunded Leave                                        $      6,888,788         $      6,756,781

  Total Liabilities Not Covered by Budgetary Resources                        $ 7,232,258          $       7,142,062
  Total Liabilities Covered by Budgetary Resources                            4,654,844,677            4,455,849,577

  Total Liabilities                                                       $4,662,076,935           $4,462,991,639

• Debt

Intragovernmental debt results from borrowing from Treasury to fund benefit payments from the
SSEB Account.

                                                                                 2008                     2007

   Beginning Balance, Principal                                           $2,944,600,000           $2,958,200,000
    New Borrowing                                                          3,381,000,000            3,226,400,000
    Repayments                                                            (3,229,400,000)          (3,240,000,000)
    Ending Balance, Principal                                              3,096,200,000            2,944,600,000
    Accrued Interest                                                          68,568,904               72,872,732

     Total                                                                $3,164,768,904           $3,017,472,732

• Benefits Due and Payable

Benefits due and payable are accrued for all benefits to which recipients are entitled for the
month of September, which, by statute, are not paid until October. Also, liabilities are accrued
on benefits for past periods that have not completed processing, such as benefit payments due
but not paid. The amounts include uncashed checks of $11,132,404 and $10,557,048, at
September 30, 2008 and 2007, respectively. Under Public Law 100-86, the amount of RRB
benefits represented by checks which remain uncashed for 12 months after the check issue
date are credited (including interest thereon) to the accounts from which the checks were
drawn. The principal amount of uncashed checks must remain in a liability account until the


                                                       - 70 -
RRB determines that entitlement no longer exists or another check is issued to the beneficiary.
Finally, a special workload of approximately 16,000 benefit cases, estimated at $6 to
$10 million, has been identified and will be processed over the next few years.

• Other Liabilities

Other liabilities at September 30 consisted of:

                                                                                               FY 2008
                                                        Non-Current           Current           Total

   Intragovernmental:
     Employer Contributions & Payroll Taxes Payable      $            0   $      751,010    $     751,010
     Unfunded FECA Liability                                          0          343,470          343,470
      Total Intragovernmental                                         0        1,094,480        1,094,480

   Accrued Unfunded Liabilities                                    0           6,888,788      6,888,788
   Accrued Payroll                                                 0           3,514,699      3,514,699
   Accrued RRB Contributions – Thrift Savings Plan                 0              74,070         74,070
   Withholdings Payable                                            0              26,618         26,618
   Contingent Liability (see Note 10 for details)        100,000,000                        100,000,000
   Capital Lease Liability                                         0               1,446          1,446
   Other                                                           0             549,523        549,523

      Total Other Liabilities                           $100,000,000      $12,149,624      $112,149,624


                                                                                               FY 2007
                                                        Non-Current           Current           Total

   Intragovernmental:
     Employer Contributions & Payroll Taxes Payable     $             0   $      607,066   $      607,066
     Unfunded FECA Liability                                          0          385,281          385,281
      Total Intragovernmental                                                    992,347          992,347

   Accrued Unfunded Liabilities                                    0           6,756,782      6,756,782
   Accrued Payroll                                                 0           2,867,018      2,867,018
   Accrued RRB Contributions – Thrift Savings Plan                 0              55,148         55,148
   Withholdings Payable                                            0              29,719         29,719
   Contingent Liability (see Note 10 for details)        100,000,000                        100,000,000
   Capital Lease Liability                                     1,653               2,479          4,132
   Other                                                           0             445,647        445,647

      Total Other Liabilities                           $100,001,653      $ 11,149,140     $111,150,793




                                                      - 71 -
10. 	Commitments and Contingencies

The RRB is involved in the following actions:

●	 A transportation company filed a claim for refund of Railroad Retirement Tax Act (RRTA) or
   FICA taxes paid on lump-sum separation payments on the theory that such payments were
   supplemental unemployment benefits. Since the period during which the United States
   Supreme Court can be petitioned has expired, the RRB’s legal counsel has determined that
   it is remote that the RR and SSEB Accounts are contingently liable.

●	 Several Class 1 railroads have filed suits claiming a refund of RRTA or FICA taxes paid on
   lump-sum separation payments on the theory that such payments are supplemental
   unemployment benefits. The suits are pending the outcome of the above case and the
   RRB’s legal counsel has determined that it is reasonably possible that the RR and
   SSEB Accounts are contingently liable for an estimated amount of $82 million.

●	 A transportation company filed a claim for refund of RRTA or FICA taxes paid on separation
   payments and productivity fund distributions on the theory that such payments were not
   wages for services rendered. This claim has been pending the outcome of the
   transportation company case disclosed above and the RRB’s legal counsel has determined
   that it is reasonably possible that the RR and SSEB Accounts are contingently liable for an
   estimated amount of $4.6 million, exclusive of interest.

●	 Resulting from an earlier claim for tax offset and refund by a transportation company, a
   Court of Appeals decision affirming an earlier District Court judgment in favor of the
   Government became final when no further appeal was filed by the June 2008 deadline. The
   RRB’s legal counsel has determined that it is remote that the RR and SSEB Accounts are
   contingently liable.

No provision has been made in the accompanying financial statements regarding the above four
claims other than this disclosure.

●	 In fiscal year 2005, we recorded a contingent liability in the amount of $100,000,000, for an
   estimated forthcoming adjustment to the financial interchange for military service credits due
   SSA.

The total fiscal year 2008 contingent liability recorded is $100 million.

●	 Several Class 1 railroads have filed claims for refund of taxes with the Internal Revenue
   Service (IRS). Of the $2.3 billion in claims, the RRB’s legal counsel has determined that it is
   reasonably possible that the RR and SSEB Accounts are contingently liable for an estimated
   amount of $1.4 billion, and the $0.9 billion is remote. Under the anti-disclosure provision of
   the IRS code, we are not permitted to disclose any details related to these claims. No
   provision has been made in the accompanying financial statements regarding these claims
   other than this disclosure.




                                                - 72 -
11. Intragovernmental Costs and Exchange Revenue

                                                                  2008               2007
  Railroad Retirement (RR) Program
   Intragovernmental Costs                                  $ 208,857,878        $   207,049,278
   Public Costs                                              10,141,409,531        9,904,293,397
       Total RR Program Costs                               $10,350,267,409      $10,111,342,675

   Intragovernmental Earned Revenue                         $       9,172,230    $     8,015,913
   Public Earned Revenue                                              491,037            520,578
       Total RR Program Earned Revenue                      $       9,663,267    $     8,536,491

  Railroad Unemployment and Sickness Insurance (RUIA)
  Program
    Intragovernmental Costs                                 $       4,689,312    $     4,495,995
    Public Costs                                                  117,604,378        112,855,274
        Total RUIA Program Costs                            $     122,293,690    $   117,351,269

   Intragovernmental Earned Revenue                         $               0    $             0
   Public Earned Revenue                                           24,054,840         24,854,898
       Total RUIA Program Earned Revenue                    $      24,054,840    $    24,854,898

These totals do not include $290,031 and $241,770 of earned revenues not attributable to either
program for fiscal years 2008 and 2007, respectively.

Intragovernmental costs (exchange transactions made between two reporting entities within the
Federal government) are being reported separately from costs with the public (exchange
transactions made between the reporting entity and a non-Federal entity). Intragovernmental
exchange revenues (exchange transactions made between two reporting entities within the
Federal government) are reported separately from exchange revenues with the public
(exchange transactions made between the reporting entity and a non-Federal entity).
Intragovernmental expenses relate to the source of goods and services purchased by the
reporting entity, not to the classification of related revenue.


12. Transfers To/From NRRIT

The RRB received a total of $1,298 million and $1,391 million from the NRRIT during fiscal
years 2008 and 2007, respectively. These funds were received into the RR Account. Transfers
were to fund the payment of benefits.


13. Undelivered Orders at the End of the Period

                                             2008          2007

     Undelivered Orders                     $6,225,572    $7,988,215




                                                 - 73 -
       14. 	Explanation of Material Differences Between the Combined Statement of Budgetary

            Resources and the Budget of the United States Government


       A reconciliation was completed of budgetary resources, obligations incurred, distributed 

       offsetting receipts, and outlays, as presented in the Restated Statement of Budgetary 

       Resources for the year ended September 30, 2007, to amounts included in the Budget of the 

       United States Government. A reconciliation was not performed for the period ended 

       September 30, 2008, since the RRB’s Performance and Accountability Report is published in 

       November 2008, and OMB’s MAX system will not have actual budget data available until 

       mid-December 2008. 


       The Budget of the United States Government and the RRB’s Statement of Budgetary 

       Resources differ because of the following transaction types: 



                                                                     Fiscal Year 2007 (in millions)
                                                                                        Distributed
                                                    Budgetary     Obligations            Offsetting
                                                    Resources      Incurred              Receipts        Net Outlays

1. 	  Restated Combined Statement of Budgetary
        Resources – September 30, 2007                 $10,805        $10,794                 $4,034           $6,585
2. 	  Expenditure Transfers from Trust Funds due
        to Restatement                                    (111)           (111)
3. 	  Unobligated Balance, Brought Forward
        October 1, 2006                                    (12)
4. 	  Recoveries of Prior Year Unpaid Obligations           (1)
5. 	  Sickness Insurance Benefit Recoveries                (24)
6. 	  Administrative Expense Reimbursement                  (9)
7. 	  Cancelled Authority                                    4
8. 	  Interfund Transfers: Federal Payment
        Obligations – Income Taxes Collected
        on Benefits (0113)                                (460)
9. 	  Intrafund Transfers: Receipts from the
      Old-Age and Survivors Insurance (OASI)
      Trust Fund                                        (3,575)
10. 	 Intrafund Transfers: Receipts from the
      Disability Insurance (DI) Trust Fund                (445)

                  Financial Interchange

11. 	 Accrued Receipts from the OASI and DI
      Trust Funds                                                                                 (48)             48
12. 	 RRB Transfers to the Federal Hospital
      Insurance Trust Fund                                                                       494             (494)

                         NRRIT

13. 	   NRRIT Obligations / Outlays                      1,446           1,446                                  1,446
14. 	   Intrafund Transfers: NRRIT Transfer to
          RRA                                           (1,391)                                1,391           (1,391)
15. 	   Proprietary Receipts: NRRIT – Gains and
          Losses                                        (4,248)                                4,248           (4,248)
16. 	   Proprietary Receipts: NRRIT – Interest
          and Dividends                                   (462)                                  462             (462)
17. 	   Rounding                                                             (1)                                   (1)
18. 	   Budget of the United States Government
        FY 2007 Actuals                                 $1,517        $12,128                $10,581           $1,483




                                                         - 74 -
15. Social Insurance

•	 Actuarial Surplus or (Deficiency) represents combined values for the RR Account,
   SSEB Account, and NRRIT.

•	 Estimated future income (excluding interest) includes tier 1 taxes, tier 2 taxes, income taxes
   on benefits, financial interchange income, advances from general revenues, and
   repayments of advances from general revenues.

•	 Estimated future expenditures include benefit and administrative costs.

•	 A closed group estimate of the future excess of income over expenditures using the
   projected tax rates under employment assumption II may be obtained by subtracting future
   expenditures for current participants from future income for current participants.

•	 Detail may not add to totals due to rounding. Employee and beneficiary status are
   determined as of 1/1/2007, whereas present values are as of 1/1/2008.

•	 The figures in the Statement of Social Insurance, formerly rounded to millions of dollars,
   have been rounded to tenths of billions. The practice of displaying the figures in the
   Statement of Social Insurance in millions of dollars implies a degree of accuracy that
   75-year projections do not possess.

   Fund Balance

The fund balance appears on the face of the statement because the size of the balance directly
affects projected future cash flows. Lower fund balances lead to higher future tier 2 tax rates
and consequently higher tax income, while higher fund balances lead to lower tier 2 tax rates
and lower tax income.

The tier 2 tax rate is based on the Average Account Benefits Ratio (AABR). At the end of each
fiscal year (September 30), an Account Benefits Ratio (ABR) is calculated by dividing the fair
market value of the assets in the RR Account and the NRRIT (and for years before 2002, the
SSEB Account) as of the close of such fiscal year by the total benefits and administrative
expenses paid from the RR Account and the NRRIT during such fiscal year. The AABR, with
respect to any calendar year, is then calculated as the average of the account benefits ratios for
the 10 most recent fiscal years ending before such calendar year.

The January 1, 2007, fund balance does not include less than $0.1 billion of accrued interest
and dividends and miscellaneous adjustments related primarily to operating expenses of the
NRRIT. The January 1, 2006, fund balance was not reduced for certain payables of the NRRIT,
which were estimated to be less than $1 billion.

Prior to 2006, certain accrual adjustments were included in the fund balances. In 2006, they
were excluded to promote clarity and to be consistent with the account benefit ratio calculation,
wherein the asset values do not include these accrual adjustments. If the accrual adjustments
had been made as in prior years, the 1/1/2006 fund balance would have been $0.4 billion
higher.




                                              - 75 -
As stated earlier, a higher fund balance results in lower tax rates and consequently lower future
tax income and a lower balance results in higher rates and income. This self-adjusting tax rate
mechanism mitigates the effects of changes in the fund balance on the program’s net actuarial
position.

Subsequent to January 1, 2008, the effective date of the Statement of Social Insurance, market
fluctuations resulted in a significant reduction in the value of the fund balance, which directly
affects projected future cash flows. Based on the decrease in asset value through
September 30, 2008, the combined balance of the NRRIT, RR Account, and SSEB Account is
still not expected to become negative over the 75-year projection period under the current
financing structure, because automatic changes in the tier 2 tax rate help to keep the system in
actuarial balance. However, future levels of railroad employment and investment return will
determine whether corrective action may be necessary in the future.


16. Significant Assumptions

The estimates used in the Statement of Social Insurance and Required Supplementary 

Information are based on the assumption that the program will continue as presently 

constructed. The calculations assume that all future transfers required by current law under the 

financial interchange will be made. 


The estimates are also based on various economic, employment, and other actuarial 

assumptions. The ultimate economic assumptions are a 7.5 percent interest rate, a 3 percent 

annual increase in the cost of living, and a 4 percent annual wage increase. 


The employment assumption for the Statement of Social Insurance is employment 

assumption II, the intermediate employment assumption, as used in the 2008 Section 502 

Report. Under employment assumption II, starting with an average 2007 employment of 

236,000, (1) railroad passenger employment is assumed to remain level at 43,000, and (2) the 

employment base, excluding passenger employment, is assumed to decline at a constant 

annual rate of 2.5 percent for 25 years, at a reducing rate over the next 25 years, and remain 

level thereafter. 


Actuarial assumptions are those published in the Technical Supplement to the “Twenty-Third 

Actuarial Valuation of the Assets and Liabilities Under the Railroad Retirement Acts as of 

December 31, 2004.” This may be found on the RRB’s website, www.rrb.gov. 

Actuarial assumptions published in the Twenty-Third Actuarial Valuation include: 


Table S-1.     2004 RRB Annuitants Mortality Table
Table S-2.     2004 RRB Disabled Mortality Table for Annuitants with Disability Freeze
Table S-3.     2004 RRB Disabled Mortality Table for Annuitants without Disability
               Freeze
Table S-4.     1994 RRB Active Service Mortality Table
Table S-5.     2004 RRB Spouse Total Termination Table
Table S-6.     Probability of a retired employee having a spouse eligible for railroad
               retirement benefits
Table S-7.     1995 RRB Mortality Table for Widows
Table S-8.     1997 RRB Remarriage Table
Table S-9.     2004 RRB Total Termination Table for Disabled Children
Table S-10.    Calendar year rates of immediate age retirement


                                              - 76 -
Table S-11.   Rates of immediate disability retirement and of eligibility for disability
              freeze
Table S-12. 	 Calendar year rates of final withdrawal
Table S-13. 	 Service months and salary scales
Table S-14. 	 Family characteristics of railroad employees assumed for the valuation of
              survivor benefits




                                             - 77 -
      Note 17 Earmarked Funds
                                                             8010                8011                8051.001                0113                 8237               80 51.002             8018                                 Total
                                                             SSEB                RRA                    RUIA           Federal Payments      limitation on              RUIA          limitation o n     Elimination s        Earmarked
                                                                                                 Ben efit Payments      to RR Accounts       Admin istration     Ad m in Expenses          OIG                                  Funds
      Balance She et as of September 30, 2008

      Assets

      Fund Balance with Treasury                             $10,067,681          $8,210,18 7          $4,960 ,920             $504, 92 1         $9,898,615            $298,067          $1,032,492                              $34 ,972,883
      Investme nts                                           782,456 ,367        624 ,855,27 1                                                                                                                                 1,407,3 11,638
      NRRIT Net Invested Asse ts                                              25,320,737 ,474                                                                                                                                 25,320,737 ,474
      Taxes an d Interest Rece ivable                      3,936 ,500,000         29,510 ,605         103,335 ,214                                 3,868,978           10 ,128,996              1,409        (3,893,173)       4 ,079,452,029
      Othe r Asse ts                                                                                                                               1,419,844                                  143,468                               1,563,312

                   Tota l Assets                           4,729 ,024,048     25 ,983,31 3,537        108,296,134               504 ,921          15,187,437          10,427,063            1,177,369        (3,893,173)      30,844,037,336

      Liabilibes Due and Payable                           4,172,225,078         37 1,939,988            8,432 ,372                                   77 1,682            407,91 8             26,534         (3,893,173)      4,549,910,399
      Other Liabili bes                                      100,000 ,000             549 ,522                                                    10 ,910,6 16                                696,04 4                           112,156, 182

      Total Liab ilities                                   4,272 ,225,078        372,489 ,510            8,432,372                                11,682 ,298             407 ,918            722 ,578        (3,893 ,173)     4,662,066,581

      Unexpen ded Appropriatio ns                                                                                               504 ,92 1                                                                                            504 ,921
      Cumulative Results of Operati on s                     456 ,798 ,970    25,610,824,027           99,863,762                                  3,505,139           10 ,0 19,145           454 ,791                        26,181,465 ,834

                   Total Liabiliti es and Net Posi tion   $4,729 ,024,048    $25 ,983,313,537        $108 ,296 ,134            $504 ,921         $15,18 7,437        $10,427,063           $1,177,369       ($3,893 ,173)    $30 ,844,037,336



      St atement o f Net Cost for th e Period
      Ended S epte mb er 30, 2008
-.)
00    Gross Prog ram Costs                                $6,124,100,298      $4,038 ,150 ,045       $ 104,112,7 19        $359,0 73 ,113      $12 1,394,045                               $7,582,838     ($359 ,509,575 )   $ 10,394 ,903,483
      Less Eamed Reve nues                                                            491,03 7          24,054,840                                9,210 ,607                                  400,000           (438, 377)         33,7 18,107

      Net Program Costs                                   $6 ,124,100,298     $4,037,659,008          $80 ,057 ,879        $359,073,113        $11 2,183,438                               $7,182,838     ($359 ,071,198)    $10,361, 185,376

      Costs Not Attrib utable to Program Costs
      Less Eam ed Reve nues Not
                Attributa ble to Prog ram Costs                                                                                                      289 ,816                                     215                                 290,031

      Net Cost of Operati ons                             $6,124 ,100,298     $4,037 ,659,008         $80,057 ,879         $359 ,073 ,113      $111,893 ,622                               $7,182,623     ($359 ,071,198)    $10 ,360,895,345



      Statement of Changes in Net Pos ition
      for the Per iod Ended September 30, 2008

      Net Positio n Begi nning of Period                   $450 ,419 ,400    $32 ,954,170 ,376       $100,685,579              $495 ,477          $6,182,923           $9,084,314            $231 ,590                       533,521,269,659

      Approp riatio ns Recei ved                                                                                            359 ,150,000                                                                                         359 ,150,000
      Expended App rop riations                                                                                             359 ,073 ,113                                                                                        359 ,073, 113
      Other Adjustments                                                                                                          (67,443 )                                                                                            (67, 443 )
      Appropria tions Used                                                                                                 (359 ,073 ,113)                                                                                      (359 ,073 ,113)

      Taxes and Non -Exchange Revenue                      2,675 ,562 ,851     2,650,226,884            72,074,657                                                     23,832,959                          (359,07 1,198)       5,062,626, 153
      Other Fina ncin g So urces                           3,454 ,917,0 17        85,942,301             7,161,40 5                              109,215,838          (22,898,128)          7,405,824                           3,641 ,744,257
      Transfers In From NRRIT                                                  1,298,000,000                                                                                                                                    1,298,000 ,000
      Change in NRR IT Assets                                                 (7,339,856,526)                                                                                                                                  (7,339 ,856, 526)

      Net Cos t of Ope rations                            (6,124,100,298)     (4,037,65 9,008)         (80,057 ,879)       (359,07 3, 113)      (111,893,622 )                             (7,182,623)      359 ,071,198     (10,360 ,895,345)

      Change in Net Posi tion                                  6,379,5 70     (7,343 ,346,349)            (821,817)                9,444          (2,677 ,784)            934,831             223,201                          (7,339,298,904)

      Net Pos ition End of Period                           $456 ,798,970    $25 ,610,824,027         $99 ,863,762             $504 ,921          $3,505 ,139         $10,019 ,145           $454,791                        $26 ,181,970, 755
       Note 17 Earmarked Fun ds
                                                            8010                8011              8051.001                 0113               8237                8051.002              8018                                 Tota l
                                                            SSEB                RRA                  RUIA            Federal Payments     limitation on              RUIA           Limitation on      Eliminations        Earmarked
                                                                                               Benefit Paym ents      to RR Accounts      Administration       Adm in Exp enses          OIG                                 Funds
       Balance Sh eet as of Sept emb er 30, 2007

       Assets

       Fund Balan ce with Treasury                         $19,537,468          $20,647 ,722         $6,527,507              $495,477         $6,960,401               $97,612            $769,5 15                          $55,035,702
       Investments                                         726,234,578          597,361,803                                                                                                                                1,323,596 ,381
       NRRIT Net Invested Assets                                             32,660,594,000                                                                                                                               32,660,594,000
       Taxes and Interest Receivable                      3,801,800,0 00         29,432 ,764        102,369 ,26 1                               8,992 ,777           9,921 ,139              1,408         (8,994,925)     3,943,522,424
       Other Asse ts                                                                                                                            1,392,290                                  110,196                             1,502,486

                    Total Assets                          4,547,572 ,046     33,308,036,289         108,896,768               495,477         17,345,468            10,018,751             881, 119        (8,994,925)    37,984,250,993

       Liabilities Due and Payable                        3,997,152,646         353,420 ,218          8,211,189                                 1,073,995              934,437              26,376         (8,994,925)      4,35 1,823,936
       Other Liabilities                                    100,000,000             445,695                                                    10,088,550                                  623,153                            111,157,398

       Total liabilities                                  4,097,152,646         353,865 ,913          8,211 ,189                              11,162,545               934,437             649,529         (8,994,925)      4,462,981 ,334

       Unexpended Appropriations                                                                                              495,477                                                                                             495,477
       Cumulative Results of Operations                     450,419,400      32,954 ,170,376        100,685,579                                 6,182,923            9,084,314             231,590                         33,520,774,18 2

                    Total Liabilities and Net Position   $4,547,572 ,046    $33,308,036 ,289       $108,896,768              $495,477        $17,345 ,468          $10,018,751            $881,119        ($8,994,925)    $37,984 ,250,993



       Statement of Net Cos t for the Period
       Ended September 30, 2007
--.)
\0
       Gross Program Costs                               $5,881,443 ,284     $4,034,91 9,838        $99,414,48 7         $460,089,400       $119,546,625                                $7,318,181      ($460,524,38 8)   $10,142,207,427
       Less Earned Revenues                                                         520,578          24,854 ,898                               8,453,361                                                     (437,44 8)        33 ,391.389

       Net Program Costs                                 $5,88 1,443,284     $4,034,399,260         $74,559,589          $460,089,4 00      $111,093 ,264                               $7,318,18 1     ($460 ,086,940)   $10,108,816,038

       Costs Not Attributable to Program Costs
       Less Earned Revenues Not
            Attributable to Program Costs                                                                                                         241,770                                                                         241 ,770

       Net Cost of Operations                            $5,881,443,284      $4,034 ,399,260        $74,559,589          $460 ,089,400      $110,851,494                                $7,318 ,181     ($460,086 ,940)   $10,108,574,268



       Statement of Changes In Net Pos itio n
       for the Period Ended September 30, 2007

       Net Position Beginning of Period                   $321,059,509      $29,443 ,814,247        $97,261,348              $434,877          $5,587,732           $9,420,743             $36,883                        $29,877,6 15,339

       Appropriation s Received                                                                                           460,150,000                                                                                         460,150,000
       Expended Appropriations                                                                                            460,089,4 00                                                                                        460,089,400
       Appropriat ions Used                                                                                              (460,089,400)                                                                                       (460 ,089,400 )

       Taxes and Non-Exchange Revenue                     2,650,328,563       2,746,73 4,584         70,62 1,637                                                     23,193 ,993                         (460,086 ,940)     5,030,791,837
       Othe r Financing Sources                           3,360,47 4,612        119,178,8 05          7,362 ,183                             111,446,685            (23,530,422)          7,512 ,888                        3,582,444 ,751
       Transfers In From NRRIT                                                1,39 1,000,000                                                                                                                                1,39 1,000,000
       Change in NRRIT Assets                                                 3,287,842,000                                                                                                                                 3,287,842 ,000

       Net Cost of Operations                            (5,881,443,284 )    (4,034,399,260)         (74 ,559,589)       (460 ,089,400)      (1 10,851,494 )                             (7,318,181)      460,086,940     (10,108,574 ,268)

       Change in Net Position                               129,359,891       3,510,356 ,129           3,424,231               60,600             595,191              (336 ,429)           194,707                         3,643,654,320

       Net Position End of Penod                          $450,419,400      $32,954,170 ,376       $100,685,579              $495,477          $6,182,923            $9,084,314           $231,590                        $33,521,269 ,659
18. Apportionment Categories of Obligations Incurred: Direct vs. Reimbursable Obligations

All RRB direct and reimbursable obligations are incurred against Category B apportionments.
There are no RRB direct or reimbursable obligations incurred against Categories A or Exempt
apportionments.

The amounts of Category B direct and reimbursable obligations are reported on the face of the
Statement of Budgetary Resources for fiscal years 2007 and 2008.

This disclosure agrees with the aggregate of RRB direct and reimbursable obligations as
reported on the RRB’s fiscal year 2008 year-end SF-133, Report on Budget Execution and
Budgetary Resources, and lines 8A and 8B in the Statement of Budgetary Resources.


19. Change in Statement of Budgetary Resources Presentation

In fiscal year 2008, changes in the RRB’s approved apportionment caused corresponding
changes in reporting on the Statement of Budgetary Resources. The RRB borrowing authority
from the U.S. Treasury related to the financial interchange is reported as borrowing authority on
the Statement of Budgetary Resources whereas in fiscal year 2007, this borrowing authority
was reported as nonexpenditure transfers. In addition, the method of transferring funds
between the parent and limitation trust funds was changed from nonexpenditure to expenditure
transfers.


20. Subsequent Events

Notes from the audited financial statements of the NRRIT as of and for the fiscal year ended
September 30, 2008, contain information on subsequent events with respect to investment
valuation and securities lending. Excerpts from the NRRIT notes are presented below:

   •	 “The ability of issuers of the debt securities held by the Trust to meet their obligations
      may be affected by economic developments in a specific industry or region. The values
      of the securities can be significantly affected by changes in interest rates or in the
      financial condition of the issuer or market conditions generally. The Trust invests a
      portion of its assets in mortgage-backed securities and debentures. The value and
      related income of these securities is sensitive to change in economic conditions,
      including delinquencies and/or defaults. Recent instability in the markets for
      fixed-income securities, particularly mortgage-backed securities, has resulted in
      increased volatility of market prices and periods of illiquidity have adversely impacted the
      valuation of certain securities held by the Trust. The values of such investments are
      reported in the accompanying financial statements at their fair value determined based
      upon the market conditions as of September 30, 2008. Due to continued market
      instability since year end, the fair values of such investments have decreased from the
      amounts reported in the accompanying financial statements.”

   •	 “The Trust engages in a securities lending program with its custodian, as lending agent,
      to enhance the return on its investments.”

       “The current market conditions have led to the Trust’s custodian placing liquidity
       restrictions on the immediate withdrawal of investment in the securities lending collateral
       pool. Subsequent to the Trust’s fiscal year end, the Trust began a staged withdrawal
       program to take place over a period of approximately 12 months to terminate
       participation in its custodian’s securities lending program.”

                                              - 80 -
Note 21 Reconciliatio n of Net Cost of Operations to Budget
Fo r t he Ye ars Ended September 30, 2008 and 2007
(in d oll ars)                                                                                           RESTATED
                                                                                       2008                2007
Resources Us ed to Finan c e A ctivi ties :
BUdgetary Res o urces Obligate d
 Obligations Incurred                                                            $ 10,934,363,444      $ 10,794,135,687
 Less : Spend ing Autho rity from Offs etting Collections and Recoveries             (143 ,310 ,277)       (144,4 86,365)
 Obligations Net of Offsetting Co llectio ns and Recoveries                        10,79 1,053,1 67      10,649 ,649 ,322
 Less: Offsetting Receipts                                                         (3,992 ,185,000)      (4,033,541,000)
 Net Obligations                                                                    6,798 ,868 ,167       6,616,108,322

Other Resources
 Imputed Financing from Costs Abso rbed by Others                                      8,559 ,257            8,904,879
 Other                                                                            (7,339 ,856,526)       3,287,840,872
 Net Other Resources Used to Finance Activities                                   (7,331 ,297 ,269)      3,296,745,751

 Total Resource s Used to Finance Activities                                        (532,429 ,102)       9,912 ,854 ,073

Resou rc es Used to Finance Items Not Part of the Net Cost of Operations:
 Change in Budgetary Resources Obligated for Goods,
  Serv ices & Benefits Ordered but not yet Provided                                     1,791,158              (15 1,398)
 BUdgetary Offsetting Co llections & Receipts That Do Not Affe ct Net
  Cost of Operations
                                                                 (3,8 83,265)          (3,623,700 )
 Resources Tha t Finance the Acqu isition of Assets
                               7,339,400, 228       (3,288 ,358 ,958)
 Other Resources or Adjustments to Net Obligated Resou rces

  That Do Not Affect Net Cost of Operations                                        3,6 33, 185,000       3,57 3,541 ,000

 Total Resources Used to Finance Items Not Part of the Net Cost of Operations     10,970,493,121           281,406 ,944

 Total Resources Used to Finance the Net Cost of Operation s                      10,438 ,064 ,019      10,194 ,261 ,017

Components of the Net Cost of Operations That Will Not Require or

Generate Resources in the Current Period :

Components Requ iring or Generating Resources in Future Periods :

 Increase in Annu al Leave Liabi lity
                                                    132,007              193,310
 Other
                                                                                   197,054              309 ,116
 Tota l Compon ents of Net Cost of Operations That Will Requir e or Gene rate

   Resources in Futu re Periods                                                           329 ,061             502,426

Components Not Requiring or Generating Resources :
 Depreciation and Amo rtization                                                           153, 520             296 ,214
 Revaluation of Assets or Liabil ities                                                           0               1,128
 Othe r                                                                                     6,36 1                    0
 Total Components of Net Cos t of Operations That Will Not Require
  or Generate Resources                                                                   159 ,881             297 ,342

 Total Components of Net Cost of Operations That Will Not Require or

  Generate Reso urces in the Curr ent Period
                                             488 ,942             799 ,768

Net Cost of Operations                                                           $10 ,438 ,552 ,961    $10,195,060,785




                                                               - 81 ­
22. Restatements

The FY 2007 Statement of Budgetary Resources (SBR) was restated for the following reasons:
1) to change advances against the Financial Interchange from nonexpenditure transfers to
borrowing authority; and 2) to change transfers from the trust funds to the limitation accounts by
using expenditure transfers instead of nonexpenditure transfers. Both of these changes were at
the direction of the Office of Management and Budget. The effects of the material changes on
the restated SBR are: 1) Borrowing authority went from $0 to $3,232,600,000; 2) Expenditure
transfers went from $0 to $110,866,564; 3) Nonexpenditure transfers went from a credit of
$7,693,059 to a credit of $13,266; 4) Funds permanently not available went from a credit of
$3,850,011 to a credit of $3,244,129,804; 5) Obligations incurred–direct went from
$10,674,573,992 to $10,785,440,556; 6) Gross outlays went from $10,650,634,370 to
$10,755,707,056; 7) Change in uncollected customer payments from Federal sources went from
a credit of $19 to a credit of $5,793,897; 8) Unpaid obligations went from $904,825,510 to
$910,619,388; 9) Uncollected customer payments from Federal sources went from a credit of
$776 to a credit of $5,794,654; and, 10) Offsetting collections went from a credit of $32,122,746
to a credit of $137,195,432.

In addition, SBR changes affected the RRB’s FY 2007 Reconciliation of Net Cost of Operations
to Budget (see Note 21) as follows: 1) obligations incurred increased from $10,683,269,123 to
$10,794,135,687; and 2) spending authority from offsetting collections and recoveries increased
from $33,619,801 to $144,486,365.

These changes had no effect on the cumulative results of operations. The effect was limited to
the Statement of Budgetary Resources and the Reconciliation of Net Cost of Operations to
Budget. Since the changes were not known until 90 days prior to the publication of the RRB’s
FY 2008 Performance and Accountability Report, notification to primary users of the FY 2007
financial statements was not required.


23. Terms of Borrowing Authority Used

The Railroad Retirement Solvency Act of 1983 provided for monthly advances of the Financial
Interchange (FI) from Treasury to be repaid when the FI is settled each June. Prior to 2008,
these advances were reported as nonexpenditure transfers, but are now reported as borrowing
authority. Section 7(c)(4) of the RRA provides the rules for repayment of the FI advances and
references Section 7(c)(3) for the interest rate to be used. The interest rate on the repayment of
the advances is the same as that used in the actual FI determination from the close of the prior
fiscal year until the date of transfer.


24. Legal Arrangements Affecting Use of Unobligated Balances

The portion of RRB trust fund receipts collected in the current fiscal year that exceed the
amount needed to pay benefits or other valid obligations remain in the RRB trust funds as
unobligated balances. These receipts can become available in the current year if needed for
valid obligations. RRB receipts are assets of the trust fund and available for obligation as
needed in the future.




                                              - 82 -
                                          UNAUDITED                                                    


Required Supplementary Information

Social Insurance

   Program Financing

Payroll taxes paid by railroad employers and their employees are the primary source of funding
for the railroad retirement-survivor benefit programs. Railroad retirement taxes, which have
historically been higher than social security taxes, are calculated, like benefit payments, on a
two-tier basis. Railroad retirement tier 1 payroll taxes are coordinated with social security taxes
so that employees and employers pay tier 1 taxes at the same rate as social security taxes. In
addition, both employees and employers pay tier 2 taxes that are used to finance railroad
retirement benefit payments over and above social security levels. The tier 2 tax rate is based
on the ratio of certain asset balances to the sum of benefit payments and administrative
expenses.

Revenues in excess of benefit payments are invested to provide additional trust fund income.
The NRRIT oversees most investments, including all investments in non-governmental assets.

Additional trust fund income is derived from the financial interchange (FI) with the social security
trust funds, revenues from Federal income taxes on railroad retirement benefits, and
appropriations from general treasury revenues provided after 1974 as part of a phase-out of
certain vested dual benefits.

The financial interchange between the railroad retirement and social security systems is
intended to put the Social Security Administration (SSA) Federal Old-Age, Survivors, and
Disability Insurance (FOASI/DI) trust funds and the Centers for Medicare & Medicaid Services
(CMS) Federal Hospital Insurance (FHI) trust fund in the same position they would have been
had railroad employment been covered under the Social Security and Federal Insurance
Contributions Acts. It follows that all computations under the FI are performed according to
social security law. The amount of benefits payable under the RRA has no effect on the results.

Placing the social security trust funds in the same position they would have been had railroad
employment been covered under social security since its inception involves computing the
amount of social security payroll and income taxes relating to railroad employment and
computing the amount of additional benefits which social security would have paid to railroad
retirement beneficiaries during the same fiscal year. In the computation of the latter amount,
credit is given for any social security benefits actually paid to railroad retirement beneficiaries.
When benefit reimbursements exceed payroll and income taxes, the difference, with an
allowance for interest and administrative expenses, is transferred from the social security trust
funds to the SSEB Account. If taxes exceed benefit reimbursements, a transfer would be made
in favor of the social security trust funds.

On a present value basis, funds provided through the FI are expected to equal $77.0 billion, or
43.0 percent of the estimated future income of $179.1 billion.




                                               - 83 -
                                                  UNAUDITED                                                           


    Benefits

Full age annuities are payable at age 60 to workers with 30 years of service. For those with
less than 30 years of service, reduced annuities are payable at age 62 and unreduced annuities
are payable at full retirement age, which is gradually rising from 65 to 67, depending on year of
birth. Disability annuities can be paid on the basis of total or occupational disability. Annuities
are also payable to spouses and divorced spouses of retired workers and to widow(er)s,
surviving divorced spouses, remarried widow(er)s, children, and parents of deceased railroad
workers. Qualified railroad retirement beneficiaries are covered by Medicare in the same way
as social security beneficiaries.

Jurisdiction over the payment of retirement and survivor benefits is shared by the RRB and
SSA. The RRB has jurisdiction over the payment of retirement benefits if the employee had at
least 10 years of railroad service, or 5 years if performed after 1995; for survivor benefits, there
is an additional requirement that the employee’s last regular employment before retirement or
death was in the railroad industry. If a railroad employee or his or her survivors do not qualify
for railroad retirement benefits, the RRB transfers the employee’s railroad retirement credits to
SSA, where they are treated as social security credits.

    Program Finances and Sustainability

The RRB must submit to the President and the Congress a report on the actuarial status of the
railroad retirement system. Projections are made of the various components of income and
outgo under three employment assumptions.

The Statement of Social Insurance presents an actuarial analysis of the financial position of the
railroad retirement system as of January 1, 2008. The figures in the table are based on the
2008 Section 502 Report extended through calendar year 2082. The present values in the table
are based on estimates of income and expenditures through the year 2082. The estimates
include income and expenditures related to future participants as well as to former and present
railroad employees. The present values are computed on the basis of economic and
demographic assumptions and employment assumption II, the intermediate employment
assumption, as used in the 2008 Section 502 Report. Under employment assumption II,
starting with an average 2007 employment of 236,000, (1) railroad passenger employment is
assumed to remain level at 43,000, and (2) the employment base, excluding passenger
employment, is assumed to decline at a constant annual rate of 2.5 percent for 25 years, at a
reducing rate over the next 25 years, and remain level thereafter.

Actuarial Estimates: Actuarial estimates of the long-range financial condition of the railroad
retirement program are presented here. Throughout this section, the following terms will
generally be used as indicated:

    •	 Income: sources of income are payroll taxes, income taxes, interest income, and 

       financial interchange transfers. 


    •	 Income excluding interest a : income, as defined above, excluding the interest income
       from assets of the trust fund.


a
  References to interest income in this section may be considered as referring to total investment income including
dividends and capital gains.


                                                       - 84 -
                                         UNAUDITED                                                


   •	 Expenditures: benefit payments and administrative expenses.

   •	 Cashflow: either(1) income excluding interest or (2) expenditures, depending on the
      context, expressed in nominal dollars.

   •	 Net Cashflow: income excluding interest less expenditures, expressed in nominal
      dollars.

The Statement of Social Insurance and the required supplementary information below are
based on actuarial and economic assumptions used in the 2008 Section 502 Report extended
through calendar year 2082, the RRA, and the Railroad Retirement Tax Act. This information
includes:

   (1) actuarial present values of future estimated expenditures for and estimated income from,
       or on behalf of, current and future program participants;

   (2) estimated annual income excluding interest and expenditures in nominal dollars and as
       a percentage of taxable payroll;

   (3) the ratio of estimated annuitants to estimated full-time employees, showing the 

       relationship between the program’s benefit recipients and taxpayers; and 


   (4) an analysis of the sensitivity of the projections to changes in selected assumptions,
       which is included in recognition of the inherent uncertainty of those assumptions.

Estimates are generally based on a 75-year projection period. Estimates extending far into the
future are inherently uncertain, with uncertainty greater for the more distant years.




                                             - 85 -
                                                                                UNAUDITED


                                                                      Chart 1: Estimated Income and Expenditures


               $80



               $70

                                   Expenditures
               $60                 Income Excluding Interest
                                   Income

               $50
  (billions)




               $40



               $30



               $20



               $10



                $0
                     2008   2013       2018          2023      2028     2033     2038    2043     2048    2053     2058   2063   2068   2073   2078




Cashflow Projections – Chart 1 shows actuarial estimates of railroad retirement annual income,
income excluding interest, and expenditures for 2008-2082 in nominal dollars. The estimates
are for the open-group population, which includes all persons projected to participate in the
railroad retirement program as railroad workers or beneficiaries during the period. Thus, the
estimates include payments from, and on behalf of, those who will be employed by the railroads
during the period as well as those already employed at the beginning of the period. They also
include expenditures made to, and on behalf of, such workers during that period.

As Chart 1 shows, annual expenditures exceed annual income in 2014 and again in 2016-2018
and 2021. By 2022, income is once again greater than expenditures. This remains true
throughout the remainder of the projection period. Without investment income, however, annual
expenditures are always greater than annual income. Reasons for this pattern include
participant demographics, the assumed drop in railroad employment, and the automatic tier 2
tax rate adjustment mechanism. The combined balance of the NRRIT, RR Account, and
SSEB Account never becomes negative largely because (i) a sufficient balance exists at the
beginning of the projection period and (ii) tier 2 tax rates respond automatically to changing
account balances.

Percentage of Taxable Payroll – Chart 2 shows estimated annual income excluding interest and
expenditures for the railroad retirement program expressed as percentages of taxable payroll.
Expenditures as a percentage of payroll increase through 2019 primarily due to the anticipated
retirement of a large percentage of the current workforce combined with the projected decline in
railroad employment. Except for the income from tier 1 payroll taxes, the sources of income
vary as a percentage of payroll.




                                                                                        - 86 -
                                                                 UNAUDITED


                 Chart 2: Estimated Railroad Retirement Income Excluding Interest and Expenditures as a Percent of Taxable Tier 2

                                                                    Payroll



  90%


  80%


  70%


  60%


  50%


  40%


  30%


  20%

                       Expenditures

  10%
                 Income Excluding Interest


  0%
         2008   2013      2018           2023      2028   2033   2038    2043    2048    2053     2058     2063      2068     2073   2078




Sensitivity Analysis – The projections of the future financial status of the railroad retirement
program depend on many economic and demographic assumptions including rail employment,
inflation, wage increase, investment return, age retirement, disability retirement, withdrawal,
active service mortality, beneficiary mortality, total termination, probability of spouse,
remarriage, family composition, disability freeze, service patterns, and salary scales. Because
perfect long-range projections are impossible, this section is included to illustrate the sensitivity
of the long-range projections to changes in certain key assumptions that have the greatest
impact on the results. All present values are calculated as of January 1, 2008, and are based
on estimates of income and expenditures during the projection period 2008-2082.

Employment: Average employment in the railroad industry has generally been in decline for
some years. This decline is expected to continue. Since employment is a key consideration,
projections of income and expenditures using three different employment assumptions have
been made. The Statement of Social Insurance uses employment assumption II, the
intermediate assumption, but this section compares results under the three assumptions. For
all three cases, the average employment for the year 2007 is equal to 236,000. Employment
assumptions I and II, based on a model developed by the Association of American Railroads,
assume that (1) passenger employment will remain at the level of 43,000, and (2) the
employment base, excluding passenger employment, will decline at a constant annual rate
(1.0 percent for assumption I and 2.5 percent for assumption II) for 25 years, at a reducing rate
over the next 25 years, and remain level thereafter. Employment assumption III differs from
employment assumptions I and II by assuming that (1) passenger employment will decline by
500 per year until a level of 35,000 is reached and then remain level, and (2) the employment
base, excluding passenger employment, will decline at a constant annual rate of 4.0 percent for
25 years, at a reducing rate over the next 25 years, and remain level thereafter. Employment
assumptions I, II, and III are intended to provide an optimistic, moderate, and pessimistic
outlook, respectively.

Under all three employment assumptions, no cashflow problems occur throughout the entire
period. Table 1 shows the excess of assets and the present value of income over the present
value of expenditures for the three employment assumptions.




                                                                        - 87 -
                                                                                 UNAUDITED                                                                   




                                       Table 1
 Excess of Assets and Present Value of Income over Present Value of Expenditures for
                     Three Employment Assumptions, 2008-2082
                                     (in billions)

     Employment Assumption                                                              I                    II                   III

     Present Value                                                               $1.2                       $0.9             $0.7

     Average Tier 2 tax ratea                                                    13.3%                      15.0%            17.3%


 a
     Average combined employer/employee tier 2 tax rate is calculated by dividing the
     present value of tier 2 taxes by the present value of tier 2 payroll.




                                Chart 3a: Combined Balance of the RR Account, NRRIT and SSEB Account under Three Employment Assumptions


                  $250




                  $200
                                       Employment Assumption I
                                       Employment Assumption II
                                       Employment Assumption III

                  $150
     (billions)




                  $100




                  $50




                   $0
                         2008   2013        2018          2023     2028   2033   2038         2043   2048    2053   2058   2063         2068   2073   2078




Chart 3a shows the combined balance of the accounts under each of the three employment
assumptions. Note that the combined account balance is positive throughout the entire period
for all three assumptions.

Chart 3b shows the tier 2 tax rate under these employment assumptions. The tax rate reaches
the minimum in 2039 under employment assumption I but then increases again slightly starting
in 2060 through 2071 before dropping back down to the minimum again in 2072. The tax rate
does not reach the minimum until 2062 under employment assumption II. Under employment
assumption III, the tax rate reaches the maximum in 2043, remaining at that level through 2058,
and then decreases until it reaches the minimum in 2075.




                                                                                            - 88 -
                                                                       UNAUDITED


                                                    Chart 3b: Tier 2 Tax Rate under Three Employment Assumptions

  30.0%




  25.0%




  20.0%




  15.0%




  10.0%

                        Employment Assumption I
                        Employment Assumption II
  5.0%                  Employment Assumption III




  0.0%
          2008   2013       2018          2023        2028     2033    2038     2043     2048    2053     2058     2063   2068   2073   2078




The tier 2 tax rate for each year is determined by the average account benefits ratio, which is
the average for the ten most recent fiscal years of the ratio of fair market value of assets in the
RR Account and NRRIT (and for years before 2002, the SSEB Account) to the total benefits and
administrative expenses paid from the RR Account and the NRRIT. Therefore, the tier 2 tax
rate will be affected by employment assumption. The tier 2 tax rate adjustment mechanism
promotes but does not guarantee solvency. The tier 1 tax rate does not vary by employment
assumption.

Interest rates: Since investments may include non-governmental assets such as equity and
debt securities as well as governmental securities, it is worthwhile to examine the effects of
future rates of investment return. In addition to the interest rate of 7.5 percent used for our
projections, we show the effect on the combined accounts of an interest rate of 4 percent and
an interest rate of 11 percent. Table 2 shows the excess of assets and the present value of
income over the present value of expenditures for the three interest rate assumptions. If the
tier 2 tax rate were fixed, the actuarial surplus would increase with increasing investment return.
However, the tier 2 tax rate adjusts to changing account balances, resulting in the highest
average tax rate under the 4 percent scenario and the lowest average tax rate under the
11 percent scenario. Under the 7.5 percent scenario, the tax rate adjustment mechanism keeps
the system in close actuarial balance. Under the 11 percent scenario, the tax rate is limited to a
minimum value, resulting in a higher surplus. Under the 4 percent scenario, the tax rate
reaches a maximum value and then remains at that value longer than is needed, resulting in the
highest actuarial surplus.

The tier 2 tax rate remains at the maximum longer than is needed largely because of the
10-year average in the Average Account Benefits Ratio, as required by law. Use of the 10-year
averaging effectively sacrifices some responsiveness for the sake of stability and smoothness.




                                                                              - 89 -
                                                                         UNAUDITED                                                                    





                                       Table 2 

 Excess of Assets and Present Value of Income over Present Value of Expenditures for 

                    Three Interest Rate Assumptions, 2008-2082

                                     (in billions)

  Interest Rate Assumption                                                      4%                 7.5%                     11%


  Present Value                                                                 $9.6               $0.9                     $4.4

  Average Tier 2 tax rate                                                   19.4%                  15.0%                    11.7%




                                Chart 4a: Combined Balance of the RR Account, NRRIT and SSEB Account under Three Interest Assumptions



               $260

               $240                 4% Interest

               $220                 7.5% Interest
                                    11% Interest
               $200

               $180

               $160
  (billions)




               $140

               $120

               $100

                $80

                $60

                $40

                $20

                 $0
                      2008   2013        2018       2023   2028   2033   2038        2043   2048   2053     2058     2063     2068      2073   2078




Chart 4a shows the combined account balance under the three interest rate assumptions for the
projection period. At a 4 percent interest rate, the account balance reaches its lowest value in
2028, although it never becomes negative. After that it continues to increase. With a
7.5 percent interest rate, the account balance increases through 2013, remains relatively level
through 2021, and increases thereafter. An 11 percent interest rate results in a combined
balance that increases throughout the projection period. Although the 4 percent scenario shows
the lowest account balance at the end of the projection period, the concurrent use of a 4 percent
discount rate results in the highest surplus on January 1, 2008.

Chart 4b shows the tier 2 tax rate under the same three interest assumptions. With a 4 percent
interest rate, the maximum tier 2 tax rate applies from 2029 until 2039. With the 7.5 percent interest
rate, the maximum tax rate will never be paid, and the minimum tax rate is paid starting in 2062.
With an 11 percent interest rate, the maximum tax rate is never applicable, and the minimum tax
rate is paid beginning in 2023. As mentioned above, the tier 2 tax rate is determined based on the
ratios of asset values to benefits and administrative expenses, so it will be affected by investment
return, but tier 1 tax rates will not.




                                                                                - 90 -
                                                                             UNAUDITED


                                                           Chart 4b: Tier 2 Tax Rate under Three Interest Assumptions

 30.0%




 25.0%




 20.0%




 15.0%




 10.0%
                       4% Interest
                       7.5% Interest
                       11% Interest
  5.0%




  0.0%
         2008     2013           2018        2023          2028     2033     2038     2043     2048     2053     2058   2063   2068   2073   2078




Ratio of Beneficiaries to Workers: Chart 5 shows the estimated number of annuitants per
full-time employee under all three employment assumptions. The average number of annuitants
per employee for employment assumption I is highest in 2016. For assumptions II and III, the
ratio is highest in 2022 and 2035, respectively. For all three employment assumptions, the
average number of annuitants per employee declines to around 1.7 by the end of the projection
period. The convergence in number of annuitants per employee at the end of the projection
period results primarily from level employment projected in the latter years under all three
employment assumptions.

                                                         Chart 5: Average Number of Annuitants per Full-Time Employee


 4.0



 3.5



 3.0



 2.5



 2.0



 1.5



 1.0                         Employment Assumption I
                             Employment Assumption II
                             Employment Assumption III
 0.5



 0.0
       2008     2013          2018         2023          2028     2033      2038     2043     2048     2053     2058    2063   2068   2073   2078




                                                                                    - 91 -
     RAILROAD RETIREME NT BO ARD
     DISAGGREGATE OF BUDGETARY RESOURCES                                                    COMBINED
        LIMITATION
     FOR THE YEAR ENDED SEPTEMBER 30, 2008                                                  RAILROAD
          ON THE
     (in doll ars)                                                    COMBINED
          UNEMPLOYMENT
         OFFICE
                                                                      RA ILROAD
          AND SICKNESS
          OF
                                                                     RETIREMENT            INSURANCE
        INSPECTOR        COMBINED
     BUDGETARY RESOURCES                                              PROGRAM               PROGR AM
         GENERA L         TOTAL S

     Unobligated balance, brought forward, October 1                     $10,427 ,196                  50        $266 ,393        $10,693,589
     Recoveries of prior year unpaid obligatio ns                            312,170                    0           3,575             315,745
     Budget authority:
      App ropriat ion                                                 10,874,330,183          208,137,674                 0    11,082,467,857
      Borrowing authority                                              3,385,800,000                    0                 0     3,385,800,000
      Spend ing authority from offsett ing collections :
        Earned :
         Collected                                                         9,807 ,332          23,857,607          400 ,215        34,065,154
         Change in receivables from Federal sources                              (776)                   0                0              (776)
       Expenditure transfers from trust funds                            101,882,466                     0       7,047 ,688       108,930,154
     Subtotal                                                         14,371,819,205          231,995,281        7,447,903     14,611,262,389
     Nonexpenditure transfers , net, anticipated and actual:                (221,378)             210,510           (2,646)           (13,514)
     Temporarily not available pursuant to Public Law                   (336,738,5 41)       (108,705,827)            (215)      (445,444,583)
     Permanently not available                                        (3,232,8 12,162)                   0                0    (3,232,812,162)
     TOTAL BUDGETARY RESOURCES                                       $10,812,786 ,490        $123,499 ,964      $7,715,010    $10,944,001,464

     STATUS OF BUDGETARY RESOURCES
     Obligations incurred:
      Direct                                                         $10,794,376,293        $123,501,480        $7,412,613    510 ,925,290,386
\0
N     Reimburs able                                                        9,073,058                   0                  0          9,073,058
     Subtotal                                                         10,803,449 ,351        123,501,480         7,41 2,613    10,934,363,444
     Unobligated balance,
      App ortioned                                                          1,434,992              (1,516)          56,248          1,489,724
     Unobligated balance not available                                      7,902,147                   0          246,149          8,148,296
     TOTAL STATUS OF BUDGETARY RESOURCES                             $10,8 12,786,490       $123,499,964        $7,715,010    $10,944,001,464

     CHANGE IN OBLIGATED BALANCES
     Obligated balance, net
      Unpaid obligations, brought forward, Octobe r 1                   $903,382,713           $6,732,144        5504,531        5910,619,388
       Uncollected customer payments from Federal sources, brought
       forward, October 1                                                 (5,794,654)                   0               0          (5,794 ,654)
     Total unpaid obligated balance , net                               $897,588,059           $6,732,144        $504,531        $904,824,734

     Obliga tions incurred, net                                      $10,803,449 ,35 1      $123,501,480        $7,412,613    $10,934,363,444
      Gross outlays                                                  (10,782,566,593)       (122,691,399)       (7,182,281)   (10,912,440 ,273)
      Recoveries of prior year unpaid obligations, actual                   (312 ,170)                 0            (3,575)          (315,745)

     Change in uncollected customer payments from Federal sources           (999,224)                   0                 0          (999,224)
     Obligated balance , net, end of period:
      Unpaid obligations                                               $918,159,423            $7,542,225        5731 ,288      5926,432 ,936
      Uncollected customer payments from Federal sources                  (1,000,000)                   0                0         (1,000,000)
     Total , unpaid obligat ed balance, net, end of per iod            $917,159,423            $7,542,225        $731,288       $925,432,936

     NET OUTLAYS
      Gross outlays                                                  510,782,566,593        $122,691,399        $7,182,281    $10,912,440,273
      Offsett ing collections                                           (110,689,798)        (23,857 ,607)      (7,447,903)      (141,995,308)
      Distributed offsetting receipts                                 (3,992,185,000)                   0                0     (3,992,185,000)

      NET OUTLAYS                                                     $6,679,691 ,795        $98,833,792         ($265,622)    $6,778,259,965
                 mUTED STATES RAILROAD RETIREMENT BOARD

                             OFFICE OF INSPECTOR GENERAL




To the Board Members:


The following report presents the results of the Office of Inspector General's (OIG)
audits of the financial statements of the Railroad Retirement Board (RRB) as of
and for the fiscal years ended September 30,2008 and 2007.

OPINION ON THE FINANCIAL STATEMENTS

We have audited the accompanying balance sheet of the RRB as of
September 30, 2008 and 2007; the related statements of net cost, changes in net
position, and budgetary resources for the years then ended; and the statements of
social insurance as of January 1, 2008, 2007, and 2006.

We did not audit the financial statements of the National Railroad Retirement
Investment Trust (NRRIT). The net assets of the NRRIT represent approximately
82% and 86% of the total assets reported by the RRB for fiscal years 2008 and
2007, respectively. NRRIT assets represent approximately 97% of the reported
railroad retirement program's social insurance fund balance as of January 1, 2008
and 2007. Related changes in the net value of investments held by the NRRIT are
reported as a source of financing which contributed a net loss of $7.3 billion during
FY 2008 and a net gain of $3.3 billion during FY 2007.

Pursuant to the Railroad Retirement and Survivors' Improvement Act of 2001, the
NRRIT retains the services of an independent auditor to opine on its financial
statements. With respect to the assets of the NRRIT as of September 30, 2008
and 2007; and January 1, 2008, 2007, and 2006, the financial statements of the
NRRIT were audited by other auditors whose reports have been furnished to us,
and our opinion, insofar as it relates to the amounts included for the NRRIT, is
based solely on the report of the other auditors.

In our opinion, the financial statements of the RRB referred to above, including the
accompanying notes, present fairly, in all material respects, in conformity with U.S.
generally accepted accounting principles, the financial position of the RRB, its
consolidated net cost of operations and changes in net position, and combined
budgetary resources as of and for the fiscal years ended September 30, 2008, and
2007; and the financial condition of the Railroad Retirement program as of
January 1,2008, 2007, and 2006.

As described in the statement and related notes, the statement of social insurance
presents the actuarial present value of the future income to be received, and
expenditures to be paid to or on behalf of participants in the Railroad Retirement


844 N RUSH STREET CHICAGO IL 60611-2092                      Printed on recycled paper with soy ink

                                          - 93 -
Auditor's Report                                                               Page 2


program during a period sufficient to illustrate the program's long-term sustainability.
In preparing the statement of social insurance, management considers and selects
assumptions and data that it believes provide a reasonable basis for the assertions
in the statement. However, because of the large number of factors that affect the
statement of social insurance and the fact that future events and circumstances
cannot be known with certainty, there will be differences between the estimates in
the statement of social insurance and the actual results, and those differences may
be material.

The RRB's statement of social insurance presents the fund balance of the
Railroad Retirement program and the related estimate of actuarial surplus which
is computed by adding the fund balance to the estimated excess (or shortfall) of
the present value of future income over the present value of future expenditures
for the 75 year projection period. These additional line items are presented to
ensure that a reader would not be misled about the financial condition of the
program. The program's current financing structure creates an inverse
relationship between income and program assets; thus, the financial condition of
the program cannot be understood without direct reference to the fund balance
and the related actuarial surplus or deficiency. This relationship is disclosed in
Note 15 to the financial statements.


Emphasis of Matters

NRRIT

Pursuant to the Railroad Retirement and Survivors' Improvement Act of 2001, the
NRRIT is authorized to invest railroad retirement assets in a diversified investment
portfolio. As of September 30, 2008, the reported value of the net assets of the
NRRIT was approximately $7.3 billion lower than reported at September 30,2007.
The RRB discusses its relationship with the NRRIT in Note 2 and Note 5 to the
financial statements, and describes the impact of changes in the social insurance
fund balance on actuarial projections in Note 15.

Financial Interchange

The RRB discloses transactions with related parties in Note 2 to the financial
statements. The RRB, Social Security Administration and Centers for Medicare
and Medicaid Services are parties to a financing arrangement described as a
financial interchange. Under this arrangement, transfers-in from the Social
Security Administration's Old-Age and Survivors Insurance and Disability
Insurance trust funds and transfers-out to the Federal Health Insurance trust fund
represent approximately $3.6 billion (net), or approximately 26% of the nearly
$13.8 billion in total financing sources reported on the RRB's statement of changes
in net position for FY 2007. For FY 2008, financial interchange transfers of $3.6




                                        - 94 -
Auditor's Report                                                                                    Page 3


billion (net) represented about 35% of the financing sources before considering the
reduction in the reported value of NRRIT assets.

Restatement

The RRB has restated the FY 2007 statement of budgetary resources to reflect
changes in accounting for (1) trust fund transfers that fund the agency's
administrative appropriations and (2) cash advances received from the U.S.
Treasury under the financial interchange. Both transactions were previously
reported as nonexpenditure transfers.

For FY 2008, The Office of Management and Budget (OMB) directed the RRB to
report the transfers funding administrative appropriations as expenditure
transfers and Treasury advances as borrowing authority for budgetary purposes.
The FY 2007 statement of budgetary resources was restated to p"ermit
comparability.

The OIG rendered an unqualified opinion on the RRB's FY 2007 financial
statements. The aforementioned restatements would not have altered that
opinion. RRB management discloses the restatement in Note 21 to the financial
statements.


REPORT ON INTERNAL CONTROL

In planning and performing our audit, we considered the RRB's internal control
                                          1
over financial reporting and compliance. We did this to determine our procedures
for auditing the financial statements and to comply with OMB audit guidance, not
to express an opinion on internal control. Accordingly, we do not express an
opinion on internal control over financial reporting and compliance or on
management's assertion on internal control included in Management's Discussion
and Analysis.

With respect to previously reported control deficiencies, our current-year
evaluation disclosed that RRB management has completed action to strengthen
controls over the social insurance fund balance. Agency efforts to correct
weaknesses in its information security program are not yet complete and the
previously reported material weakness continues to exist. We have also
concluded that the previously reported weakness in internal control over financial
reporting, previousl¥ classified as a significant deficiency, now represents a
material weakness.

1 The definition of internal control as it relates to the basic financial statements is presented in the
footnotes on page 6.
2A material weakness is a significant deficiency, or combination of significant deficiencies, that
results in more than a remote likelihood that a material misstatement of the financial statements will
not be prevented or detected. A significant deficiency is a control deficiency, or combination of
control deficiencies, that adversely affects the entity's ability to initiate, authorize, record, process or




                                                   - 95 -
Auditor's Report                                                                            Page 4



In addition evaluation of internal control during FY 2008 disclosed a significant
deficiency as a result of the lack of reconciliation of benefit payment subsystems
with the general ledger.

Although not considered to be material weaknesses or significant deficiencies,
we will report other matters involving internal control and its operation to RRB
management in a separate letter.

Material Weaknesses

Information Security

During FY 2008, the OIG evaluated information security pursuant to the provisions of
the Federal Information Security Management Act. 3 Our review disclosed continued
weaknesses in many areas of the RRB's information security program. Significant
deficiencies in program management and access controls make the agency's
information security program a source of material weakness in internal control.

RRB efforts to strengthen information security continue and progress is being
made; however, previously identified significant deficiencies in access controls, risk
assessments, and periodic testing and evaluation continue to exist. In addition,
the agency's information security program is not yet fully compliant with current
requirements for risk based policies and procedures, a certification and
accreditation program, or a comprehensive remedial action process.

Agency management is working to address the weaknesses in its information
security program. Although some progress has been made, much work remains to
be completed.

Financial Reporting

We first reported this control deficiency in the report on internal control issued with
our opinion on the RRB's FY 2006 audit of the RRB's financial statements.
Management action has not fully addressed the underlying cause and the
condition has deteriorated. Although we observed notable efforts to strengthen
internal control over financial accounting during FY 2007, we find that the RRB has
been unable to sustain that improvement during FY 2008. In addition, a quality

report financial data reliably in accordance with generally accepted accounting principles (GAAP)
such that there is more than a remote likelihood that a misstatement of the entity's financial
statements that is more than inconsequential will not be prevented or detected. A control deficiency
exists when the design or operation of a control does not allow management or employees, in the
normal course of performing their assigned functions, to prevent or detect misstatements on a timely
basis.

3 "Fiscal Year 2008 Evaluation of Information Security at the Railroad Retirement Board," GIG Report
#08-05, September 30,2008.




                                               - 96 -
Auditor's Report                                                               Page 5


assurance process implemented during FY 2007 has not proven to be fully
effective.

An effective control structure allows management and/or employees, in the normal
course of performing their assigned functions, to prevent or detect misstatements
on a timely basis.

The Bureau of Fiscal Operations (BFO) is responsible for preparing agency
financial statements and publishing the RRB's annual performance and
accountability report. During our FY 2006 audit, we observed that existing
procedures and controls over the financial reporting process needed to be updated
to fully ensure the quality of the RRB's response to the expanding responsibilities
and short timeframes inherent to the Federal financial reporting process. We also
observed that the existing control framework was overly reliant on the OIG's
annual audit of the financial statements to ensure the completeness and
accuracy of the performance and accountability report.

During FY 2007, we found the agency-reporting process much improved by the
efforts of BFO management and staff. BFO responded to the OIG's prior year
finding by implementing OIG-recommended corrective actions and by
implementing an enhanced year-end financial statement review process of their
own design.

During our FY 2008 audit, we identified material transactions that were recorded
incorrectly which were not detected and corrected timely because the primary
control, supervisory review and approval of transactions, is not operating as
designed. As a result, financial accounting controls cannot be relied upon to
ensure that material errors will be detected to prevent misstatements in financial
reporting. In addition, controls over financial statement preparation are not fully
effective.


Significant Deficiency

Reconciliation of Benefit Payment Subsystems with the General Ledger

Current accounting procedures do not provide for periodic reconciliation of the
general ledger with the benefit payment systems in which those transactions
originate. There is no compensating control that would provide similar
assurance concerning the completeness of recording and reporting for benefit
payment expense which exceeded $10 billion during FY 2008.

Significant accounts should be reconciled to the general ledger timely; the lack of
such reconciliations represents a control deficiency. The detailed records
concerning payments adjudicated and issued is stored in various automated
systems that support the benefit payment process. Benefit payment activity is




                                       - 97 -
Auditor's Report                                                                            Page 6


manually recorded in the general ledger from summary data originating in other
systems.

This weakness was brought to management's attention in connection with earlier
       4
audits. Upon detailed review, management did not implement the
recommended reconciliation process citing the inability of existing benefit
payment subsystems to support a cost-effective control and reconciliation
process. Since that time, the OIG has identified a more cost-effective
reconciliation process. RRB financial managers have been receptive to
reconsidering the issue and have agreed to study the OIG's suggestion.


COMPLIANCE WITH LAWS AND REGULATIONS

Our tests of compliance with selected provisions of laws and regulations
disclosed no instances of non-compliance that are reportable under U.S.
generally accepted government auditing standards or OMB guidance. However,
the objective of our audit was not to provide an opinion on overall compliance
with laws and regulations. Accordingly, we do not express such an opinion.

CONSISTENCY OF OTHER INFORMATION

Management's Discussion and Analysis, required supplementary information, and
other accompanying information contain a wide range of data, some of which are
not directly related to the financial statements. We did not audit and do not
express an opinion on this information. However, we compared this information
for consistency with the financial statements and discussed the methods of
measurement and presentation with RRB o'fficials. Based on this limited work, we
found no material inconsistencies with the financial statements or nonconformance
with OMB guidance.

OB..IECTIVES, SCOPE, AND METHODOLOGY

RRB management is responsible for (1) preparing the annual financial statements
in conformity with U.S. generally accepted accounting principles, (2) establishing,
maintaining, and assessing internal control to provide reasonable assurance that
the broad control objectives of the Federal Managers' Financial Integrity Act
                                                                          5
(FMFIA) are met, and (3) complying with applicable laws and regulations.

4"Review of Internal Control Over Financial Accounting for Debt Recoveries," OIG Report #00-16,
September 29, 2000, page 10.
    "Letter to Management," OIG Report #02-07, February 8, 2002, page 5.
5'nternal Control as it relates to the financial statements is a process, affected by the agency's
management and other personnel, designed to provide reasonable assurance that the folloWing
objectives are met: (1) Reliability of financial reporting - transactions are properly recorded,
processed, and summarized to permit the preparation of the Basic Statements in accordance with
generally accepted accounting principles, and assets are safeguarded against loss from




                                               - 98 -
Auditor's Report	                                                                        Page 7



We are responsible for obtaining reasonable assurance about whether the
financial statements are presented fairly, in all material respects, in conformity
with U.S. generally accepted accounting principles. We are also responsible for
(1) obtaining a sufficient understanding of internal control over financial reporting
and compliance to plan the audit, (2) testing compliance with selected provisions
of laws and regulations that have a direct and material effect on the financial
statements, and any other laws for which DIVIS audit guidance requires testing;
and (3) performing limited procedures with respect to certain other information
appearing in these annual financial statements. In order to fulfill these
responsibilities, we:

    •	 examined, on a test basis, evidence supporting the amounts and

       disclosures in the proprietary and budgetary financial statements;

    •	 assessed the accounting principles used and significant estimates made
       by management in preparing the proprietary and budgetary financial
       statements;
    •	 assessed the factors, data, assumptions and model used to prepare the
       long-term actuarial projections presented in the statement of social
       insurance;
    •	 evaluated the overall presentation of the financial statements;
    •	 obtained an understanding of the entity and its operations, including its
       internal control related to financial reporting, compliance with laws and
       regulations (including execution of transactions in accordance with
       budget authority);
    •	 tested relevant internal controls over financial reporting and compliance,
       and evaluated the design and operating effectiveness of internal control;
    •	 considered the process for evaluating and reporting on internal control
       and financial manqgement systems under the FMFIA; and
    •	 performed tests of compliance with selected provisions of laws and
       regulations, including laws governing the use of budget authority, and
       other laws and regulations that could have a direct and material effect on
       the RRS's basic financial statements:

            o	 Anti-Deficiency Act, as amended;
            o	 provisions of the Railroad Retirement Act governing financing and
               the payment of benefits;



unauthorized acquisition, use, or disposition; and (2) Compliance with applicable laws,

regulations, and government-wide policies - transactions are executed in accordance with laws

governing the use of bUdget authority, government-wide policies, and laws identified by OMB, and

other laws and regulations that could have a direct and material effect on the Basic Statements.





                                             - 99 -
Auditor's Report	                                                              Page 8


          o	 provisions of the Railroad Unemployment Insurance Act governing
             financing and the payment of benefits; and
          o	 provisions of the Social Security Act that provide for certification of
             benefits to the RRB for payment (42 U.S.C. § 405(i)).

We did not evaluate all internal controls relevant to operating objectives as
broadly defined by the FMFIA, such as controls relevant to preparing statistical
reports and ensuring efficient operations. We limited our internal control testing
to controls over financial reporting and compliance. Because of inherent
limitations in internal control, misstatements due to error or fraud, losses, or
noncompliance may nevertheless occur and not be detected by our audit. We
also caution that projecting our evaluation to future periods is subject to the risk
that controls may become inadequate because of changes in conditions or that
the degree of compliance with controls may deteriorate. We also caution that
our internal control testing may not be sufficient for other purposes.

We did not test compliance with all laws and regulations applicable to the RRB.
We limited our tests of compliance to those laws and regulations that had a
direct and material impact on the RRB's financial statements or that we deemed
otherwise applicable to the financial statements for the fiscal year ended
September 30, 2008. We caution that noncompliance may occur and not be
detected by these tests and that such testing may not be sufficient for other
purposes.

The NRRIT was established pursuant to the Railroad Retirement and Survivors'
Improvement Act of 2001 (Public Law 107-90). Under that law, the NRRIT is not
a department, agency or instrumentality of the Government of the United States.
In addition, the law specifically exempts the NRRIT from compliance with Title
31, United States Code which governs the monetary and financial operations of
the Federal government. The law also provides that the NRRIT annually engage
an independent, qualified public accountant to audit the financial statements of
the NRRIT. Accordingly, the OIG has not audited the books and records of the
NRRIT, nor had any input into the selection of the independent accountant
retained by the NRRIT, nor provided oversight to that firm in the execution of
their responsibilities. Our opinion on the RRB's financial statements, insofar as it
relates to the amounts included for the NRRIT, is based solely on the report of
the auditor retained by the NRRIT, and our assessments of internal control and
compliance do not extend to the operations of the NRRIT.

Except to the extent that the foregoing arrangement may have affected the
planning and execution of our audit, we performed our work in accordance with
U.S. generally accepted government auditing standards and OMB audit
guidance.




                                       - 100 -
Auditor's Report                                                          Page 9


RRB MANAGEMENT'S COMMENTS

The offices of the Chief Financial Officer and the Board Members have reviewed
our report and offered comments expressing management's intention to address
the material weakness described in our report.

With respect to internal control, management notes that information security is a
significant challenge to which they have devoted substantial effort and resources
and that they will continue to do so. Regarding financial reporting, management
notes that they have implemented actions to improve the agency's financial
accounting and reporting processes, such as issuing additional written guidance
to the accounting staff and implementing a more comprehensive year-end
financial statement review. Additional actions are being evaluated and planned.
In response to the significant deficiency regarding the reconciliation of benefit
payment subsystems with the general ledger, management has agreed to review
the suggested reconciliation process and determine what action to take.

In their reply, they also thank OIG management and staff for working closely and
cooperatively with agency personnel to help ensure that the RRB would be able
to meet this year's reporting deadline of November 17, 2008.

The full text of management's response follows as an attachment to this report.




Original signed by:
Martin J. 'ckman
Inspector General
November 6, 2008, -except for matters relating to
the fair market value of the net assets of the
NRRIT as of September 30, 2008, as to which
the date is November 17, 2008.




                                     - 101 -
               UNITED STATES GOVERNMENT	                                       FORM G-115f 11-821
                                                             ATTACHMENT

                MEMORANDUM                               RAILROAD RETIREMENT BOARD



                                                             NOV	 1.. 4 2008

TO	            Letty Benjamin Jay
               Assistant Inspector General for Audit

FROM	          KennethP.Boehne          ~/~
                                       Original signed by:
               Chief Financial Officer

SUBJECT:	      FY 2008 Financial Statement Audit Original signed by:-Auditor's Report;
               Re: Your memorandum dated November 12,2008


My office, and those of the Board Members, have reviewed the Office of Inspector
General's draft report and have the following comments.

You reported material weaknesses in your draft report dealing with information
security and financial reporting. Regarding the former, the Railroad Retirement
Board continues to recognize that information security is a significant challenge.
We have devoted substantial effort and resources to correct weaknesses in the
agency's information security program. We will continue to do so in order to
address the weaknesses identified by the Office of Inspector General. Regarding
the latter, we have implemented actions to improve the agency's financial
accounting and reporting processes, such as issuing additional written guidance to
the accounting staff and implementing a more comprehensive year-end financial
statement review. Additional actions are being evaluated and planned.

You also reported a significant deficiency regarding the reconciliation of benefit
payment subsystems with the general ledger. We will review with you the
suggested reconciliation process and determine what action to take.

We again thank you and your staff for working closely and cooperatively with us
these past few months to help ensure that the RRB will be able to meet this year's
reporting deadline of November 17.


cc:	   The Board
       Executive Committee



                                     - 102 -
OTHER ACCOMPANYING INFORMATION
PAGE INTENTIONALLY LEFT BLANK 

                      UNITED STATES RAILROAD RETIREMENT BOARD

                                   OFFICE OF INSPECTOR GENERAL




This statement has been prepared pursuant to the Reports Consolidation Act of
2000 and the requirements of Office of Management and Budget Circular A-136
which require that the Inspectors General identify what they consider to be the
most serious management challenges facing the agency and briefly assess the
agency's progress in addressing those challenges. Our identification of
challenges facing Railroad Retirement Board (RRB) management is based on
recent audits, evaluations and our general knowledge of the RRB's programs
and operations.

The RRB, as a Federal agency in the 21 st century, faces many challenges.
These challenges may arise through internal management processes or be the
result of external influences. The most readily identifiable challenges are those
that management has set for themselves through internal processes. The RRB
has identified its organizational objectives in its annual performance report.
Meeting and sustaining these goals is a challenge that management has set for
itself. Less obvious, are the challenges posed by changes in the environment in
which management must operate to meet its organizational objectives. These
challenges may arise from legislative and regulatory mandates as well as
advances in technology and the economic environment.

The RRB faces the greatest challenge from this latter category. The U.S.
Government, through the standards and guidance of the Office of Management
and Budget (OMB), Government Accountability Office (GAO) and the National
Institute of Standards and Technology (NIST) have set high goals for Federal
managers in performance reporting, financial accountability and in the way that
we use information technology to accomplish organizational goals. In addition,
legislative changes have altered the oversight framework for asset management.
The OIG has identified areas in which the RRB's faces significant management
and oversight challenges.

Oversight For Invested Assets of the Railroad Retirement Act Program

During FY 2008 the Office of Inspector General (OIG) raised concerns about the
effectiveness of oversight for the National Railroad Retirement Investment Trust
(NRRIT), a multi-billion dollar investment enterprise. 1 The legislation that created
the trust precludes agency management and its Inspector General from
exercising their traditional roles as stewards of program assets and independent
watchdog, respectively. Recent turmoil in the national financial markets makes
this matter an acute concern since the NRRIT holds and invests substantially all


1   On March 31, 2008, the OIG released a "Statement of Concern" discussing this issue in detail.




                                               - 105 -
Inspector General Statement                                                 Page 2 of 5
Management Challenges

program assets upon which the retirement, survivor and disability programs rely
for future solvency.

December 2001 amendments to the Railroad Retirement Act (RRA) created the
NRRIT, independent of the RRB, to manage and invest railroad retirement assets in
a diversified investment portfolio in the same manner as those of private sector
retirement plans. 2 At the end of FY 2007, the NRRIT reported net assets of $32.6
billion representing approximately 97% of the RRB's $33.5 billion net position and
was ranked 45th in total assets among U.S. pension funds.
The NRRIT is not a Federal agency and the members of the Board of Trustees are
not officers or employees of the government. The Railroad Retirement Survivor's
Improvement Act, which created the NRRIT, provides that lithe Trust is not a
department, agency, or instrumentality of the Government of the United States and
shall not be subject to title 31, United States Code." Although the NRRIT is
independent of the RRB, the RRB has enforcement authority with respect to
compliance with RRA. That is, the RRB has legal standing to bring the Trust, its
Board of Trustees, its employees, or agents to court if the agency believes that the
Trust is not in compliance with the requirements of the Act. However, that authority
is not supported by an adequate oversight program.
The RRA includes specific language concerning independent oversight of the Trust
which requires only an annual audit of the Trust's financial statements but does not
require, or otherwise provide for, audits of compliance with laws and regulation or
evaluations of management performance. As a result, although the RRB has
enforcement authority, no provision has been made to provide RRB management
with the information it needs to determine whether any enforcement action may be
necessary. An annual financial statement audit is not adequate to support the
RRB's enforcement responsibility because such audits are not intended to provide
information about all areas of risk that could indicate the need for enforcement
action.
The specific requirement for an annual financial audit and lack of provision for any
other type of audit or oversight activity has been understood by the RRB's DIG to
exclude the Trust from the DIG's audit and investigative responsibilities. No other
organization, public or private, has assumed what would otherwise be the DIG's
oversight role.


Financial Accounting and Reporting

During FY 2008, the GIG reclassified a preViously reported significant deficiency
in controls over financial reporting as a material weakness for FY 2008 because
the originally cited condition had not been corrected. The inability to correct, or
sustain correction, of a significant deficiency is an indicator of material weakness.




2   Public Law 107-90, December 21,2001, codified in 45 U.S.C. § 231 nO)




                                             - 106 -
Inspector General Statement                                             Page 3 of 5
Management Challenges

The OIG first reported this control weakness as a significant deficiency in
connection with its opinion on the RRB's FY 2006 financial statements.
Subsequently, we described the various individual matters that, in the aggregate,
created that deficiency in a separate letter to management. These matters
included errors and inconsistencies in the financial statements and supporting
documentation, including support for general ledger accounting, which indicated
that existing controls were not fully effective.

Although we observed notable efforts to strengthen internal control over financial
accounting and reporting during FY 2007, we find that the RRB has been unable
to sustain that improvement during FY 2008, to ensure that employees, in the
normal course of performing their assigned functions, can prevent or detect
misstatements on a timely basis.

Information Technology Security

Information security means protecting information and information systems from
unauthorized access, use, disclosure, disruption, modification or destruction in
order to provide confidentiality, integrity, and availability.

The RRB is still in the process of developing an information security
management program that complies with the requirements of the Federal
Information Security Management Act (FISMA) and the National Institute of
Standards and Technology (NIST). Although the agency is making progress, this
is a significant undertaking and can be expected to present a challenge during
the near future.

The RRB expects to complete the certification and accreditation of its general
support and major application systems during FY 2009. Agency managers have
been working with technical specialists under contract to the RRB to achieve a
NIST-compliant certification and accreditation process. This process includes
risk assessments, updated security plans, security testing and evaluation, as well
as development of a plan of action and milestones to address control
deficiencies. Once completed, the certification and accreditation process
process will better position the RRB for full FISMA compliance in the future.


Safeguarding Privacy

The RRB collects and retains sensitive personally identifiable information about
its beneficiaries and employees which needs to be safeguarded from
unauthorized disclosure.

The Privacy Act of 1974 requires Federal agencies to establish appropriate
administrative, technical and physical safeguards to insure the security and
confidentiality of records and to protect against any anticipated threats or




                                      - 107 -
Inspector General Statement                                                Page 4 of 5
Management Challenges

hazards to their security or integrity which could result in substantial harm,
embarrassment, inconvenience, or unfairness to any individual on whom
information is maintained. The RRB has implemented a privacy program and
appointed a Chief Privacy Officer to oversee its operation .

During FY 2007, OIG audits identified weaknesses in the physical security of
sensitive information stored on paper, in computers and other electronic and non­
elect ronic media. The OIG has recommended that the RRB develop a more
comprehensive security program and offered additional, more specific
reco mmendations to strengthen the agency's privacy program. RRB
management responded positively to OIG recommendations to strengthen that
program, agreeing to take corrective action in all areas.

Also in FY 2007, the RRB established two committees charged with responding
to losses of personal information in the event of a data breach and providing
oversight to the agency's privacy program.

Information technology security is a critical part of an effective privacy program.
As the RRB moves toward FISMA compliance, it will also strengthen its privacy
program . Corrective action remains pending on many prior OIG audit
recommendations concerning privacy issues.

Improper Payments

During FY 2007, the RRB paid nearly $10 billion in retirement, survivor and
disability benefits under the provisions of the RRA. The Improper Payments
Information Act of 2002 (IPIA) (Pub. L. NO.1 07-300) established requirements for
measuring and reporting improper payments in Federal programs. Appendix C,
Part I. to OMB Circular A-123, Management's Responsibility for Internal Controls
provides guidance to agencies implementing IPIA requirements.

Pursuant to the IPIA, the RRB reports annually on agency progress in reducing
improper payments and has reported a reduction in the rate of RRA improper
payments as compared with outlays, dropping from 1.64% in FY 2004 to .95% in
FY 2007, and a reduction in RUIA improper payments from 2.11% in FY 2004 to
2.00% in FY 2007. During that same period, benefit -related accounts
receivables grew from $30.3 million to $39.5 million.

Monitoring and reducing improper payments is inherently challenging in a
business environment that makes benefit entitlement payments of such
magnitude under complex entitlement and computational regulations.




                                     - 108 -
 Inspector General Statement                                             Page 5 of 5
 Management Challenges

 Occupational Disabilities

Like the Social Security Act, the RRA provides for the payment of benefits to

railroad workers who have been totally and permanently disabled from all work.

Unlike the Social Security Act, the RRA also includes a provision that permits

certain longtime railroad workers to qualify for an annuity if they are disabled

from work in their regular railroad occupation.


The occupational disability annuity is a unique benefit in that it is a Federal
program managed by a government agency serving workers in a single industry.
The occupational disability provision of the RRA provides an annuity for life to
workers in the railroad industry who have at least 20 years of service and are
medically disqualified from performing his or her regular railroad occupation.

Occupational disability benefits remain payable as long as the disabled worker is
unable to return to their railroad occupation even though they may be able to
perform other types of work. This threshold for qualification, which is lower than
the standard for determining total and permanent disability under the Social
Security Act, makes the occupational disability program susceptible to fraud and
abuse.

The entitlement to occupational disabilities is established by federal statute. That
statute also requires the RRB to establish occupational disability standards with
the cooperation of railroad employers and railroad employees. As a result, any
successful reform initiative will require negotiation by both rail labor and rail
management and possibly legislative change.




~~
Original signed by:

Martin J. Dickman

Inspector General


October 17, 2008




                                      - 109 -
                                   Management’s Comments


These are Management’s comments on the Management and Performance Challenges
identified by the Railroad Retirement Board Inspector General.

Oversight for Invested Assets of the Railroad Retirement Act Program

The Inspector General, in Management and Performance Challenges Facing the Railroad
Retirement Board, restates his concern that the Railroad Retirement and Survivors’
Improvement Act of 2001 (RRSIA) does not provide for adequate Federal oversight of the
investment operations of the National Railroad Retirement Investment Trust (NRRIT).

As the Inspector General notes, the RRSIA created the NRRIT as a non-Federal entity with
responsibility for investment of railroad retirement trust funds. The Board of Trustees of the
NRRIT is comprised of seven members: three who represent railroad carriers, three who
represent railroad labor, and an independent member who is selected by the other six Trustees.
The statute provides that these Trustees “shall discharge their duties … with respect to the
assets of the Trust solely in the interest of the Railroad Retirement Board and through it, the
participants and beneficiaries of the programs funded under this Act….” The Act requires the
NRRIT to engage an independent auditor to conduct an annual audit of the NRRIT’s financial
statements. The financial statements and the auditor’s report are included in NRRIT’s annual
management report, which is required to be submitted to the Congress, with copies to the
President, the Railroad Retirement Board, and the Office of Management and Budget.
Enforcement authority is delegated to the Railroad Retirement Board to:

       bring a civil action –
       (i)	 to enjoin any act or practice by the Trust, its Board of Trustees, or its 

             employees or agents that violates any provision of this Act; or 

       (ii)	 to obtain any other appropriate relief to redress such violations, or to enforce
             any provisions of this Act.

The statute clearly delegates authority to audit to an independent public accountant, not to the
Railroad Retirement Board or to the Railroad Retirement Board Office of Inspector General.
The NRRIT has engaged Deloitte & Touche to conduct annual audits, as well as an update of
the annual audit to provide information for the Statement of Social Insurance. The NRRIT has
always met the statutory deadline for submission of the management report to the Congress
and other entities, and each such report has contained all information called for by the statute.

The Inspector General suggests that the information provided in the Trust’s annual financial
statement and audit report is not sufficient for the Railroad Retirement Board to perform its
delegated enforcement responsibilities under the Act. The Board does not agree with the
Inspector General’s opinion in this regard, but also wishes to point out that the annual financial
statements and the audit report are not the only information available to the Board. Subsequent
to enactment of the legislation and creation of the NRRIT, the Railroad Retirement Board,
Department of the Treasury, Office of Management and Budget, and the NRRIT reached
agreement on a Memorandum of Understanding calling for the NRRIT to provide additional
financial information to the Railroad Retirement Board and other entities on a monthly basis.
NRRIT information is incorporated in accounting records as appropriate and is disseminated
within the agency and to the Department of the Treasury. Moreover, the three-member Board
that heads the agency meets twice a year with the Trustees and key NRRIT staff to get updates


                                              - 110 -
on NRRIT investment activities and performance. Finally, the agency’s General Counsel meets
with the NRRIT’s Chief Executive Officer/Chief Investment Officer and Counsel to the Trust
following each meeting of the Board of Trustees to discuss the agenda of the meeting and other
issues of interest.

The Board takes its responsibilities under the Railroad Retirement and Survivors’ Improvement
Act very seriously and the agency believes that we have sufficient information available to us to
effectively carry out those responsibilities.

Financial Accounting and Reporting

We continue to enhance the financial accounting and reporting processes. The agency has
implemented actions to improve these processes, such as issuing additional written guidance to
the accounting staff and implementing a more comprehensive year-end financial statement
review. Additional actions are being evaluated and planned.

Information Technology Security

As noted by the Inspector General, the Railroad Retirement Board is making progress in
developing an information security management program. We expect to make significant
progress in further developing this program in fiscal year 2009. Our work to improve our
information security management program focuses on NIST-compliant security training and
security awareness programs. Additionally, we plan to build upon the successful completion in
fiscal years 2007/2008 of the certification and accreditation process of our two general support
systems and five major applications. The certification and accreditation of our one remaining
major application will be completed in fiscal year 2009, as will the NIST-required annual self-
assessments of our accredited systems. Also, we plan to complete the final NIST Risk
Management Framework phase by conducting control monitoring on the accredited systems.

We will continue to find new ways to improve information technology security and heighten
security awareness among our workers. As a recent example of such efforts, we upgraded our
Intrusion Detection System, which produced a 60 percent reduction in malware infections. To
maintain this progress, we need to continue our succession planning efforts so that we retain a
team of highly qualified security specialists.

Safeguarding Privacy

In fiscal year 2008, we worked on the foundation of our privacy program. Specifically, we
updated the agency’s privacy guidance regarding the Privacy Act. We also revised the
agency’s System Development Life Cycle to embed Privacy Impact Assessment requirements
in business processes, thereby raising awareness of privacy for all who are involved in systems
development.

We recently increased the agency’s privacy program staffing. This will allow us to more
aggressively establish priorities, promote critical safeguards to protect personally identifiable
information, and address audit recommendations and other privacy issues.

Improper Payments

We agree that monitoring and reducing improper payment rates is challenging. The agency has
made concerted efforts to pay out only benefits due, and has increased its efforts to recognize


                                               - 111 -
and prevent overpayments due to excess earnings after retirement in the past few years. The
results of those efforts are reflected in increases in the benefit-related accounts receivables and
the reductions in rates of improper payments since our earlier reports. We will continue to focus
on reducing improper payments in the coming year.

Occupational Disabilities

The Inspector General states his opinion that the occupational disability program is susceptible
to fraud and abuse. He states that this is because the threshold for finding entitlement to an
occupational disability annuity is lower than the standard for finding total and permanent
disability.

The Railroad Retirement Act was amended in 1946 to provide for the payment of an annuity to a
railroad employee who is at least 50 years of age with 20 years of railroad service, or age 60,
who is no longer able to perform his or her regular railroad occupation. The Act provides that
the Board is to work with railroad labor and management in the establishment of standards for
determining occupational disability. The Board has done that with the resulting product being
occupational disability regulations and the occupational disability manual, both of which were
adopted in 1998. The regulations established the Occupational Disability Advisory Committee,
comprised of a physician representing railroad labor and a physician representing railroad
management, with the function of reviewing the Board’s regulations and the occupational
disability claims manual and making recommendations for changes.

Since the Occupational Disability Committee was established in 1998, the Board has requested
that the Committee conduct two audits of occupational disability cases. The first, conducted in
2000, resulted in the Board approving several changes in the occupational disability
adjudication process to tighten up that process. The second audit was just completed and the
report is being reviewed by railroad labor and railroad management as well as the Railroad
Retirement Board.

The Railroad Retirement Board is administering the occupational disability program consistent
with the provisions of the Railroad Retirement Act and the regulations adopted there under in
consultation with railroad labor and railroad management.




                                              - 112 -
                Improper Payments Information Act (IPIA) Reporting Details


I. Describe the risk assessment(s), performed subsequent to completing the full program
inventory. List the risk-susceptible programs (i.e., programs that have a significant risk
of improper payments based on OMB guidance thresholds) identified through risk
assessments. Be sure to include the programs previously identified in the former
Section 57 of OMB Circular A-11 (now located in Circular A-123, Appendix C).

The RRB’s Office of Programs reviewed each of the two benefit payment programs the agency
administers which are both listed in the former Section 57 of OMB A-11: Retirement and
Survivor Benefits (referred to as RRA) and Railroad Unemployment Insurance Benefits (referred
to as RUIA). The agency used the process described below to calculate the amount of
improper payments made in fiscal year 2007.

                   Results of Fiscal Year 2007 Improper Payment Review

                                                                               Action Plan or
                Improper Payment Amt.           Improper Payment Rate
 Program                                                                          Targets
                     >$10 million                       >2.5%
                                                                                 Needed?
RRA                        Yes                             No                         No
RUIA                        No                             No                         No


II. Describe the statistical sampling process conducted to estimate the improper
payment rate for each program identified.

The agency has an established methodology for identifying improper payments in the RRA and
RUIA benefit payment programs. It is based on determining both the known overpayments and
underpayments, which have since been recovered or paid out, and estimating those which
result from adjudicative error, but have not been identified or corrected. It also uses information
from quality assurance reviews. These reviews employ statistical sampling to study railroad
retirement awards and unemployment and sickness insurance claims. Also included are
projections of improper payments from audits and special studies.


III. Describe the Corrective Action Plans for reducing the estimated rate and amount of
improper payments for each type of category of error. This discussion must include the
corrective action(s) for each different type or cause of error, and the corresponding steps
necessary to prevent future recurrence. If efforts are ongoing, it is appropriate to include
that information in this section.

There are several ongoing activities and projects aimed at improving the accuracy of the
payments and reducing erroneous payments.

Improper payments in the RRA and RUIA programs typically fall into two categories:
adjudicative error (i.e., benefit payment decisions that are inconsistent with the law or
regulations) and out-of-date information that impacts benefit entitlement.



                                              - 113 -
¾	 To detect improper payments due to adjudicative error, the agency conducts quality
   assurance programs and validation reviews, which identify activities that are susceptible
   to error and suggests process improvements and procedures to prevent further errors.
   The initiatives to minimize specific types of improper payments in the RRA program
   include:

   •	 A system which evaluates employer-reported changes to the employee service and
      compensation records and adjusts annuities, if needed. The initial implementation of
      this process in fiscal year 2006 handled the evaluation of record changes posted in
      January 2006. In fiscal year 2007, the system evaluated adjustments posted prior to
      January 2006. This initiative identified specific RRA improper underpayments and
      paid out additional benefits due. Therefore, this resolved many of the improper
      payments that have been included in previous years’ estimates. This system is
      being run quarterly so that annuity adjustments are made timely, and properly.
   •	 A special project to resolve unverified SSN’s of railroad employees. This will ensure
      that the correct earnings are recorded to the correct SSN which serves as a basis of
      the calculation of benefits.
   •	 A project to resolve inconsistencies related to the SSN on records of auxiliary
      beneficiaries (Spouse, Children and Widow(er)s). This will allow the agency to
      match to the SSA earnings database to identify earnings and to match to files
      containing death information.
   •	 A multiphase process which allows users to enter any annuitant’s earnings
      information online, and store the information in a database. This system allows the
      RRB to adjust annuity payments for earnings on a timely basis, which minimizes any
      underpayments or overpayments that may result from changes in earnings.
   •	 Better procedures to identify unreported last pre-retirement employment earnings
      after the annuity beginning date.

¾	 To detect improper payments due to out-of-date information, the agency conducts
   comprehensive monitoring and program integrity efforts which aim to validate continued
   entitlement to benefits. In fiscal year 2007, the agency achieved a return of $5.48 for
   every dollar in staff time invested in program integrity activities.

   Preventing improper unemployment and sickness payments is accomplished through
   pre-payment and post-payment verifications with the rail employers. These processes
   determine if benefits are being claimed for days the rail employee also receives payment
   or is otherwise not entitled to RUIA benefits. Currently, some of the largest rail
   employers actively participate in an automated 3-day prepayment verification process
   which prevents improper payments before they are made. During fiscal year 2007,
   pre-payment verification prevented payment of over $900,000 in benefits. Because
   payment was prevented, this amount was not considered improper. Since the current
   pre-payment verification process is not available to most rail employers, the majority
   have to take exception to improper claims after they are paid. Those payments are
   recorded as improper, requiring a recoverable to be established. During fiscal year
   2008, the RRB is expanding the Employer Reporting System to enable more employers
   to participate in pre-payment verification through an Internet-based process. To the
   extent that employers make use of the new system, the level of improper payments will
   be further reduced through prevention.




                                         - 114 -
Furthermore, the agency maintains a management control review process for all benefit
payment programs. Responsible officials identify and report weaknesses in annual certifications
required under the Federal Managers’ Financial Integrity Act.

Additionally, during fiscal years 1999 through 2008, the OIG presented RRB management with
117 recommendations for process improvement and corrective action pertaining to improper
payments. Agency management has implemented or plans to implement 111 of the 117
recommendations. The agency will continue to work with the OIG to address the issue of
improper payments in its benefit programs.


IV. Program improper payment reporting.

a. The table below is required for each reporting agency.

               Improper Payment (IP) Reduction Outlook FY 2006 – FY 2011
                                       ($ in millions)

               FY 06                          FY 07                           FY 08
                          FY 06    FY 06                  FY 07   FY 07                  FY 08   FY 08
 Program     $ Outlays                      $ Outlays                       $ Outlays
                          IP %      IP $                  IP %     IP $                  IP %     IP $
              (actual)                       (actual)                      (estimated)

 RRA          $9,457.4    1.36    $128.6    $9,812.5      0.95    $92.7    $10,108.2     0.95    $95.5

 RUIA         $105.6       2.6     $2.8      $107.0        2.0     $2.1      $115.5       2.0    $2.3




               FY 09                          FY 10                           FY 11
                          FY 09    FY 09                  FY 10   FY 10                  FY11    FY 11
 Program     $ Outlays                      $ Outlays                       $ Outlays
                          IP %      IP $                  IP %     IP $                  IP %     IP $
            (estimated)                    (estimated)                     (estimated)

 RRA         $10,433.3    0.95     $98.6    $10,766.7     0.95    $101.8   $11,105.4     0.95    $105.0

 RUIA         $123.2       2.0     $2.5      $130.8        2.0     $2.6      $136.0       2.0     $2.7


        Note: The absolute value of the over and under-paid dollars and the rates is shown—the figures
        are not netted.

   At the time this report was prepared, the latest actual data available was for fiscal year
   2007. The estimates for fiscal year 2008 through 2011 are based on the December 2007
   OMB budget review estimates. For the RRA program, the improper payment rates for fiscal
   year 2007 and beyond reflect implementation in fiscal year 2007 of the processing
   improvements discussed above.

   For the RUIA program, the agency has applied the fiscal year 2007 percentage rate to
   estimated outlays to estimate improper payment amounts for future years.




                                                - 115 -
b.	 Discuss your agency’s recovery of improper payments, if applicable. Include in your
    discussion the dollar amount of cumulative recoveries collected beginning with
    FY 2004.

   Despite all the agency’s best efforts to prevent improper payments, some will always occur,
   due to lack of timely information, etc. In overpayment situations, the agency is diligent in its
   recovery efforts. The RRB’s account receivable balance for the RRA program at the end of
   fiscal year 2007 was $44,554,432. This balance includes debts classified as currently not
   collectible. We estimate that approximately 79.3 percent of these receivables will be
   collected and that the remaining 20.7 percent will eventually be closed as uncollectible. The
   RRB’s collection program is in full compliance with the Debt Collection Improvement Act of
   1996. For the period of fiscal years 2003 through 2007, the RRB recovered $129,836,137 in
   RRA program receivables. Recoveries are made through offset of future benefits,
   reclamation from the financial institution of benefits erroneously paid after the death of a
   beneficiary, and direct payment from debtors. Fraudulent payments are referred to the
   Office of Inspector General for prosecution through the Department of Justice. Delinquent
   accounts are referred to the Department of the Treasury for cross-servicing and offset of
   Federal payments.

   The RRB’s account receivable balance for the RUIA program at the end of fiscal year 2007
   was $11,203,081. This balance includes debts classified as currently not collectible. We
   estimate that approximately 72.9 percent of these receivables will be collected and that the
   remaining 27.1 percent will eventually be closed as uncollectible. The RRB’s RUIA
   collection program is in full compliance with the Debt Collection Improvement Act of 1996.
   For the period of fiscal years 2003 through 2007, the RRB recovered $184,845,720 in RUIA
   program receivables. Recoveries were received from settlements by railroads for injury and
   time lost claims filed by rail employees, through offset of future benefits, and direct payment
   from debtors. Fraudulent payments are referred to the Office of Inspector General for
   prosecution through the Department of Justice. Delinquent accounts are referred to the
   Department of the Treasury for cross-servicing and offset of Federal payments.


V. 	Recovery auditing reporting.

This does not apply to RRB’s benefit programs.


VI. Describe the steps the agency has taken and plans to take (including time line) to
ensure that agency managers (including the agency head) are held accountable for
reducing and recovering improper payments.

Paying benefits accurately and timely, and providing prudent stewardship over agency trust
funds are the agency’s two strategic goals. Agency managers have links to those goals in
their performance plans.


VII. Agency information systems and other infrastructure.

     a. 	 Describe whether the agency has the information systems and other
          infrastructure it needs to reduce improper payments to the levels the agency
          has targeted.


                                             - 116 -
     b. 	 If the agency does not have such systems and infrastructure, describe the
          resources the agency requested in its most recent budget submission to
          Congress to obtain the necessary information systems and infrastructure.

The agency requested fiscal year 2009 funding for System Modernization, which will contribute
to achieving the agency’s target architecture and to meeting its performance goals, including
accuracy of benefit payments, and stewardship of the trust funds. The modernization process
will help reduce redundancy, improve accuracy and speed, and transition our computing
environment to more modern technologies and methodologies.


VIII. Describe any statutory or regulatory barriers which may limit the agencies’
corrective actions in reducing improper payments and actions taken by the agency to
mitigate the barriers’ effects.

In the past, the agency has explored using the National New Hire Directory (NNHD) in order to
obtain information not available through our current matching programs with the States, which
would have the potential to further reduce improper payments in the RUIA program. However,
the RRB stopped seeking legal authority to access the NNHD because the administrative costs
of participating in that program were prohibitive. Until such time as we can get access and
sufficient funding to cover the costs of utilizing the NNHD, there is little more the RRB can do to
reduce or prevent the already low level of RUIA improper payments. Recently, we have
inquired with OMB whether there might be future potential for some cost relief in this area.


IX. Additional comments, if any, on overall agency efforts, specific programs, best
practices, or common challenges identified, as a result of IPIA implementation.

The RRB has made concerted efforts to reduce improper payments over the years. Payment
accuracy rates are at consistently high levels and the return on investment for program integrity
activities has been high as well. Both have been set as annual performance goals and reported
each year since the Government Performance and Results Act has been in effect. The agency
monitors progress on implementing recommendations from the quality assurance process, and
is vigilant about pursuing OIG recommendations which impact the quality and timeliness of
payments. The agency has also worked closely with the OIG in referring potential fraud cases
for its investigation and prosecution. The agency hopes to be able to maintain adequate staffing
so that it can continue this important effort.




                                              - 117 -
 Summaries of Financial Statement Audit and Management Assurances

Summary of Financial Statement Audit

Audit Opinion                                         Unqualified
Restatement                              Yes, Statement of Budgetary Resources

     Material Weaknesses            Beginning         New             Resolved    Consolidated      Ending
                                     Balance                                                        Balance
Information Technology Security          1                                                            1
Actuarial Projection Process –
Fund Balance                             1                               1
Financial Reporting                                    1                                              1
Total Material Weaknesses                2                                                            2


Summary of Management Assurances

                 Effectiveness of Internal Control over Operations (FMFIA § 2)
Statement of Assurance                                   Qualified

     Material Weaknesses          Beginning     New        Resolved     Consolidated   Reassessed    Ending
                                   Balance                                                           Balance


Information Technology Security      1                                                                    1
Actuarial Projection Process –
Fund Balance                         1                        1

Financial Reporting                              1                                                        1
Total Material Weaknesses            2                                                                    2


          Conformance with Financial Management System Requirements (FMFIA § 4)
Statement of Assurance Systems conform




                                                 - 118 -
APPENDICES
PAGE INTENTIONALLY LEFT BLANK 

                                   Appendices
Glossary of Acronyms and Abbreviations

A

ACSI                       American Customer Satisfaction Index
AMS                        American Management Systems, Inc.

B

BCP                        Business Continuity Plan
BIA                        Business Impact Analysis
BIPA                       Benefits Improvement and Protection Act of 2000
BIS                        Bureau of Information Services
BPD                        Bureau of the Public Debt
BRM                        Business Reference Model

C

CHRIS 	                    Comprehensive Human Resources Integrated System
CMS 	                      Centers for Medicare & Medicaid Services
CNC	                       Currently Not Collectible
COA 	                      Change of Address
COOP 	                     Continuity of Operations Plan
CPI-W	                     Consumer Price Index for Urban Wage Earners and Clerical
                           Workers

D

DCIA                       Debt Collection Improvement Act of 1996
DOJ                        Department of Justice
DOL                        Department of Labor

E

ERS                        E
                           	 mployer Reporting System

F

FAIR Act                   Federal Activities Inventory Reform Act
FASAB                      Federal Accounting Standards Advisory Board
FBWT                       Fund Balance With Treasury
FECA                       Federal Employees’ Compensation Act
FFS                        Federal Financial System
FHI                        Federal Hospital Insurance
FI                         Financial Interchange
FICA                       Federal Insurance Contributions Act
FMFIA                      Federal Managers’ Financial Integrity Act
FMS                        Financial Management Service
FY                         Fiscal Year
FOASI/DI                   Federal Old-Age and Survivors Insurance/Disability Insurance
FTE                        Full-time Equivalent




                                         - 121 -
G

GAO      Government Accountability Office
GISRA    Government Information Security Reform Act
GPRA     Government Performance and Results Act
GSA      General Services Administration

H

HIPAA    Health Insurance Portability and Accountability Act

I

IAE      Integrated Acquisition Environment
IPIA     Improper Payments Information Act
IRM      Information Resources Management
IRS      Internal Revenue Service
ISSO     Information System Security Officer
IT       Information Technology

M

MAC      Medicare Administrative Contractor
MCR      Medicare Contracting Reform
MCRC     Management Control Review Committee
MEDCOR   Medicare Correction System
MMA      Medicare Prescription Drug, Improvement and Modernization
         Act of 2003
MOU      Memorandum of Understanding

N

N/A      Not Applicable
NRRIT    National Railroad Retirement Investment Trust

O

OIG      Office of Inspector General
OMB      Office of Management and Budget
OPM      Office of Personnel Management

P

P&AR     Performance and Accountability Report
PBSC     Performance-based Service Contracting
PDP      Prescription Drug Plan
P&F      Program and Financing
PIN      Personal Identification Number

Q

QRRB     Qualified Railroad Retirement Beneficiary




                     - 122 -
R

RR              	Railroad Retirement
RRA 	            Railroad Retirement Act
RR Account 	     Railroad Retirement Account
RRB 	            Railroad Retirement Board
RRS Account 	    Railroad Retirement Supplemental Account
RRSIA 	          Railroad Retirement and Survivors’ Improvement
                 Act of 2001
RRTA 	           Railroad Retirement Tax Act
RUI	             Railroad Unemployment Insurance
RUIA 	           Railroad Unemployment Insurance Act
RUSI	            Railroad Unemployment and Sickness Insurance

S

SBR             Statement of Budgetary Resources
SCHIP           State Children’s Health Insurance Program
SFFAS           Statement of Federal Financial Accounting Standards
SPEED           System Processing Excess Earnings Data
SSA             Social Security Administration
SSEB            Social Security Equivalent Benefit

T

TOP             Treasury Offset Program
Treasury        Department of the Treasury
Trust           National Railroad Retirement Investment Trust
TSP             Thrift Savings Plan

U

USPS 	          United States Postal Service

V

VAN 	           Virtual Area Network




                            - 123 -
Railroad Retirement Board
Board Members, Inspector General, and Executive Committee



                                Board Members

        Chairman                                  Michael S. Schwartz
        Labor Member                              V. M. Speakman, Jr.
        Management Member                         Jerome F. Kever


                          Office of Inspector General

        Inspector General                         Martin J. Dickman


                             Executive Committee

        Director of Administration/Senior         Henry M. Valiulis
          Executive Officer
        General Counsel                           Steven A. Bartholow
        Chief Financial Officer                   Kenneth P. Boehne
        Director of Programs                      Dorothy A. Isherwood
        Chief Information Officer                 Terri S. Morgan
        Chief Actuary                             Frank J. Buzzi




                                      - 124 -
For additional copies of this report, please contact :
         Railroad Retirement Board
         Bureau of Fiscal Operations
         844 North Rush Street, 5t h Floor
         Chicago, Illinois 60611-2092
         Telephone : (312) 751-4590
         Fax : 312-751-7171
     Available on the Internet at: www.rrb .gov
